<html>
<title> - THE FUTURE OF COUNTERTERRORISM: ADDRESSING THE EVOLVING THREAT TO DOMESTIC SECURITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   THE FUTURE OF COUNTERTERRORISM: ADDRESSING THE EVOLVING THREAT TO 
                           DOMESTIC SECURITY

=======================================================================

                                HEARING

                              BEFORE THE

                            SUBCOMMITTEE ON
                            COUNTERTERRORISM
                            AND INTELLIGENCE

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2017

                               __________

                            Serial No. 115-6

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
 
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-904 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="086f7867486b7d7b7c606d6478266b676526">[email&#160;protected]</a>                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
             Kathleen Crooks Flynn,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Lou Barletta, Pennsylvania           Kathleen M. Rice, New York
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Will Hurd, Texas                     William R. Keating, Massachusetts
Mike Gallagher, Wisconsin            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
            Nicole Tisdale, Minority Staff Director/Counsel
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Edward F. Davis, III, Chief Executive Officer, Edward Davis, 
  LLC:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Thomas Joscelyn, Senior Fellow, The Foundation for the 
  Defense of Democracies:
  Oral Statement.................................................    11
  Prepared Statement.............................................    14
Mr. Robin Simcox, Margaret Thatcher Fellow, Margaret Thatcher 
  Center for Freedom, Davis Institute for National Security and 
  Foreign Policy, Heritage Foundation:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Mr. Peter Bergen, Vice President, Director, International 
  Security and Fellows Programs, New America:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29

                             For the Record

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania:
  Letter.........................................................    50
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article, New York Times........................................    60
  Article, Southern Poverty Law Center...........................    63

                                Appendix

Questions From Honorable Mike Gallagher for Edward F. Davis, III.    83
Questions From Honorable Mike Gallagher for Thomas Joscelyn......    84
Questions From Honorable Mike Gallagher for Robin Simcox.........    84
Questions From Honorable Mike Gallagher for Peter Bergen.........    86

 
                    THE FUTURE OF COUNTERTERRORISM: 
          ADDRESSING THE EVOLVING THREAT TO DOMESTIC SECURITY

                              ----------                              


                       Tuesday, February 28, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Peter T. King 
(Chairman of the subcommittee) presiding.
    Present: Representatives King, Perry, Hurd, Gallagher, 
Rice, Jackson Lee, and Keating.
    Mr. King. Good morning. The Committee on Homeland Security 
Subcommittee on Counterterrorism Intelligence will come to 
order.
    The subcommittee is meeting today to hear testimony from 
four counterterrorism and homeland security experts. I would 
like to welcome the Members of the subcommittee, particularly 
Ranking Member Kathleen Rice, and express my appreciation to 
witnesses who traveled to be here today.
    Now I recognize myself for an opening statement.
    In the weeks and months after the terror attacks of 
September 11, Congress and the administration worked together 
to fix the weaknesses which our enemies exploited to carry out 
their attacks. We created the Department of Homeland Security, 
restructured the intelligence community, and launched a war on 
terror to take the fight to our enemy, all to ensure that a 
similar attack would not happen again.
    In the years that followed, however, much of the energy 
behind these reforms has been lost. Budgets were cut and 
important legislative initiatives were delayed. By 2013, 
leaders in National security warned that the country was 
paralyzed with, ``terror fatigue.''
    At the same time, the al-Qaeda network evolved and 
metastasized and spread and ISIS began to take root, hundreds 
of Americans have been radicalized. A year ago, senior National 
security leaders testified that the United States is facing its 
highest threat level since 9/11.
    Few could have predicted in 2001 how the world would change 
over the next 16 years. There has yet to be another spectacular 
attack claiming thousands of lives, due largely to the heroes 
in the ranks of our intelligence community, armed forces, first 
responders, and law enforcement and vigilant citizens.
    As Commissioner Davis well knows, the increase in other 
attacks, though, across the United States carried out by 
adherents to the global jihadist ideology and the rapid 
revolution of terrorist tactics reveal that our enemy has 
changed with the times.
    We must prepare for even more change: Increased pressure on 
terror cell safe havens and the caliphate in Syria may result 
in a new terrorist diaspora as thousands leave the conflict 
zone. Our adversaries, including a newly emboldened Iran, will 
continue to exploit any available chaos.
    As the new administration settles in, there is no doubt 
that we are at a crossroads in U.S. counterterrorism strategy. 
We must have an aggressive, long-term strategy for addressing 
Islamic terrorist threat abroad and in the homeland.
    For years, this committee has worked hard to identify and 
eliminate weaknesses in U.S. security defenses. Professionals 
and experts have warned repeatedly about failures to connect 
the dots and share information between agencies. After-action 
reviews of various terror attacks have identified individual 
and systemic failures that remain unaddressed.
    We have an opportunity to carefully improve the homeland 
security of the United States. To whatever extent possible, 
this must include bipartisan cooperation and an eye on the 
vital issue of the safety and security for Americans. It is 
absolutely necessary to make progress as our adversaries will 
only continue to evolve.
    This hearing today provides our first step. To build on the 
foundation of our work in previous Congresses, the witnesses 
here today will offer perspectives on both the current homeland 
threat picture and how Congress working with the administration 
can fight to once again fix the weaknesses our enemies now 
exploit. I look forward to hearing your suggestions to where 
improvements can be made across our counterterrorism programs 
and policies.
    [The statement of Chairman King follows:]
                  Statement of Chairman Peter T. King
                           February 28, 2017
    In the weeks and months after the terror attacks of September 11, 
2001, Congress and the administration worked together to fix the 
weaknesses our enemies had exploited to carry out their attacks. We 
created the Department of Homeland Security, restructured the 
intelligence community, and launched a war on terror to take the fight 
to our enemy--all to ensure that a similar attack would not happen 
again.
    In the years that followed, however, much of the energy behind 
these reforms has been lost. Budgets were cut and important legislative 
initiatives were delayed. By 2013, leaders in National security warned 
that the country was paralyzed with ``terror fatigue.''
    At the same time, the al-Qaeda network evolved and spread, ISIS 
began to take root, and hundreds of Americans have been radicalized. 
One year ago, senior National security leaders testified that the 
United States is facing its highest terror threat level since 9/11.
    Few could have predicted in 2001 how the world would change over 
the next 16 years. There has yet to be another spectacular attack 
claiming thousands of lives--due largely to the heroes in the ranks of 
our intelligence community, armed forces, first responders and law 
enforcement, and vigilant citizens. Nonetheless, the increase of small-
scale attacks across the United States carried out by adherents to the 
global jihadist ideology and the rapid evolution of terrorist tactics 
reveal that our enemy has changed with the times. We must prepare for 
even more change: Increased pressure on terror safe havens and the 
``caliphate'' in Syria may result in a new terrorist diaspora as 
thousands leave the conflict zone. Our adversaries--including a newly 
emboldened Iran--will continue to exploit any available chaos.
    As the new administration settles in, there is no doubt that we are 
at a crossroads in U.S. counterterrorism strategy. We must have an 
aggressive, long-term strategy for addressing the Islamist terror 
threat abroad and in the homeland.
    For years, this committee has worked hard to identify and eliminate 
weaknesses in U.S. security defenses. Professionals and experts have 
warned repeatedly about failures to connect the dots and share 
information between agencies. After-action reviews of various terrorist 
attacks have identified individual and systemic failures that remain 
unaddressed.
    We have an opportunity to carefully, but considerably, improve the 
homeland security of the United States. To whatever extent possible, 
this must include bipartisan cooperation and an eye on the vital issue 
of the safety and security of Americans. It is absolutely necessary to 
make progress, as our adversaries will only continue to evolve.
    This hearing provides us our first step. To build on the foundation 
of our work in previous Congresses, the witnesses here today will offer 
perspectives on both the current homeland threat picture, and how 
Congress, working with this administration, can fight to once again fix 
the weaknesses our enemies now exploit. I look forward to hearing their 
suggestions for where improvements can be made across our 
counterterrorism programs and policies.

    Mr. King. Now I recognize the Ranking Member, Miss Rice.
    Miss Rice. Thank you, Mr. Chairman, for holding today's 
hearing.
    I want to thank the witnesses for their testimony today.
    As we examine the future of counterterrorism, I think it is 
important to step back and consider just how much the threat of 
terrorism has evolved in the past 10 or 20 years. Terrorists 
today are not leaving our borders, undergoing training in 
another country and returning to the United States to commit 
attacks. Terrorists no longer need to seek financing from 
terrorist organizations, nor do these individuals need the plan 
or permission of a terrorist group or a particular leader.
    More and more terrorists can be inspired by propaganda and 
rhetoric spewed over the internet. Lone actors, people who are 
self-radicalized and may not appear on a particular watch list 
to be flagged at the border, present an especially difficult 
task for our law enforcement officials. But the internet is not 
the only avenue to radicalization.
    Charged public rhetoric can be a factor, including from our 
own President. We have heard reports that ISIS refers to 
President Trump's travel ban as the blessed ban. They point to 
the ban as proof that the United States is at war with Islam 
and the Muslim world.
    I think it is important to recognize that words matter, 
particularly when we have a group like ISIS with such 
sophisticated communications operations. The words we use do 
matter; calling for a complete and total ban on Muslims 
entering the United States or going out of your way to call it 
radical Islamic terrorism, those words play right into our 
enemies' hands and do nothing to help our counterterrorism 
efforts.
    Additionally, I am particularly concerned right now about 
the recent wave of bomb threats made Nation-wide to Jewish 
community centers, or JCCs. Last week, I joined several Members 
of Congress in urging the Department of Homeland Security, the 
Department of Justice, and the FBI to fully investigate these 
threats.
    Over the last 2 decades, JCCs and Jewish institutions have 
several times been the target of domestic terrorist attacks. We 
must do more to protect these and similar social, recreational, 
and cultural facilities.
    To that end, I would ask Chairman King that this 
subcommittee commit to examining the work of DHS and FBI to 
help protect and harden JCCs and other religious institutions 
from terrorist threats. The threat landscape is ever-evolving 
and we have a responsibility to evolve with it and to confront 
the threat of terrorism in all its forms.
    I look forward to hearing from our expert witnesses today, 
and I hope this will be a constructive conversation.
    Thank you, Mr. Chairman.
    [The statement of Ranking Member Rice follows:]
              Statement of Ranking Member Kathleen M. Rice
                           February 28, 2017
    As we examine the future of counterterrorism, I think it is 
important to step back and consider just how much the threat of 
terrorism has evolved in the past 10 or 20 years. Terrorists today are 
not leaving our borders, undergoing training in another country, and 
returning to the United States to commit attacks. Terrorists no longer 
need to seek financing from terrorist organizations, nor do these 
individuals need the plan or permission of a terrorist group or a 
particular leader.
    More and more terrorists can be inspired by propaganda and rhetoric 
spewed over the internet. Lone actors--people who are self-radicalized 
and may not appear on a particular watch list or be flagged at the 
border--present an especially difficult task for our law enforcement 
officials.
    But the internet is not the only avenue to radicalization. Charged 
public rhetoric can be a factor, including from our own President. 
We've heard reports that ISIS refers to President Trump's travel ban as 
``The Blessed Ban.'' They point to the ban as proof that the United 
States is at war with Islam and the Muslim world.
    I think it's important to recognize that words matter--particularly 
when we have a group like ISIS with such sophisticated communications 
operations. The words we use do matter. Calling for a complete and 
total ban on Muslims entering the United States, or going out of your 
way to call it ``radical Islamic terrorism''--those words play right 
into our enemies' hands, and do nothing to help our counterterrorism 
efforts.
    Additionally, I'm particularly concerned right now about the recent 
wave of bomb threats made Nation-wide to Jewish Community Centers, or 
JCCs. Last week, I joined several Members of Congress in urging the 
Department of Homeland Security, the Department of Justice, and the 
Federal Bureau of Investigation to fully investigate these threats.
    Over the last two decades, JCCs and Jewish institutions have 
several times been the target of domestic terrorist attacks. We must do 
more to protect these and similar social, recreational, and cultural 
facilities.
    To that end, I would ask Chairman King that this subcommittee 
commit to examining the work of DHS and FBI to help protect and harden 
JCCs and other religious institutions from terrorist threats.
    The threat landscape is ever-evolving, and we have a responsibility 
to evolve with it, and to confront the threat of terrorism in all its 
forms.

    Mr. King. Thank you, Miss Rice. Obviously we would be, you 
know, delighted to work with you on this. I know over the 
years, especially the Jewish community in New York I can speak 
of personally, has received extensive homeland security funding 
and training and briefing on how to harden their targets and 
protect themselves. Obviously, if more has to be done, we will 
do it. It is really essential.
    Again, coming from New York, we are probably even more 
particularly aware of, you know, the nature of those threats. 
So thank you, and I look forward to working with you that.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statements of Ranking Member Thompson and Honorable 
Jackson Lee follow:]
             Statement of Ranking Member Bennie G. Thompson
                           February 28, 2017
    Today, we will hear about what can be done to effectively counter 
ISIL, al-Qaeda, sovereign citizens, and other terrorist organizations. 
Through improved intelligence and effective allegiances, we have come a 
long way as a Nation since September 11.
    However, just a little over a month into the Trump administration, 
the President, through his ill-conceived and hasty U.S. 
counterterrorism policies seeks to weaken counterterrorism defenses 
built over the 16 years since 9/11.
    For example, on January 27, President Trump used unilateral 
Presidential power to circumvent Congress and defied our Constitution 
by issuing an Executive Order based on stereotyping, fear-mongering, 
and bigotry. This careless Executive Order and President Trump's 
inflammatory rhetoric used throughout his campaign and during his 
presidency provides propaganda for terrorist networks and alienates our 
allies within the United States and abroad.
    While the Trump administration continues to advance policies that 
do nothing to make this country safer, and those in Congress defend 
these policies, questions still remain about one of the largest 
counterterrorism issues before our country.
    We have no more answers regarding President Trump and this 
administration's continuous entanglement with the Vladamir Putin 
Regime. In fact, we have more questions now than then because we know 
that President Trump's former National security advisor lied about his 
communications with the Putin regime. I am disappointed that 
Republicans in Congress are unwilling to acknowledge that this 
significantly impacts our National security.
    I have said it several times and I will continue, we need an 
independent commission to fully investigate Russia's interference with 
the election and any potential Trump campaign ties to Putin and his 
policies. Congress and the American public must be assured that our 
leaders have their best interests in mind when creating policy, 
especially and including our counterterrorism policies, not the best 
interests of foreign nations and their leaders.
                                 ______
                                 
               Statement of Honorable Sheila Jackson Lee
                           February 28, 2017
    Chairman Peter King and Ranking Member Kathleen Rice, the topic of 
today's subcommittee hearing is ``The Future of Counterterrorism: 
Addressing the Evolving Threat to Domestic Security.''
    I look forward to hearing from today's witnesses:
  <bullet> Edward Davis, former police commissioner of the city of 
        Boston;
  <bullet> Robin Simcox, Margaret Thatcher fellow, Margaret Thatcher 
        Center for Freedom, Heritage Foundation;
  <bullet> Thomas Joscelyn, senior fellow, Foundation for Defense 
        Democracies; and
  <bullet> Peter Bergen, vice president and director, international 
        security, future of war, and fellows programs, New America 
        (Democratic witness).
    As a senior Member of the House Committee on Homeland Security and 
Ranking Member of the Judiciary Subcommittee on Crime, Terrorism, and 
Homeland Security this topic has significance due to the number of 
violent acts committed in the United States since November 2016 number 
over 1,000.
    According to the Southern Poverty Law Center (SPLC), in the 
immediate aftermath of Election Day, a wave of hate crimes and lesser 
hate incidents swept the country--1,094 bias incidents in the first 34 
days following November 8, 2016.
    SPLC reports that anti-immigrant incidents (315) remain the most 
reported, followed by anti-black (221), anti-Muslim (112), and anti-
LGBT (109). Anti-Trump incidents numbered 26 (6 of which were also 
anti-white in nature, with 2 non-Trump related anti-white incidents 
reported).
    The purpose of this hearing is to receive testimony from the 
witnesses about efforts to examine the continued evolution of the 
terrorist threat and review policy changes that will further the 
homeland security and counterterrorism programs and policies of the 
United States.
    Unfortunately, ill-conceived U.S. counterterrorism policy under the 
Trump administration has and will likely continue to weaken the 
defenses built over the 16 years since 9/11.
    In the month since taking office, carelessly-created Executive 
Orders such as the Protecting the Nation From Foreign Terrorist Entry 
into the United States Executive Order and inflammatory rhetoric has 
provided propaganda for terrorist networks and alienated our allies 
within the United States and abroad.
    We can focus our efforts on a range of topics that impact homeland 
security, but we should not ignore how policies and public acts by 
individuals can contribute to the threat of home-grown terrorists or 
lone wolves as well as contribute to the recruitment efforts of ISIL, 
al-Qaeda, or other terrorist groups.
    There seems to be an implied if not expressed belief that violent 
acts carried out against certain persons living within the United 
States can be carried out without fear of a Justice Department led by 
Jeff Sessions or a White House with senior staff known to hold bias 
views towards minorities, immigrants, and others.
    Just last week, two Indian citizens who were enjoying a college 
basketball game with a friend were murdered.
    I want to offer my condolences to the family of Srinivas 
Kuchibhotla and my prayers for a speedy recovery for Alok Madasani who 
were brutally shot in Kansas City Kansas, and senselessly gunned down 
by an angry racist.
             recent terrorist attacks in the united states
    On November 28, 2016, 11 individuals were injured in an incident at 
Ohio State University when Abdul Razaq Ali Artan drove a car into a 
crowd and also wounded individuals with a knife.
    On July 17, 2016, an offender shot and killed six police officers 
in Baton Rouge, LA. Three of the officers died and three were 
hospitalized.
    On July 7, 2016, an offender shot and killed five police officers 
and wounded 11 others (9 police officers and two civilians) in Dallas, 
TX. The offender was killed by police with a remotely-guided robot 
loaded with an explosive.
    On June 12, 2016, an armed assailant shot and killed 49 people and 
non-fatally wounded over 50 others in an Orlando, FL nightclub. After a 
3-hour stand-off with police, the assailant was killed by police.
    On December 2, 2015, two offenders killed 14 people and wounded 21 
others in San Bernardino, CA at a social services center. Both 
offenders were killed by police while resisting arrest.
    On November 27, 2015, at a Planned Parenthood clinic, in Colorado 
Springs, CO, a lone offender shot and killed three people and wounded 
another nine people with a semiautomatic rifle before surrendering to 
the Police after a 5-hour stand-off.
    On July 16, 2015, in Chattanooga, TN, a lone offender killed five 
people and wounded another person at a military recruitment office and 
naval reserve center, before he was killed by police.
    On June 17, 2015, in Charleston, SC, a lone offender shot and 
killed nine parishioners and wounded another parishioner with 45 
caliber pistol at the historic Emanuel American Methodist Episcopal 
Church.
    The climate that the Nation is in at this moment poses the greatest 
threat to Homeland Security than at any other time since the days 
following September 11, 2001.
    Words matter as well as actions--we need diplomacy and a strong 
homeland security plan bolstered by a military that can come to the 
fore if peaceful efforts to resolve disputes fail.
    The United States cannot make more enemies than we are making 
friends--we cannot afford to turn our friends into enemies or absent 
allies when we need them to fight terrorist threats.
    I look forward to hearing from today's witnesses.
    Thank you.

    Mr. King. We are very pleased to have a distinguished panel 
of witnesses today on this important topic. All you have 
testified here before, and I want to thank Ed Davis, Tom 
Joscelyn, Robin Simcox, and Peter Bergen for once again 
returning.
    Our first witness is Commissioner Davis. Ed Davis is the 
president and CEO of Edward Davis LLC, a business strategy and 
securities firm. He has a 35-year career in law enforcement, 
including serving for 7 years as the police commissioner of the 
city of Boston. Prior to that, he served as superintendent of 
the Lowell, Massachusetts police department where he spent 
nearly 30 years. Commissioner Davis has consistently been a 
strong advocate for interagency collaboration and public 
safety. He has been a friend and trusted adviser to this 
committee for a number of years.
    I believe you testified within 1 or 2 months of the attacks 
at the Boston Marathon. It was very moving and, more than that, 
very poignant testimony detailing deficiencies that were there 
and how you are working to correct them, particularly in your 
dealings with the FBI. You have been a great source of 
information to Members on both sides of the aisle, and you have 
come back time again. I want to thank you for that.
    So with that, I recognized former Commissioner Ed Davis--
always be commissioner--Commissioner Davis for his testimony.

  STATEMENT OF EDWARD F. DAVIS, III, CHIEF EXECUTIVE OFFICER, 
                       EDWARD DAVIS, LLC

    Mr. Davis. Thank you for the opportunity to speak before 
you today.
    As I stated in my 2013 testimony before the Senate 
Committee on Homeland Security and Government Affairs, this 
topic is critically important and must remain a top priority 
for Congress.
    Our administration, Congress, law enforcement, and private 
citizens must continue to work together in a coordinated 
manner. A focus on communication and consistency of funding for 
multi-jurisdictional training drills, communication tools, and 
intelligence gathering is essential to prevention and 
mitigation in the event of an organized or lone-wolf attack 
domestically.
    Organized and lone-wolf attacks are not going away any time 
soon. These individuals are nimble and frequently change their 
methods. The goals, however, remain the same: Death, 
destruction, creation of fear and chaos. Just in 2016, we saw 
the brutal shooting and explosive attack on the Brussels 
national airport in Belgium that killed 32 civilians and three 
of the terrorists. A large truck plowing people down following 
the Bastille Day celebration in Nice, France that killed 86 
people. Different methods, same goals.
    More than ever before, relationships between law 
enforcement partners, stakeholders, and community members needs 
to be in place to prevent attacks. Law enforcement needs 
sufficient police resources and updated intelligence to collect 
relevant information prior to attacks and to truly begin to 
build trust within all of our communities.
    Following the attacks on September 11, counterterrorism 
efforts in the United States shifted to the prevention of the 
next domestic terror attack.
    JTTF, Joint Terrorism Task Forces, already in place at that 
time, established a working partnership with local, State, and 
Federal law enforcement authorities. At the time of the 
marathon bombing, there were information-sharing issues that 
were subsequently changed and improved. These JTTFs have proven 
to be a tremendous vehicle encouraging local, Federal, and 
State police to work together as full partners toward our 
Nation's critical mission of protecting the U.S. homeland.
    I am happy to report that in Boston, under the direction of 
SAC, Hank Shaw, the JTTF has been working better than ever. The 
changes that were put in after testimony at the Homeland 
Security Committee in 2013 remain in place today and are 
working very well in the city of Boston.
    Testing of the JTTF systems is important for effectiveness 
and transparency, however. Every JTTF should be audited at 
appropriate intervals by the Department of Justice. The audit 
should include the content of every memorandum of understanding 
between agencies to ensure it is staying current with the ever-
changing nature of the attacks, the type of investigations 
included in the databases and the actual sharing of information 
processes among JTTF members.
    If you are to be successful in combating terrorism, law 
enforcement, cities and towns, and our Government must be 
communicating, sharing information, improving intelligence, and 
coordinating our prevention and response efforts. In 2013, 
following the bombings at the Boston marathon, Federal agents 
worked side-by-side with local law enforcement officers, 
collecting evidence at the finish line, interviewing witnesses 
and suspects, combing through petabytes of data from cellular 
service providers, and poring over the all-important collection 
of images from fixed surveillance and civilian cameras.
    The decision to crowdsource, to go to the internet for help 
from citizens for potential evidence was made jointly by 
Federal, State, and local authorities. This collaboration, both 
in the field and behind the scenes, resulted in both suspects 
being arrested or killed within 102 hours.
    Communities have a vital role in the prevention of attacks. 
I have investigated transnational organized crime throughout 
the majority of my career. I can tell you that after 35 years 
of policing, criminals or bad actors are always a small 
percentage of the population they live within.
    It is impossible to work these cases without building 
strong, cooperative, and trusting relationships with the many 
good people within that same population. That is true whether 
you are doing narcotics trafficking, human trafficking, or 
terrorist investigations, those who are often most vulnerable 
to the threats of these depraved actors.
    When I was commissioner of the Boston police department, we 
hosted and participated in the Bridges Group. It is a 
collaborative effort among various community representatives, 
Federal, State, and local government agencies and it is 
designed to enhance safety and security and provide an 
opportunity for candid conversation.
    At that time, the Boston police department was experiencing 
an uptick in violence involving young Somali men. The Somali 
group representatives that participated in the Bridges meeting 
stepped in, they remediated the situation through community 
council, activities, and job creation in coordination with the 
Boston police department, and that problem went away.
    The communities of every city and town across the United 
States have the ability to play a central role in the 
prevention of organized and lone-wolf attacks. Citizens can, if 
properly informed and trusting, provide early information to 
law enforcement agencies on radicalization in their midst.
    One of the marathon bombers, Tamerlan Tsarnaev, had a 
concerning outburst indicative of potential radicalization at 
the Cambridge mosque prior to the attacks. No information 
regarding the incident was provided to Federal, State, or local 
authorities. This was a missed opportunity to intervene. It 
would have led to greater scrutiny of the Tsarnaevs before the 
bombs exploded.
    This requires, however, consistent effort to build trust 
and strong relationships. Intelligence sharing has been 
improved through the fusion centers located across the country, 
more effective JTTFs, and improved technology. One of the best 
practices in Boston is a comprehensive review of the JTTF 
cases. This is done several times a year and always prior to a 
major event. This process has provided more focused follow-up 
on individuals who pose the greatest threat to citizens.
    I have more written testimony, but I don't want to go over 
my time here. So I just will sum up by saying that by working 
together, by training, preparing, and planning for these events 
and, most importantly, by developing the intelligence needed to 
intervene, like we saw in the attack on the police in Boston a 
year ago where a terrorist was being monitored and said he was 
going to go kill a police officer and behead a police officer, 
there was immediate intervention that occurred that stopped 
that attack from happening. That makes all the difference.
    Thank you.
    [The prepared statement of Mr. Davis follows:]
               Prepared Statement of Edward F. Davis, III
                           February 28, 2017
    Chairman King, Ranking Member Rice, distinguished Members of the 
committee, thank you for the opportunity to speak before you today. 
This topic is critically important and must remain a top priority for 
Congress. Our administration, Congress, law enforcement, and private 
citizens must continue to work together in a coordinated manner. A 
focus on communication and consistency of funding for multi-
jurisdictional training drills, communication tools, and intelligence 
gathering is essential to prevention and mitigation in the event of an 
organized or lone-wolf attack.
    The nature of the work I do with my security consulting firm keeps 
me in touch with National and international front-line police and law 
enforcement agencies. Organized and lone-wolf attacks are not going 
away any time soon. These individuals are nimble and frequently change 
their methods. The goals, however, remain the same: Death, destruction, 
creation of fear and chaos. In 2016 we saw a brutal shooting and 
explosive attack on the Brussels National Airport in Belgium that 
killed 32 civilians and 3 of the perpetrators; a large truck plowing 
people down following a Bastille Day celebration in Nice, France that 
killed 86 people; different methods, same goals.
    More than ever before, relationships between law enforcement 
partners, stakeholders, and community members need to be in place to 
prevent attacks. Law enforcement needs sufficient police resources and 
updated intelligence to collect relevant information prior to attacks, 
and to truly begin to build trust within all of our communities.
    Following the attacks on September 11, 2001, counterterrorism 
efforts in the United States shifted to the prevention of the next 
domestic terror attack. Joint Terrorism Task Forces (JTTF), already in 
place at that time, established a working partnership with local, 
State, and Federal law enforcement authorities. At the time of the 
Marathon bombing there were information-sharing issues that were 
subsequently changed and improved. These JTTFs have proven to be 
tremendous vehicles, encouraging local, Federal, and State police to 
work together as full partners toward our Nation's critical mission of 
protecting the U.S. homeland.
    Testing of the JTTF system is important for effectiveness and 
transparency. It is important to realize that any complex system 
charged with such responsibility must be monitored for compliance.
    If we are to be successful in combating terrorism, law enforcement, 
cities and towns and our Government must be communicating, sharing 
information, improving intelligence and coordinating our prevention and 
response efforts. In 2013, following the bombings at the Boston 
Marathon, Federal agents worked side-by-side with local law enforcement 
officers collecting evidence at the finish line, interviewing witnesses 
and suspects, combing through petabytes of data from cellular service 
providers and pouring over the all-important collection of images from 
fixed surveillance and civilian cameras. The decision to crowd-source 
for potential evidence was made jointly by Federal, State, and local 
authorities. This collaboration, both in-the-field and behind the 
scenes, resulted in both suspects being arrested or killed within 102 
hours.
    Communities have a vital role in prevention of attacks. I have 
investigated transnational organized crime throughout the majority of 
my career. I can tell you after 35 years of policing criminals, or 
``bad actors,'' are always a small percentage of the population they 
live within. It is impossible to work these cases without building 
strong, cooperative, and trusting relationships with the many good 
people within that same population; those who are often most vulnerable 
to the threats of these depraved actors.
    When I was police commissioner at the Boston Police Department, we 
hosted and participated as a partner in the BRIDGES group. It is a 
collaborative effort among various community representatives, Federal, 
State, and local government agencies. It is designed to enhance safety 
and security and provide an opportunity for candid conversation, 
relationship building, and problem solving between law enforcement and 
the community. At that time the Boston Police Department was 
experiencing an uptick in violence involving young, Somali men. The 
Somali group representatives that participated in BRIDGES stepped in 
and remedied the situation through community counsel, activities and 
job creation in coordination with the Boston Police Department and the 
city of Boston.
    The communities of every city and town across the United States 
have the ability to play a central role in the prevention of organized 
and lone-wolf terror attacks. Citizens can, if properly informed and 
trusting, provide early information to law enforcement agencies on 
radicalization in their midst. One of the Boston Marathon bombers, 
Tamerlan Tsarnaev had a concerning outburst, indicative of potential 
radicalization, at a Cambridge mosque prior to the attacks when the 
Imam quoted Martin Luther King, Jr. No information regarding this 
incident was provided to Federal, State, or local authorities. This was 
a missed opportunity for information that could have led to greater 
scrutiny of Tsarnaev before the bombs exploded. This requires 
consistent effort to build trust and strong relationships between law 
enforcement and the community, so this type of information becomes 
available in a timely manner.
    Intelligence sharing has been improved through fusion centers 
located across the country, more effective JTTFs and improved 
technology. One of the best practices in Boston is a comprehensive 
review of the JTTF cases. This is done several times every year and 
always prior to a major event. This process has provided more focused 
follow-up on individuals who pose the greatest threat to citizens and 
visitors in Boston.
    It is important for Congress to remain vigilant on information 
sharing while at the same time safeguarding all citizens' important 
Constitutional rights. The JTTFs rely on information from sources other 
than the Federal authorities. The New York Police Department 
intelligence operations provides the most effective and timeliest 
information sharing to JTTFs. The approval process for the Federal 
information sharing system is slower and is still largely bureaucratic. 
I encourage you to find ways to streamline and expedite this system so 
that information can be shared with appropriate partners in a timely 
manner.
    Law enforcement training is essential for effective prevention, 
mitigation, and response to terrorist attacks. I encourage all of you 
to continue to push for important funding such as Urban Area Security 
Initiative (UASI) through the U.S. Department of Homeland Security. In 
May, 2011, the Boston Police Department, city of Boston agencies, 
Federal, State, local, and transit law enforcement partners, emergency 
medical community, and other key stakeholders all trained together in a 
Mumbai scenario Urban Shield: Boston exercise. It revealed deficiencies 
that no doubt saved lives in April, 2013. It became clear that police 
and other first responders radios were not synced and that the medical 
and law enforcement community did not share common, necessary protocols 
in the event of an attack. When all cell phones failed during the 
Marathon attacks, radios were critical for communication. Each of the 
above deficiencies, and more, were corrected immediately and in place 
for the Marathon attacks.
    Training also offers best practices for prevention, mitigation, and 
response such as how to secure perimeters. The use of large trucks, 
particularly heavy dump trucks, around the perimeter of large crowd 
events is one example of various methods used by law enforcement. This 
is done regularly during Boston championship events. In New Orleans 
last week, the drunk driver of a vehicle that plowed into a crowd, 
critically injuring approximately 28 people, eventually crashed into a 
dump truck that was situated along his travel route for cleaning 
purposes. This stop-gap definitely saved lives.
    I recently spoke with the director of security for the Brussels 
National Airport in Zaventem, Belgium. At the time of the recent 
attack, law enforcement and security cell phones and radios were not 
functioning. They actually had to rely on a centuries-old model of 
using human runners with written messages to bring and receive 
information. This is an excellent example of why appropriate 
communication networks and equipment must be readily available so that 
law enforcement can do their jobs.
    Public safety agencies must be able to effectively communicate at 
all times, particularly during a crisis. I encourage you to support 
interoperable networks that will facilitate interagency communication 
through funding and legislation.
    In closing, the evolving and changing challenge of terrorism today 
in our country and throughout the world requires daily attention and 
consistent commitment from our leaders in both policy and funding. If 
we are to make measurable progress in this fight, it requires a common-
sense approach: A true intelligence-sharing system that is periodically 
checked for effectiveness and authenticity, coordinated training for 
first responders and key stakeholders, critical equipment for first 
responders, long-term planning for communication networks, and 
relationship building with each of our communities. I ask that you 
continue to find legislative methods to enhance the great work that is 
already being done by our law enforcement community, and fund important 
programs that increase knowledge, training, and provide the right tools 
to effectively get the job done. Thank you.

    Mr. King. Thank you, Commissioner.
    Our next witness is Tom Joscelyn, who also has appeared 
before this committee a number of times. Mr. Joscelyn is a 
senior fellow at the Foundation for the Defense of Democracies 
and is senior editor of its Long War Journal, a widely-read 
publication tracking counterterrorism operations and terror 
threats. Much of his research focuses on how al-Qaeda and ISIS 
operate around the globe. He served as a trainer for the FBI's 
Counterterrorism Division and is a very regular face in the 
halls of Congress having testified more than a dozen times.
    Mr. Joscelyn, you are recognized for your testimony and 
thanks for being back.

STATEMENT OF THOMAS JOSCELYN, SENIOR FELLOW, THE FOUNDATION FOR 
                   THE DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Thank you, Congressman, for the introduction 
and thank you all for being here today.
    Unfortunately, I have had to testify more than a dozen 
times. As I say often to my wife, this has been somewhat of a 
growth industry over the years, I wish it wasn't. I would very 
much like to go back into economics and finance at any time, 
but I find myself here again.
    The truth of the matter is, in my written testimony I sort-
of look at different levels of threats to domestic security. 
One of the levels of threat is sort of what we call inspired 
attacks or something along those lines, often called lone 
wolves. I don't term them that way. I term them as individual 
terrorists or individual attackers because if they are 
responding to a global ideological movement and are taking up 
that call, then in fact they actually at least have an 
ideological bond to the people who are trying to attack us and 
to professional organizations.
    But beyond that, if you look at my written testimony, I 
include somewhere between 8 and 10 or 11 examples of a 
different phenomenon that ISIS has taken to another level 
inside Europe and the United States. It is this phenomenon 
called remote-controlled attacks. This is something they have 
had some success, these are small-scale operations. These are 
operations where a digital handler, a virtual handler for ISIS, 
sits in Raqqah, Syria, or somewhere outside of Mosul, Iraq, and 
via social media applications is able to communicate with 
would-be recruits in the West or elsewhere. They have done this 
around the globe.
    Congressman King, I would like to point that one of the 
examples in my testimony actually involves a would-be jihadi in 
Queens who was in touch with an ISIS handler overseas in Syria 
and was getting instructions on how to carry out an attack in 
New York City.
    This is a different level than just the sort-of, so-called, 
inspired attack. These are a whole new ballgame really in terms 
of counterterrorism, the level of it is anyway. In that regard, 
the FBI has, on a number of occasions, shut down such 
operations. If you go through the public record and courts of 
law, you will see that on numerous occasions they have 
confidential informants and those sorts of people sort-of well-
placed to disrupt these plots.
    In some cases the guys are on the other end of the remote-
control attacks here in the United States, really are just 
sort-of doofuses, to be honest with you, who aren't really all 
that menacing I don't think. But in some cases they are. In 
some cases they are a problem. So this is a new sort of 
phenomenon that the FBI over the last couple years has been 
dealing with very carefully.
    There is some controversy over some of the FBI's tactics. I 
think that is something that should be actually debated 
publicly in some of these cases.
    Beyond that, you know, beyond looking at that sort-of the 
individual attackers or the lone attackers, the risk of a 
professional attack is still out there and when we are talking 
about well-trained terrorists who are dispatched.
    Congressman, at the beginning of the hearing you said, 
rightly, that we haven't suffered another 9/11-scale-style 
attack in the United States and we can all be, of course, 
thankful for that. I think what is often lost in the discourse 
in the United States and elsewhere is that that is not by any 
accident. It is not because the threat has totally disappeared 
or is gone, but is instead the result of military intelligence 
and law enforcement work that is constantly trying to shut down 
these threats.
    What we do at the Long War Journal is monitor this. Every 
day there is a story about somebody who is being targeted in 
counterterrorism operations overseas who may or may not be 
involved in plotting against the West. In that vein, we all 
recognize, to a certain extent, the threat that ISIS poses and 
what they want to do in the West, what they did in November 
2015 in Paris, what they would like to do elsewhere.
    But al-Qaeda is still very much in the game. There has been 
a lot of, I would say, erroneous, assessments of al-Qaeda's 
strength that have floated out there. I am just going to give 
you a couple data points on that very quickly.
    In October 2015, the U.S. military, along with its Afghan 
allies, raided what is probably the largest al-Qaeda training 
camp in history in Afghanistan in the Shorabak district of 
Kandahar. It was approximately 30 square miles in size, it 
didn't have any propaganda coming out of there, they didn't 
want you to know they were there, but they were training a lot 
of recruits. This speaks to the fact that the al-Qaeda threat 
in Afghanistan and Pakistan remains there.
    I will give you another data point on that. In December 
2016, the U.S. military came out and said that they had killed 
or captured 250 al-Qaeda operatives in Afghanistan throughout 
the calendar year 2016. Doesn't sound like a lot, but it is 
actually two-and-a-half times the high-end estimate that the 
Obama administration had pushed since 2010 on the number of al-
Qaeda operatives in all of Afghanistan. U.S. military also says 
that they are hunting al-Qaeda operatives in seven provinces in 
Afghanistan right now.
    On top of that, General Nicholson, who runs about the NATO 
Operations Resolute Support and in charge of U.S. forces in 
Afghanistan, recently gave an interview in which he said there 
are plots against U.S. homeland in Afghanistan right now that 
we are trying to counter.
    In October of last year, one of the chief al-Qaeda 
operatives responsible for that was killed, a guy named Faruq 
al Qahtani. He was a made man within al-Qaeda circles for many, 
many years. That was one of his jobs; in addition to fighting 
the insurgents in Afghanistan, supporting Taliban operations, 
was to try and plot attacks against the United States.
    On top of that, on January 20 this year, Inauguration Day, 
the Defense Department came out and said they had killed 150 
al-Qaeda terrorists since January 1, so just in the first 19 
days of January, in Syria. In fact, they were forced to attack 
a large al-Qaeda training camp that had been in operation since 
2013.
    We track these operations in Syria and elsewhere to give 
you a sense of what is going on in the world. We are still 
killing guys who joined the jihad in 1979 or 1980 or 1981, who 
are still in the game and are still serving al-Qaeda's cause 
this many years later. If you don't think that they haven't 
thought about the replacements or have had plenty of time to 
groom the replacements, well, then I think we are missing part 
of the story. These guys have been operating for a long, long 
time.
    Of course, I will leave you one last anecdote on this. Last 
summer, Brett McGurk, who leads the anti-ISIL coalition, you 
know, came out in his testimony before the Senate, and he said 
that in fact al-Qaeda had raised its largest affiliate in 
history in Syria; answering directly to Ayman al-Zawahiri. 
There is no doubt in my mind that al-Qaeda heard that. They 
heard other similar statements that started coming out of the 
Obama administration and decided to change their name and 
pretend that they weren't al-Qaeda anymore. This is their 
famous game. They do this all over the globe.
    But that speaks to the fact this is something that we 
warned about in Long War Journal and in these hearings, 
Congressmen, and elsewhere. They were grooming this huge 
paramilitary force in Syria. It is very easy for them to 
redeploy or carve off some part of that to try and attack, plot 
in the West. They have many obstacles to executing a successful 
attack in the West, many, OK? There is no guaranteed assurance 
that they can actually do this, but the threat is still there.
    Thank you.
    [The prepared statement of Mr. Joscelyn follows:]
                 Prepared Statement of Thomas Joscelyn
                           February 28, 2017
    Chairman King, Ranking Member Rice, and other Members of the 
committee, thank you for inviting me to testify today. The terrorist 
threat has evolved greatly since the September 11, 2001 hijackings. The 
United States arguably faces a more diverse set of threats today than 
ever. In my written and oral testimony, I intend to highlight both the 
scope of these threats, as well as some of what I think are the 
underappreciated risks.
    My key points are as follows:
  <bullet> The U.S. military and intelligence services have waged a 
        prolific counterterrorism campaign to suppress threats to 
        America. It is often argued that because no large-scale plot 
        has been successful in the United States since 9/11 that the 
        risk of such an attack is overblown. This argument ignores the 
        fact that numerous plots, in various stages of development, 
        have been thwarted since 2001. Meanwhile, Europe has been hit 
        with larger-scale operations. In addition, the United States 
        and its allies frequently target jihadists who are suspected of 
        plotting against the West. America's counterterrorism strategy 
        is mainly intended to disrupt potentially significant 
        operations that are in the pipeline.
  <bullet> Over the past several years, the U.S. military and 
        intelligence agencies claim to have struck numerous Islamic 
        State (or ISIS) and al-Qaeda ``external operatives'' in 
        countries such as Afghanistan, Iraq, Libya, Pakistan, Syria, 
        Yemen, and elsewhere. These so-called ``external operatives'' 
        are involved in anti-Western plotting. Had they not been 
        targeted, it is likely that at least some of their plans would 
        have come to fruition. Importantly, it is likely that many 
        ``external operatives'' remain in the game, and are still 
        laying the groundwork for attacks in the United States and the 
        West.
  <bullet> In addition, the Islamic State and al-Qaeda continue to 
        adapt new messages in an attempt to inspire attacks abroad. 
        U.S. law enforcement has been forced to spend significant 
        resources to stop ``inspired'' plots. As we all know, some of 
        them have not been thwarted. The Islamic State's caliphate 
        declaration in 2014 heightened the threat of inspired attacks, 
        as would-be jihadists were lured to the false promises of Abu 
        Bakr al Baghdadi's cause.
  <bullet> The Islamic State also developed a system for ``remote-
        controlling'' attacks in the West and elsewhere. This system 
        relies on digital operatives who connect with aspiring jihadis 
        via social media applications. The Islamic State has had more 
        success with these types of small-scale operations in Europe. 
        But as I explain in my written testimony, the FBI has uncovered 
        a string of plots inside the United States involving these same 
        virtual planners.
  <bullet> The refugee crisis is predominately a humanitarian concern. 
        The Islamic State has used migrant and refugee flows to 
        infiltrate terrorists into Europe. Both the Islamic State and 
        al-Qaeda could seek to do the same with respect to the United 
        States, however, they have other means for sneaking jihadists 
        into the country as well. While some terrorists have slipped 
        into the West alongside refugees, the United States should 
        remain focused on identifying specific threats.
  <bullet> More than 15 years after 9/11, al-Qaeda remains poorly 
        understood. Most of al-Qaeda's resources are devoted to waging 
        insurgencies in several countries. But as al-Qaeda's insurgency 
        footprint has spread, so has the organization's capacity for 
        plotting against the West. On 9/11, al-Qaeda's anti-Western 
        plotting was primarily confined to Afghanistan, with logistical 
        support networks in Pakistan, Iran, and other countries. 
        Testifying before the Senate in February 2016, Director of 
        National Intelligence (DNI) James Clapper warned that the al-
        Qaeda threat to the West now emanates from multiple countries. 
        Clapper testified that al-Qaeda ``nodes in Syria, Pakistan, 
        Afghanistan, and Turkey'' are ``dedicating resources to 
        planning attacks.'' To this list we can add Yemen. And 
        jihadists from Africa have been involved in anti-Western 
        plotting as well. Incredibly, al-Qaeda is still plotting 
        against the United States from Afghanistan.
    Both the Islamic State and al-Qaeda continue to seek ways to 
inspire terrorism inside the United States and they are using both new 
and old messages in pursuit of this goal.
    The jihadists have long sought to inspire individuals or small 
groups of people to commit acts of terrorism for their cause. 
Individual terrorists are often described as ``lone wolves,'' but that 
term is misleading. If a person is acting in the name of a global, 
ideological cause, then he or she cannot be considered a ``lone wolf,'' 
even if the individual in question has zero contact with others. In 
fact, single attackers often express their support for the jihadists' 
cause in ways that show the clear influence of propaganda.
    Indeed, al-Qaeda and al-Qaeda in the Arabian Peninsula (AQAP) first 
began to aggressively market the idea of ``individual'' or ``lone'' 
operations years ago. AQAP's Inspire magazine is intended to provide 
would-be jihadists with everything they could need to commit an attack 
without professional training or contact. Anwar al-Awlaki, an AQAP 
ideologue who was fluent in English, was an especially effective 
advocate for these types of plots. Despite the fact that Awlaki was 
killed in a U.S. airstrike in September 2011, his teachings remain 
widely available on the internet.
    The Islamic State capitalized on the groundwork laid by Awlaki and 
AQAP. In fact, Abu Bakr al Baghdadi's operation took these ideas and 
aggressively marketed them with an added incentive. Al-Qaeda has told 
its followers that it wants to eventually resurrect an Islamic 
caliphate. Beginning in mid-2014, the Islamic State began to tell its 
followers that it had already done so in Iraq, Syria, and elsewhere. 
Baghdadi's so-called caliphate has also instructed followers that it 
would be better for them to strike inside their home countries in the 
West, rather than migrate abroad for jihad. The Islamic State has 
consistently marketed this message.
    In May 2016, for instance, Islamic State spokesman Abu Muhammad al 
Adnani told followers that if foreign governments ``have shut the door 
of hijrah [migration] in your faces,'' then they should ``open the door 
of jihad in theirs,'' meaning in the West. ``Make your deed a source of 
their regret,'' Adnani continued. ``Truly, the smallest act you do in 
their lands is more beloved to us than the biggest act done here; it is 
more effective for us and more harmful to them.''\1\
---------------------------------------------------------------------------
    \1\ Thomas Joscelyn, ``References to the Islamic State omitted from 
Chelsea bombing complaint,'' FDD's Long War Journal, September 21, 
2016. (http://www.longwarjournal.org/archives/2016/09/reference-to-
islamic-State-omitted-from-chelsea-bombing-complaint.php).
---------------------------------------------------------------------------
    ``If one of you wishes and strives to reach the lands of the 
Islamic State,'' Adnani told his audience, ``then each of us wishes to 
be in your place to make examples of the crusaders, day and night, 
scaring them and terrorizing them, until every neighbor fears his 
neighbor.'' Adnani told jihadists that they should ``not make light of 
throwing a stone at a crusader in his land,'' nor should they 
``underestimate any deed, as its consequences are great for the 
mujahidin and its effect is noxious to the disbelievers.''\2\
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    The Islamic State continued to push this message after Adnani's 
death in August 2016.
    In at least several cases, we have seen individual jihadists who 
were first influenced by Awlaki and AQAP gravitate to the Islamic 
State's cause. Syed Rizwan Farook and his wife were responsible for the 
December 2, 2015 San Bernardino massacre. They pledged allegiance to 
Baghdadi on social media, but Farook had drawn inspiration from Awlaki 
and AQAP's Inspire years earlier.\3\
---------------------------------------------------------------------------
    \3\ U.S. Department of Justice, Press Release, ``California Man 
Charged with Conspiring to Provide Material Support to Terrorism and 
Being `Straw Purchaser' of Assault Rifles Ultimately Used in San 
Bernardino, California, Attack,'' December 17, 2015. (https://
www.justice.gov/opa/pr/california-man-charged-conspiring-provide-
material-support-terrorism-and-being-straw); See also: Thomas Joscelyn, 
``San Bernardino terrorists allegedly studied AQAP's Inspire magazine, 
pledged allegiance to Baghdadi,'' FDD's Long War Journal, December 17, 
2015. (http://www.longwarjournal.org/archives/2015/12/san-bernardino-
terrorists-allegedly-studied-aqaps-inspire-magazine-pledged-allegiance-
to-baghdadi.php).
---------------------------------------------------------------------------
    Omar Mateen swore allegiance to Baghdadi repeatedly on the night of 
his assault on a LGBT nightclub in Orlando, Florida. However, a Muslim 
who knew Mateen previously reported to the FBI that Mateen was going 
down the extremist path. He told the FBI in 2014 that Mateen was 
watching Awlaki's videos.\4\ It was not until approximately 2 years 
later, in early June 2016, that Mateen killed 49 people and wounded 
dozens more in the name of the supposed caliphate.
---------------------------------------------------------------------------
    \4\ Mohammed A. Malik, ``I reported Omar Mateen to the FBI. Trump 
is wrong that Muslims don't do our part.,'' The Washington Post, June 
20, 2016. (https://www.washingtonpost.com/posteverything/wp/2016/06/20/
i-reported-omar-mateen-to-the-fbi-trump-is-wrong-that-muslims- dont-do-
our-part/?utm_term=.dec89331c2fb).
---------------------------------------------------------------------------
    Ahmad Khan Rahami, the man who allegedly planted bombs throughout 
New York and New Jersey in September 2016, left behind a notebook. In 
it, Rahami mentioned Osama bin Laden, ``guidance'' from Awlaki, an also 
referenced Islamic State spokesman Adnani. Federal prosecutors wrote in 
the complaint that Rahami specifically wrote about ``the instructions 
of terrorist leaders that, if travel is infeasible, to attack 
nonbelievers where they live.''\5\ This was Adnani's key message, and 
remains a theme in Islamic State propaganda.
---------------------------------------------------------------------------
    \5\ Thomas Joscelyn, ``References to the Islamic State omitted from 
Chelsea bombing complaint,'' FDD's Long War Journal, September 21, 
2016. (http://www.longwarjournal.org/archives/2016/09/reference-to-
islamic-state-omitted-from-chelsea-bombing-complaint.php).
---------------------------------------------------------------------------
    The Department of Justice (DOJ) has alleged that other individuals 
who sought to support the Islamic State were first exposed to Awlaki's 
teachings as well.\6\
---------------------------------------------------------------------------
    \6\ The DOJ made this allegation in the cases involving Emanuel 
Lutchman and Mohamed Bailor Jalloh, as well as others. The Lutchman and 
Jalloh cases are discussed briefly below.
---------------------------------------------------------------------------
    These cases demonstrate that the jihadis have developed a well of 
ideas from which individual adherents can draw, but it may take years 
for them to act on these beliefs, if they ever act on them at all. 
There is no question that the Islamic State has had greater success of 
late in influencing people to act in its name. But al-Qaeda continues 
to produce recruiting materials and to experiment with new concepts for 
individual attacks as well.
    Al-Qaeda and its branches have recently called for revenge for 
Sheikh Omar Abdel Rahman, who died in a U.S. prison earlier this month. 
Rahman was convicted by a U.S. court for his involvement in plots 
against New York City landmarks in the mid-1990's. Since then, al-Qaeda 
has used Rahman's ``will'' to prophesize his death and to proactively 
blame the United States for it. Approximately 20 years after al-Qaeda 
first started pushing this theme, Rahman finally died. Al-Qaeda's 
continued use of Rahman's prediction, which is really just jihadist 
propaganda, demonstrates how these groups can use the same concepts for 
years, whether or not the facts are consistent with their messaging. 
Al-Qaeda also recently published a kidnapping guide based on old 
lectures by Saif al Adel, a senior figure in the group. Al Adel may or 
may not be currently in Syria. Al-Qaeda is using his lectures on 
kidnappings and hostage operations as a way to potentially teach others 
how to carry them out. The guide was published in both Arabic and 
English, meaning that al-Qaeda seeks an audience in the West for al 
Adel's designs.
    Both the Islamic State and AQAP also continue to produce English-
language magazines for on-line audiences. The 15th issue of Inspire, 
which was released last year, provided instructions for carrying out 
``professional assassinations.'' AQAP has been creating lists of high-
profile targets in the United States and elsewhere that they hope 
supporters will use in selecting potential victims. AQAP's idea is to 
maximize the impact of ``lone'' attacks by focusing on wealthy 
businessmen or other well-known individuals. AQAP has advocated for, 
and praised, indiscriminate attacks as well. But the group has 
critiqued some attacks (such as the Orlando massacre at a LGBT 
nightclub) for supposedly muddying the jihadists' message. AQAP is 
trying to lay the groundwork for more targeted operations. For example, 
the January 2015 assault on Charlie Hebdo's offices in Paris was set in 
motion by al-Qaeda and AQAP. Inspire even specifically identified the 
intended victims beforehand. Al-Qaeda would like individual actors, 
with no foreign ties, to emulate such precise hits.
    Meanwhile, the Islamic State has lowered the bar for what is 
considered a successful attack, pushing people to use cars, knives, or 
whatever weapons they can get in their hands. The Islamic State claimed 
that both the September 2016 mall stabbings in Minnesota and the 
vehicular assault at Ohio State University in November 2016 were the 
work of its ``soldiers.''\7\ It may be the case that there were no 
digital ties between these attackers and the Islamic State. However, 
there is often more to the story of how the Islamic State guides such 
small-scale operations.
---------------------------------------------------------------------------
    \7\ See: Thomas Jocelyn, ``Islamic State claims its `soldier' was 
responsible for stabbings in Minnesota,'' FDD's Long War Journal, 
September 18, 2016. (http://www.longwarjournal.org/archives/2016/09/
islamic-state-claims-soldier-responsible-stabbings-in-minnesota.php); 
Thomas Joscelyn, ``Islamic State claims its `soldier' carried out Ohio 
State attack,'' FDD's Long War Journal, November 29, 2016. (http://
www.longwarjournal.org/archives/2016/11/islamic-state-claims-its-
soldier-carried-out-ohio-State-attack.php).
---------------------------------------------------------------------------
    The Islamic State has sought to carry out attacks inside the United 
States via ``remote-controlled'' terrorists.
    A series of attacks in Europe and elsewhere around the globe have 
been carried out by jihadists who were in contact, via social media 
applications, with Islamic State handlers in Syria and Iraq.\8\ The so-
called caliphate's members have been able to remotely guide willing 
recruits through small-scale plots that did not require much 
sophistication. These plots targeted victims in France, Germany, 
Russia, and other countries. In some cases, terrorists have received 
virtual support right up until the moment of their attack. The Islamic 
State has had more success orchestrating ``remote-controlled'' plots in 
Europe, but the jihadist group has also tried to carry out similar 
plots inside the United States.\9\
---------------------------------------------------------------------------
    \8\ For more on the Islamic State's ``remote-controlled'' attacks, 
see: Rukmini Callimachi, ``Not `Lone Wolves' After All: How ISIS Guides 
World's Terror Plots From Afar,'' The New York Times, February 4, 2017. 
(https://www.nytimes.com/2017/02/04/world/asia/isis-messaging-app-
terror-plot.html?_r=0); Thomas Joscelyn, ``Terror plots in Germany, 
France were `remote-controlled' by Islamic State operatives,'' FDD's 
Long War Journal, September 24, 2016. (http://www.longwarjournal.org/
archives/2016/09/terror-plots-in-germany-france-were-remote-controlled-
by-islamic-State-operatives.php); Bridget Moreng, ``ISIS' Virtual 
Puppeteers,'' Foreign Affairs, September 21, 2016. (https://
www.foreignaffairs.com/articles/2016-09-21/isis-virtual-puppeteers); 
Daveed Gartenstein-Ross and Nathaniel Barr, ``Bloody Ramadan: How the 
Islamic State Coordinated a Global Terrorist Campaign,'' War on the 
Rocks, July 20, 2016. (https://warontherocks.com/2016/07/bloody-
ramadan-how-the-islamic-State-coordinated-a-global-terrorist-campaign/
).
    \9\ In this section, I briefly summarize a number of Islamic State 
attempts to remote-control terrorists in the United States. Seamus 
Hughes and Alexander Meleagrou-Hitchens have a forthcoming piece on the 
same topic in the CTC Sentinel (March 2017) entitled, ``Understanding 
the role of Virtual Entrepreneurs in Islamic State-Inspired Terrorism 
in the United States: The Evidence from Criminal Cases.'' According to 
one of the authors, their study will document the Islamic State's 
``systematic approach'' to ``enable homeland attacks through continuous 
communications with would-be American jihadis.''
---------------------------------------------------------------------------
    Since 2015, if not earlier, the U.S.-led coalition has launched 
airstrikes against the Islamic State operatives responsible for these 
operations. Jihadists such as Rachid Kassim, Junaid Hussain, and Abu 
Issa al Amriki have all been targeted. Both Hussain and al Amriki 
sought to ``remotely-control'' attacks inside the United States They 
have reached into other countries as well. For example, British Prime 
Minister David Cameron connected Hussain to plots in the United 
Kingdom.\10\ And Hussain's wife, Sally Jones, has also reportedly used 
the web to connect with female recruits.
---------------------------------------------------------------------------
    \10\ Thomas Joscelyn, ``Prime Minister says 2 British nationals 
killed in airstrikes were plotting attacks,'' FDD's Long War Journal, 
September 7, 2015. (http://www.longwarjournal.org/archives/2015/09/
prime-minister-says-2-british-nationals-killed-in-airstrikes-were-
plotting-attacks.php).
---------------------------------------------------------------------------
    Kassim was tracked to a location near Mosul, Iraq earlier this 
month.\11\ Hussain was killed in an American airstrike in Raqqa, Syria 
on August 24, 2015. Along with his wife, al Amriki perished in an 
airstrike near Al Bab, Syria on April 22, 2016.\12\ But law enforcement 
officials are still dealing with their legacy and it is possible that 
others will continue with their methods.
---------------------------------------------------------------------------
    \11\ Thomas Joscelyn, ``U.S.-led coalition targeted key online 
operative for Islamic State near Mosul,'' FDD's Long War Journal, 
February 11, 2017. (http://www.longwarjournal.org/archives/2017/02/us-
led-coalition-targeted-key-online-operative-for-islamic-State-near-
mosul.php).
    \12\ U.S. Department of Defense, Press Release, ``Department of 
Defense Press Briefing by Pentagon Press Secretary Peter Cook in the 
Pentagon Briefing Room,'' May 5, 2016. (https://www.defense.gov/News/
Transcripts/Transcript-View/Article/752789/department-of-defense-press-
briefing-by-pentagon-press-secretary-peter-cook-in).
---------------------------------------------------------------------------
    In this section, I will briefly outline several cases in which 
Hussain and al Amriki were in contact with convicted or suspected 
terror recruits inside the United States. In a number of cases, the FBI 
has used confidential informants or other methods in sting operations 
to stop these recruits. It should be noted that it is not always clear 
how much of a threat a suspect really posed and the press has 
questioned the FBI's methods in some of these cases.\13\ I have 
included the examples below to demonstrate how the Islamic State's 
digital operatives have contacted potential jihadists across the United 
States.
---------------------------------------------------------------------------
    \13\ For example, The New York Times cited the Lutchman and 
Sullivan cases discussed in this section as examples of the FBI's 
``aggressive methods.'' The Times described Lutchman as a ``mentally 
ill panhandler'' with ``no money.'' See: Eric Lichtblau, ``F.B.I. Steps 
Up Use of Stings in ISIS Cases,'' The New York Times, June 7, 2016. 
(https://www.nytimes.com/2016/06/08/us/fbi-isis-terrorism-stings.html).
---------------------------------------------------------------------------
    For example, Hussain was likely in contact with the two gunmen who 
opened fire at an event dedicated to drawing pictures of the Prophet 
Mohammed in Garland, Texas on May 3, 2015. As first reported by the 
SITE Intelligence Group, Hussain (tweeting under one of his aliases) 
quickly claimed the gunmen were acting on behalf of the caliphate. 
Then, in June 2015, Hussain claimed on Twitter that he had encouraged 
Usaamah Rahim, an Islamic State supporter, to carry a knife in case 
anyone attempted to arrest him. Rahim was shot and killed by police in 
Boston after allegedly wielding the blade. The DOJ subsequently 
confirmed that Rahim was ``was communicating with [Islamic State] 
members overseas, including Junaid Hussain.''\14\
---------------------------------------------------------------------------
    \14\ U.S. Attorney's Office District of Massachusetts, Press 
Release, ``Everett Man Alleged to Support ISIL Charged with Additional 
Charge of Obstructing Justice,'' February 15, 2017. (https://
www.justice.gov/usao-ma/pr/everett-man-alleged-support-isil-charged-
additional-charge-obstructing-justice).
---------------------------------------------------------------------------
    On July 7, 2016, Munir Abdulkader, of West Chester, Ohio, pleaded 
guilty to various terrorism-related charges. According to the DOJ, 
Abdulkader communicated with Hussain, who ``directed and encouraged 
Abdulkader to plan and execute a violent attack within the United 
States.'' In conversations with both Hussain and a ``confidential human 
source,'' Abdulkader discussed a plot ``to kill an identified military 
employee on account of his position with the U.S. Government.'' 
Abdulkader planned to abduct ``the employee at the employee's home'' 
and then film this person's execution. After murdering the military 
employee, Abdulkader ``planned to perpetrate a violent attack on a 
police station in the Southern District of Ohio using firearms and 
Molotov cocktails.''\15\ Hussain repeatedly encouraged Islamic State 
followers to attack U.S. military personnel, just as Abdulkader 
planned.
---------------------------------------------------------------------------
    \15\ U.S. Department of Justice, Press Release, ``Cincinnati-Area 
Man Pleads Guilty to Plot to Attack U.S. Government Officers,'' July 7, 
2016. (https://www.justice.gov/opa/pr/cincinnati-area-man-pleads-
guilty-plot-attack-us-government-officers); see also: Thomas Joscelyn, 
``Ohio man conspired with Islamic State recruiter, Justice Department 
says,'' FDD's Long War Journal, July 7, 2016. (http://
www.longwarjournal.org/archives/2016/07/ohio-man-conspired-with-
islamic-state-recruiter-justice-department-says.php).
---------------------------------------------------------------------------
    On August 11, 2016, Emanuel Lutchman of Rochester, New York pleaded 
guilty to conspiring to provide material support to the Islamic State 
as part of a planned New Year's Eve attack.\16\ Lutchman admittedly 
conspired with Abu Issa al Amriki after he ``initiated on-line 
contact'' with the Islamic State planner on Christmas day 2015. ``In a 
series of subsequent communications,'' DOJ noted, al Amriki ``told 
Lutchman to plan an attack on New Year's Eve and kill a number of 
kuffar [nonbelievers].'' Al Amriki wanted Lutchman ``to write something 
before the attack and give it to'' an Islamic State member, ``so that 
after the attack the [Islamic State] member could post it on-line to 
announce Lutchman's allegiance'' to the so-called caliphate. Lutchman 
wanted to join the Islamic State overseas, but al Amriki encouraged him 
to strike inside the United States, as it would better serve the 
jihadists' cause. ``New years [sic] is here soon,'' al Amriki typed to 
Lutchman. ``Do operations and kill some kuffar.''\17\ Al Amriki also 
promised Lutchman some assistance in traveling to Syria or Libya, if 
the conditions were right. Lutchman divulged his contacts with al 
Amriki to individuals who, ``unbeknownst to Lutchman,'' were 
``cooperating with the FBI.''
---------------------------------------------------------------------------
    \16\ U.S. Department of Justice, Press Release, ``New York Man 
Pleads Guilty to Conspiracy to Provide Material Support to ISIL in 
Connection with Planned New Year's Eve Attack,'' August 11, 2016. 
(https://www.justice.gov/opa/pr/new-york-man-pleads-guilty-conspiracy-
provide-material-support-isil-connection-planned-new).
    \17\ U.S. Department of Justice, Press Release, ``New York Man 
Pleads Guilty to Conspiracy to Provide Material Support to ISIL in 
Connection with Planned New Year's Eve Attack,'' August 11, 2016. 
(https://www.justice.gov/opa/pr/new-york-man-pleads-guilty-conspiracy-
provide-material-support-isil-connection-planned-new).
---------------------------------------------------------------------------
    On November 7, 2016, Aaron Travis Daniels, also known as Harun 
Muhammad and Abu Yusef, was arrested at an airport in Columbus, Ohio. 
He was reportedly en route to Trinidad, but he allegedly intended to 
travel to Libya for jihad. According to DOJ, Daniels was in contact 
with Abu Issa al Amriki, who acted as a ``recruiter and external attack 
planner.'' Daniels said at one point that it was al Amriki who 
``suggested'' he go to Libya ``to support jihad'' and he allegedly 
``wired money to an intermediary'' for al Amriki.\18\ The DOJ did not 
allege that Daniels planned to commit an attack in Ohio or elsewhere 
inside the United States. Still, the allegations are significant 
because Daniels was allegedly in contact with al Amriki.
---------------------------------------------------------------------------
    \18\ U.S. Department of Justice, Press Release, ``Ohio Man Arrested 
for Attempting to Provide Material Support to ISIL,'' November 7, 2016. 
(https://www.justice.gov/opa/pr/ohio-man-arrested-attempting-provide-
material-support-isil); See also: Thomas Joscelyn, ``Ohio man allegedly 
communicated with an Islamic State `external attack planner,' '' FDD's 
Long War Journal, November 8, 2016. (http://www.longwarjournal.org/
archives/2016/11/ohio-man-allegedly-communicated-with-an-islamic-State-
external-attack-planner.php).
---------------------------------------------------------------------------
    On November 29, 2016, Justin Nojan Sullivan, of Morganton, North 
Carolina, pleaded guilty to terrorism-related charges.\19\ ``Sullivan 
was in contact and plotted with now-deceased Syria-based terrorist 
Junaid Hussain to execute acts of mass violence in the United States in 
the name of the'' Islamic State, Acting Assistant Attorney General for 
National Security Mary B. McCord said in a statement.\20\ Sullivan and 
Hussain ``conspired'' to ``plan mass shooting attacks in North Carolina 
and Virginia,'' with Sullivan intending ``to kill hundreds of innocent 
people.''
---------------------------------------------------------------------------
    \19\ U.S. Department of Justice, Press Release, ``North Carolina 
Man Pleads Guilty to Attempting to Commit An Act of Terrorism 
Transcending National Boundaries,'' November 29, 2016. (https://
www.justice.gov/opa/pr/north-carolina-man-pleads-guilty-attempting-
commit-act-terrorism-transcending-national); See also: Thomas Joscelyn, 
``North Carolina man pleads guilty to conspiring with Islamic State 
recruiter,'' FDD's Long War Journal, November 29, 2016. (http://
www.longwarjournal.org/archives/2016/11/north-carolina-man-pleads-
guilty-to-conspiring-with-islamic-State-recruiter.php).
    \20\ U.S. Department of Justice, Press Release, ``North Carolina 
Man Pleads Guilty to Attempting to Commit An Act of Terrorism 
Transcending National Boundaries,'' November 29, 2016. (https://
www.justice.gov/opa/pr/north-carolina-man-pleads-guilty-attempting-
commit-act-terrorism-transcending-national).
---------------------------------------------------------------------------
    On February 10, 2017, the DOJ announced that two New York City 
residents, Munther Omar Saleh and Fareed Mumuni, pleaded guilty to 
terror-related charges.\21\ ``Working with [Islamic State] fighters 
located overseas, Saleh and Mumuni also coordinated their plot to 
conduct a terrorist attack in New York City,'' the DOJ explained. 
Saleh, from Queens, sought and received instructions from an [Islamic 
State] attack facilitator to create a pressure-cooker bomb and 
discussed with the same [Islamic State] attack facilitator potential 
targets for a terrorist attack in New York City.'' Saleh ``also sought 
and received religious authorization from an [Islamic State] fighter 
permitting Mumuni to conduct a suicide `martyrdom' attack by using a 
pressure-cooker bomb against law enforcement officers who were 
following the co-conspirators and thus preventing them from traveling 
to join'' the Islamic State.\22\ Federal prosecutors revealed that the 
``attack facilitator'' Saleh was talking to was, in fact, Junaid 
Hussain.\23\
---------------------------------------------------------------------------
    \21\ U.S. Department of Justice, Press Release, ``Two New York City 
Residents Pleaded Guilty to All Charges in Terrorism Case,'' February 
10, 2017. (https://www.justice.gov/opa/pr/two-new-york-city-residents-
pleaded-guilty-all-charges-terrorism-case).
    \22\ U.S. Department of Justice, Press Release, ``Two New York City 
Residents Pleaded Guilty to All Charges in Terrorism Case,'' February 
10, 2017. (https://www.justice.gov/opa/pr/two-new-york-city-residents-
pleaded-guilty-all-charges-terrorism-case).
    \23\ ``New York man Munther Omar Saleh admits plotting to help 
ISIS,'' CBS News, February 10, 2017. (http://www.cbsnews.com/news/new-
york-man-munther-omar-saleh-admits-isis/).
---------------------------------------------------------------------------
    Also on February 10, 2017, Mohamed Bailor Jalloh, a Virginia man 
and former member of the Army National Guard, was sentenced to 11 years 
in prison and 5 years supervised release for attempting to provide 
material support to the Islamic State.\24\ According to the DOJ, Jalloh 
was in contact with Islamic State members both in person and on-line. 
He met Islamic State members in Nigeria during a ``6-month trip to 
Africa'' and also ``began communicating on-line with'' an Islamic State 
member located overseas during this time. The Islamic State member 
``brokered'' Jalloh's ``introduction'' to the FBI's confidential human 
source. This means the U.S. Government's intelligence was so good in 
this case that the digital handler was actually fooled into leading 
Jalloh into a dead-end. Still, Jalloh considered ``conducting an attack 
similar to the terrorist attack at Ft. Hood, Texas,'' which left 13 
people dead and dozens more wounded.
---------------------------------------------------------------------------
    \24\ U.S. Department of Justice, Press Release, ``Former Army 
National Guardsman Sentenced to 11 Years for Attempting to Provide 
Material Support to ISIL,'' February 10, 2017. (https://
www.justice.gov/opa/pr/former-army-national-guardsman-sentenced-11-
years-attempting-provide-material-support-isil).
---------------------------------------------------------------------------
More than 15 years after the 9/11 hijackings, al-Qaeda is still 
        plotting against the United States
    Al-Qaeda has not been able to replicate its most devastating attack 
in history, the September 11, 2001 hijackings. But this does not mean 
the al-Qaeda threat has disappeared. Instead, al-Qaeda has evolved. 
There are multiple explanations for why the United States has not been 
struck with another 9/11-style, mass casualty operation.\25\ These 
reasons include: The inherent difficulty in planning large-scale 
attacks, America's improved defenses, and a prolific counterterrorism 
campaign overseas.
---------------------------------------------------------------------------
    \25\ The discussion here is specifically focused on larger-scale 
plots, recognizing that both al-Qaeda and the Islamic State have 
inspired or influenced multiple, smaller-scale operations in the United 
States since 9/11.
---------------------------------------------------------------------------
    In addition, contrary to a widely-held assumption in 
counterterrorism circles, al-Qaeda has not made striking the United 
States its sole priority. In fact, al-Qaeda leader Ayman al-Zawahiri 
has even ordered his men in Syria to stand down at times, as they 
prioritized the war against Bashar al Assad's regime over bombings, 
hijackings, or other assaults in the West. However, Zawahiri could 
change his calculation at any time, and it would then be up to 
America's intelligence and law enforcement officials to detect and 
thwart specific plots launched from Syria. One additional caveat here 
is warranted. Despite the fact that Zawahiri has not given the final 
green light for an anti-Western operation launched from Syrian soil, 
al-Qaeda has been laying the groundwork for such attacks in Syria and 
elsewhere. There is a risk that al-Qaeda could seek to launch Mumbai-
style attacks in American or European cities, bomb trains or other mass 
transit locations, plant sophisticated explosives on Western airliners, 
or dream up some other horrible attack.
    In September 2014, the Obama administration announced that it 
launched airstrikes against al-Qaeda's so-called ``Khorasan Group'' in 
Syria. There was some confusion surrounding this group. The Khorasan 
Shura is an elite body within al-Qaeda and part of this group is 
dedicated to launching ``external operations,'' that is, attacks in the 
West. Several significant leaders in the Khorasan Group were previously 
based in Iran, where al-Qaeda maintains a core facilitation hub. In 
fact, at least two Khorasan figures previously headed al-Qaeda's Iran-
based network, which shuttles operatives throughout the Middle East and 
sometimes into the West. As I have previously testified before this 
committee, some foiled al-Qaeda plots against the West were facilitated 
by operatives based in Iran.\26\
---------------------------------------------------------------------------
    \26\ See my testimony during the May 22, 2013 subcommittee hearing: 
Thomas Joscelyn, ``Assessing the Threat to the Homeland from al Qaeda 
Operations in Iran and Syria,'' Testimony before the House Committee on 
Homeland Security Subcommittee on Counterterrorism and Intelligence, 
May 22, 2013. (http://docs.house.gov/meetings/HM/HM05/20130522/100901/
HHRG-113-HM05-WState-JoscelynT-920130522.pdf).
---------------------------------------------------------------------------
    Al-Qaeda began relocating senior operatives to Syria in 2011. And 
the United States has targeted known or obscure al-Qaeda veterans in 
Syria in the years since, often citing their presumed threat to the 
United States and the West. I will not list all of these operatives 
here, but we regularly track the al-Qaeda figures targeted in drone 
strikes at FDD's Long War Journal.
    During the final months of the Obama administration, American 
military and intelligence officials highlighted al-Qaeda's continued 
plotting against the United States on multiple occasions. And there was 
also a shift in America's air campaign, from targeted strikes on 
individual al-Qaeda operatives in Syria to bombings intended to destroy 
whole training camps or other facilities. In addition, the U.S. 
Treasury and State Departments began to designate terrorist leaders 
within al-Qaeda's branch in Syria who may not play any direct role in 
international operations. This change in tactics reflects the 
realization that al-Qaeda has built its largest paramilitary force in 
history in Syria. And while only part of this force may have an eye on 
the West, there is often no easy way to delineate between jihadists 
involved in al-Qaeda's insurgency operations and those who are 
participating in plots against America or European nations.\27\
---------------------------------------------------------------------------
    \27\ Most of al-Qaeda's paramilitary fighters in Syria will remain 
focused on the war against Bashar al Assad's regime and Assad's allies. 
However, some of the key al-Qaeda operatives killed in U.S. drone 
strikes have played multiple roles within the organization, meaning 
they can walk (fight on the ground in Syria) and chew gum (plot against 
the West) at the same time. And training facilities can be used for 
these dual purposes.
---------------------------------------------------------------------------
    In October 2016, the Defense Department announced that the United 
States had carried out ``transregional'' airstrikes against al-Qaeda's 
``external'' operatives in Syria, Yemen, and Afghanistan. Al-Qaeda 
``doesn't recognize borders when they conspire to commit terrorist 
attacks against the West, and we will continue to work with our 
partners and allies to find and destroy their leaders, their fighters 
and their cells that are planning attacks externally,'' Pentagon 
spokesman Navy Capt. Jeff Davis said shortly after the bombings. Davis 
added that some of al-Qaeda's ``external'' plotters enjoyed a 
``friendly, hospitable environment'' within al-Nusrah Front, which was 
the name used by al-Qaeda's guerrilla army in Syria until mid-2016. 
Davis added that the jihadists targeted ``are people who are from 
outside Syria in many cases and who are focused on external 
operations.''\28\
---------------------------------------------------------------------------
    \28\ U.S. Department of Defense, Press Release, ``Transregional 
Strikes Hit al-Qaida Leaders in Syria, Yemen, Afghanistan,'' November 
2, 2016. (https://www.defense.gov/News/Article/Article/994180/
transregional-strikes-hit-al-qaida-leaders-in-syria-yemen-afghanistan).
---------------------------------------------------------------------------
    The Pentagon provided short descriptions for each of the al-Qaeda 
operatives targeted in October 2016. On October 17, Haydar Kirkan was 
killed in Idlib, Syria. He was ``a long-serving and experienced 
facilitator and courier for al-Qaeda in Syria,'' who ``had ties to al-
Qaeda senior leaders, including Osama bin Laden.'' Davis added that 
Kirkan ``was al-Qaeda's senior external terror attack planner in Syria, 
Turkey, and Europe.''\29\ Kirkan oversaw a significant network inside 
Turkey.\30\ The United States has killed a number of individuals with 
backgrounds similar to Kirkan since 2014.
---------------------------------------------------------------------------
    \29\ Ibid.
    \30\ Thomas Joscelyn, ``Pentagon: Al Qaeda veteran in Syria was 
planning attacks against the West,'' FDD's Long War Journal, November 
2, 2016. (http://www.longwarjournal.org/archives/2016/11/al-qaeda-
veteran-in-syria-was-planning-attacks-against-the-west.php).
---------------------------------------------------------------------------
    On October 21, an AQAP leader known as Abu Hadi al-Bayhani and four 
others were killed in a U.S. airstrike in Yemen's Marib Governorate. 
The Pentagon tied al-Bayhani to AQAP's ``external'' plotting, noting 
that the al-Qaeda arm relies on ``leaders like Bayhani to build and 
maintain safe havens'' from which it ``plans external operations.''\31\
---------------------------------------------------------------------------
    \31\ U.S. Department of Defense, Press Release, ``Transregional 
Strikes Hit al-Qaida Leaders in Syria, Yemen, Afghanistan,'' November 
2, 2016. (https://www.defense.gov/News/Article/Article/994180/
transregional-strikes-hit-al-qaida-leaders-in-syria-yemen-afghanistan).
---------------------------------------------------------------------------
    Then, on October 23, two senior al-Qaeda leaders, Farouq al-Qahtani 
and Bilal al-Utabi, were killed in airstrikes in Afghanistan. Qahtani 
was one of al-Qaeda's most prominent figures in the Afghan insurgency, 
as he was the group's emir for eastern Afghanistan and coordinated 
operations with the Taliban. Osama bin Laden's files indicate that 
Qahtani was responsible for re-establishing al-Qaeda's safe havens in 
Afghanistan in 2010, if not earlier.\32\ But Qahtani was also tasked 
with plotting attacks in the West.
---------------------------------------------------------------------------
    \32\ Thomas Joscelyn, ``Treasury designates head of al-Qaeda's 
eastern zone in Afghanistan,'' FDD's Long War Journal, February 10, 
2016. (http://www. longwarjournal.org/archives/2016/02/treasury-
designates-head-of-al-qaedas-eastern-zone-in-afghanistan.php).
---------------------------------------------------------------------------
    General John W. Nicholson, the Commander of NATO's Resolute Support 
and U.S. Forces in Afghanistan, described the threat posed by Qahtani 
in a recent interview with the CTC Sentinel, a publication produced by 
the Combating Terrorism Center at West Point.\33\ Gen. Nicholson 
described Qahtani as al-Qaeda's ``external operations director,'' 
saying that he was ``actively involved in the last year in plotting 
attacks against the United States.'' Nicholson added this warning: 
``There's active plotting against our homeland going on in Afghanistan. 
If we relieve pressure on this system, then they're going to be able to 
advance their work more quickly than they would otherwise.''\34\
---------------------------------------------------------------------------
    \33\ Brian Dodwell and Don Rassler, ``A view from the CT foxhole: 
General John W. Nicholson, Commander, Resolute Support and U.S. Forces-
Afghanistan,'' CTC Sentinel, February 22, 2017. (https://
www.ctc.usma.edu/posts/a-view-from-the-ct-foxhole-general-john-w-
nicholson-commander-resolute-support-and-u-s-forces-afghanistan).
    \34\ Ibid.
---------------------------------------------------------------------------
    Kirkan, Bayhani, and Qahtani are just some of the men involved in 
anti-Western plotting who have been killed in recent bombings. And 
these targeted airstrikes are just part of the picture.
    In October 2015, the United States and its Afghan allies destroyed 
what was probably the largest al-Qaeda training camp in Afghanistan's 
history in the Shorabak district of Kandahar.\35\ The facility was an 
estimated 30 square miles in size, making it bigger than any of al-
Qaeda's pre-9/11 camps.
---------------------------------------------------------------------------
    \35\ Thomas Joscelyn and Bill Roggio, ``U.S. military strikes large 
al-Qaeda training camps in southern Afghanistan,'' FDD's Long War 
Journal, October 13, 2015. (http://www.longwarjournal.org/archives/
2015/10/us-military-strikes-large-al-qaeda-training-camps-in-southern-
afghanistan.php).
---------------------------------------------------------------------------
    The U.S. military says that approximately 250 al-Qaeda operatives 
were killed or captured in Afghanistan in 2016.\36\ This is far more 
than the U.S. Government's long-standing estimate for al-Qaeda's entire 
force structure in all of Afghanistan. For years, U.S. officials 
claimed there was just 50 to 100 al-Qaeda jihadists throughout the 
entire country.
---------------------------------------------------------------------------
    \36\ Thomas Joscelyn and Bill Roggio, ``U.S. military: 250 al-Qaeda 
operatives killed or captured in Afghanistan this year,'' FDD's Long 
War Journal, December 14, 2016. (http://www.longwarjournal.org/
archives/2016/12/us-military-250-al-qaeda-operatives-killed-or-
captured-in-afghanistan-this-year.php).
---------------------------------------------------------------------------
    On January 20, the Defense Department announced that ``more than 
150 al-Qaeda terrorists'' had been killed in Syria since the beginning 
of 2017.\37\ In addition to individual terrorists involved in plotting 
against the West, the United States struck the Shaykh Sulayman training 
camp, which had been ``operational since at least 2013.''
---------------------------------------------------------------------------
    \37\ U.S. Department of Defense, Press Release, ``U.S. Airstrike 
Kills More Than 100 al-Qaida Fighters in Syria,'' January 20, 2017. 
(https://www.defense.gov/News/Article/Article/1055727/us-airstrike-
kills-more-than-100-al-qaida-fighters-in-syria).
---------------------------------------------------------------------------
    The reality is that al-Qaeda now operates large training camps in 
more countries today than on 9/11. The next 9/11-style plotters could 
be in those camps, or fighting in jihadist insurgencies, right now. If 
so, it will be up to America's offensive counterterrorism campaign and 
its defenses to stop them.

    Mr. King. Thank you, Mr. Joscelyn.
    Our next witness is Robin Simcox. Mr. Simcox specializes in 
terrorism and National security analysis as the Margaret 
Thatcher fellow at the Heritage Foundation. Prior to joining 
Heritage last year, he was a research fellow at the Henry 
Jackson Society, a foreign policy think tank in London. He also 
has testified several times before this committee on terror 
threats and radicalization.
    His work has been published in multiple newspapers and 
magazines, including The Washington Post, The Wall Street 
Journal, the Atlantic, West Point's Counterterrorism Center 
Sentinel, and The Weekly Standard. Mr. Simcox received a 
masters of science degree in U.S. foreign policy from the 
Institute for the Study of Americas, University of London, and 
a bachelor of arts degree in international history from the 
University of Leeds. He is originally from England, he 
currently resides in Washington, DC.
    It is good to have you back and you are recognized for your 
testimony.

 STATEMENT OF ROBIN SIMCOX, MARGARET THATCHER FELLOW, MARGARET 
   THATCHER CENTER FOR FREEDOM, DAVIS INSTITUTE FOR NATIONAL 
        SECURITY AND FOREIGN POLICY, HERITAGE FOUNDATION

    Mr. Simcox. Thank you, Chairman King, distinguished Members 
of the subcommittee. Thank you for the opportunity to testify 
here today.
    My goal is to highlight just some of the issues which have 
hindered U.S. counterterrorism efforts in recent years. Allow 
me to suggest three specific areas to which the United States 
could devote more attention.
    The first area lies in defining the enemy. The United 
States dedicates a huge amount of resources to 
counterterrorism, yet U.S. policy makers and, arguably, us as a 
society, seem to be no closer to a consensus on where the 
source of this terrorist threat emerges from and who exactly 
our real adversaries are. President Trump refers to the enemy 
as radical Islamic terrorism. If this is the lexicon to be 
used, then serious thought needs to be given to what 
constitutes a radical Islamic terrorist.
    I am sure we can all agree that it includes al-Qaeda and 
ISIS, yet al-Qaeda and ISIS are manifestations of a broader 
Islamist movement. The ideology that propels these groups 
transcends the tens of thousands of their fighters that the 
United States is most fixated upon in the short term. So are we 
just focused on those willing to use violence to achieve their 
goals or should our ambitions be grander?
    For example, there is currently a discussion over whether 
to designate the Muslim Brotherhood as a terrorist 
organization. Yet whether the United States does so or not 
cannot deflect from the broader questions that must be 
answered, such as, are we aiming to defeat or discredit all 
forms of political Islam? If so, how do we reconcile this aim 
with broader diplomatic goals? After all, not so long ago, the 
Brotherhood came to power in Tunisia and Egypt. So do we need 
different strategies to deal with Islamism at home and abroad?
    What about those Salafists whose ideology we may find 
harmful and socially divisive, but who say they are non-
political? I don't think a lot of serious thought has gone into 
some of these questions over recent years, and I think it might 
be worthwhile beginning to do so.
    The second area lies with the Countering Violent Extremism, 
CVE, initiative. Accordance of Department for Homeland 
Security, CVE aims to address the root causes of violent 
extremism by providing resources to communities to build and 
sustain local prevention efforts and promote the use of counter 
narratives to confront violent extremist messaging on-line. CVE 
should not be dismissed out of hand, but it should also be 
limited in scope and the United States must develop robust ways 
of measuring the success of its initiatives. Otherwise, there 
is a possibility that the United States makes the same mistakes 
some of its allies have made with such programs.
    Let me provide an example of this from the United Kingdom. 
So clearly, it is only Muslims who have the knowledge and 
credibility within their communities to tackle Islamist 
extremism most effectively, yet CVE partners should also be 
supportive of some very basic principles, such as a belief in 
democracy, religious freedom, equality, and freedom of speech. 
In the United Kingdom, this was not the case. Too much trust 
was placed in certain groups claiming to be representative of 
British Muslim opinion, yet organizationally and ideologically 
tied to Islamist groups in South Asia and North Africa.
    Such groups did not adhere to basic British values, yet 
they gained the ear of the government and worked to shut down 
conversation about any ideological and theological roots of 
terrorism and instead pushed an agenda that placed acts of 
terrorism solely at the door of U.S. and U.K. foreign policy. 
The legacy of this continues to hamper U.K. policy in this area 
today, and I fear a similar thing could happen in the United 
States.
    The third area lies with encouraging reform from key 
international partners. ISIS would clearly like to carry out a 
terrorist attack in the United States. So far, however, there 
are no known cases of ISIS operatives being able to infiltrate 
the United States from abroad and then commit such an attack. 
This is not the case in Europe, however, where ISIS has had far 
more success. This has a clear relevance to the United States.
    Approximately over 1\1/2\ million American citizens live in 
Europe and that is not even counting all those who live on 
military bases. Americans have already been killed in terrorist 
attacks in Paris in November 2015, Brussels in March 2016, and 
Nice in July 2016. Unfortunately, European countries that are 
threatened by ISIS usually do not have sufficiently robust 
counterterrorism defenses in place.
    Therefore, the United States must do what it can to protect 
its citizens by encouraging certain European partners to spend 
more money on counterterrorism efforts, reform their complex 
intelligence apparatuses, and to take a more robust approach to 
law and order and border security.
    These are just some of the challenges U.S. security policy 
must address. Yet by working with its allies abroad, a multi-
pronged and nuanced approach to the threat at home and a 
clearer understanding of the ideology that threatens the United 
States, some headway can be made.
    Thank you for the opportunity to speak to you today, and I 
look forward to your questions and comments.
    [The prepared statement of Mr. Simcox follows:]
                   Prepared Statement of Robin Simcox
                           February 24, 2017
    Chairman King and distinguished Members of the subcommittee, thank 
you for the opportunity to testify here today.
    My name is Robin Simcox. I am the Margaret Thatcher fellow at the 
Margaret Thatcher Center for Freedom at The Heritage Foundation. My 
responsibilities at The Heritage Foundation consist of research on 
terrorism and security policy, issues I have published and written 
widely on for almost 10 years, both here in the United States and in 
Europe. The views I express in this testimony are my own and should not 
be construed as representing any official position of The Heritage 
Foundation.
    My goal in this testimony is to highlight just some issues which 
have hindered either U.S. homeland security counterterrorism efforts or 
presented a threat to American lives in recent years. Allow me to 
suggest three specific areas which the United States could devote more 
attention and ultimately decrease the threat posed to American 
citizens.
                            define the enemy
    The United States dedicates a huge amount of resources to 
counterterrorism. This issue is now part of the National conversation. 
It was discussed endlessly on the campaign trail and virtually every 
day in National newspapers. Yet the U.S. Government, and arguably us as 
a society, seem to be no closer to identifying who exactly it is we are 
fighting. We talk about needing to win the war of ideas--yet against 
precisely which ideas?
    President Trump refers to the enemy as ``radical Islamic 
terrorism.'' He has received criticism from some for speaking so 
bluntly, but at least there is an attempt to define who or what the 
United States is trying to defeat in terms that most of the country 
understands. However, if this is the lexicon to be used, then serious 
thought needs to be given to what constitutes a radical Islamic 
terrorist.
    I am sure we can all agree that al-Qaeda and ISIS constitute the 
enemy. They are the most pressing security threats and need to be 
treated with the utmost seriousness. Yet the unpleasant reality is that 
the ideology that propels these groups transcends the tens of thousands 
of their fighters that the United States is most fixated upon in the 
short term.
    In this context, we need to give greater thought to movements such 
as the Muslim Brotherhood. There is currently discussion over whether 
to designate the Muslim Brotherhood as a terrorist organization.\1\ The 
Brotherhood share almost identical goals to terrorist groups such as 
al-Qaeda and ISIS but with key differences regarding the use of 
violence in achieving these goals.
---------------------------------------------------------------------------
    \1\ For example, see Peter Baker, ``White House Weighs Terrorist 
Designation for Muslim Brotherhood,'' The New York Times, February 7, 
2017, https://www.nytimes.com/2017/02/07/world/middleeast/muslim-
brotherhood-terrorism-trump.html?_r=0 (accessed February 23, 2017); 
Eric Trager, ``The U.S. Should Be Wary About Overplaying Its Hand,'' 
The Cipher Brief, February 9, 2017, https://www.thecipherbrief.com/
article/middle-east/us-should-be-wary-about- overplaying-its-hand-1089 
(accessed February 23, 2017); and Lorenzo Vidino, ``Why the United 
States Should Be as Circumspect as the British About the Muslim 
Brotherhood Ban,'' Lawfare, February 12, 2017, https://lawfareblog.com/
why-united-States-should-be-circumspect-british-about-muslim-
brotherhood (accessed February 23, 2017).
---------------------------------------------------------------------------
    Yet whether the United States bans the Brotherhood or not cannot 
deflect from the broader questions that must be answered. Are we just 
focused on those willing to use violence to achieve their goals? What 
forms of Salafism constitute a threat? Are we aiming to defeat all 
forms of political Islam? If so, how do we reconcile this aim with 
broader diplomatic goals, such as when the Muslim Brotherhood came to 
power in Tunisia? What about other Islamist parties that could feasibly 
end up governing countries?
    These are key questions to consider. As one Heritage Foundation 
report argues,

``Countering the illiberal agendas of Islamist parties is vital to 
protecting American core national security interests. Islamists often 
pursue policies that undermine individual freedoms and lead to 
discrimination, repression, and violence against religious minority 
groups and women. Their lenient policies toward terrorist groups also 
undercut U.S. counterterrorism measures and encourage a permissive 
environment for extremists to plot, plan, and train for international 
terrorist attacks.''\2\
---------------------------------------------------------------------------
    \2\ Lisa Curtis, Charlotte Florance, Walter Lohman, and James 
Phillips, ``Pursuing a Freedom Agenda Amidst Rising Global Islamism,'' 
Heritage Foundation Special Report No. 159, November 17, 2014, http://
www.heritage.org/terrorism/report/pursuing-freedom-agenda-amidst-
rising-global-islamism (accessed February 23, 2017).

    The previous administration took a minimalist approach focused very 
narrowly on the violent Islamists of ISIS, al-Qaeda, and their belief 
system. My preference would be for a much broader approach. ISIS, al-
Qaeda, and their supporters are manifestations of a broader Islamist 
movement. It is vital, therefore, that the appeal of the ideology of 
Islamism itself is undermined.
                   countering violent extremism (cve)
    According to the Department for Homeland Security website, ``CVE 
aims to address the root causes of violent extremism by providing 
resources to communities to build and sustain local prevention efforts 
and promote the use of counter-narratives to confront violent extremist 
messaging on-line.''\3\
---------------------------------------------------------------------------
    \3\ U.S. Department of Homeland Security, Countering Violent 
Extremism, January 19, 2017, https://www.dhs.gov/countering-violent-
extremism (accessed February 23, 2017).
---------------------------------------------------------------------------
    This is a worthy cause and one that is not always well-understood. 
Establishing lines of dialog between local Muslim communities, local 
government, and the police, or providing alternative pathways for 
potential radicals--particularly the young--should be one option among 
many in reducing the threat posed by Islamism. Indeed, this kind of 
work is being pursued in various forms by governments across the West.
    Yet such programs should be an occasional complement to law 
enforcement efforts and not a replacement. Furthermore, the United 
States must avoid mistakes some of its allies have made with such 
programs.
    For example, there will be a temptation to allow the CVE agenda to 
metastasize. This runs the risk of wasting a lot of money and 
empowering some of the wrong people. Clearly it is only Muslims who 
have the knowledge and credibility within their communities to head up 
this fight. Yet by placing too much trust in certain groups or 
individuals claiming to be representative of Muslim opinion, the United 
States may end up empowering those who practice a highly intolerant 
form of Islam. This is precisely what happened in the United Kingdom.
    Another lesson from the United Kingdom was that well-organized 
Islamist groups gained the ear of the government and subsequently 
worked to shut down any conversation about the ideological and 
theological roots of terrorism and relentlessly pushed an agenda of 
grievances, usually related to foreign policy. These groups falsely 
portray themselves as gatekeepers to the entire, diverse Muslim 
population of a country. Some Muslim Brotherhood front groups even 
ended up being funded by the British government.\4\ I see a similar 
situation potentially arising in the United States.
---------------------------------------------------------------------------
    \4\ Shiraz Maher and Martyn Frampton, Choosing Our Friends Wisely: 
Criteria for Engagement with Muslim Groups (Policy Exchange, 2009), 
https://policyexchange.org.uk/publication/choosing-our-friends-wisely-
criteria-for-engagement-with-muslim-groups/ (accessed February 23, 
2017).
---------------------------------------------------------------------------
    So CVE should be limited in scope and the United States must 
develop robust ways of measuring the success of its initiatives. Its 
CVE partners should be carefully vetted and be supportive of basic 
American principles: Such as a belief in democracy, religious freedom, 
equality, tolerance, freedom of speech, and the rule of law.
    There is one additional comment on CVE I would like to make.
    It was recently reported by Reuters that CVE is to be renamed 
either ``Countering Islamic Extremism'' or ``Countering Radical Islamic 
Extremism.''\5\ These may not be my precise preference as a choice of 
words--I believe a focus on the political ideology of Islamism is 
preferable--but I think this is a step forwards.
---------------------------------------------------------------------------
    \5\ Julia Edwards Ainsley, Dustin Volz, and Kristina Cooke, 
``Exclusive: Trump to Focus Counter-extremism Program Solely on Islam--
Sources,'' Reuters, February 2, 2017, http://www.reuters.com/article/
us-usa-trump-extremists-program-exclusiv-idUSKBN15G5VO?-
feedType=RSS&feedName=-topNews&utm_source=twitter&utm_medium=Social 
(accessed February 23, 2017).
---------------------------------------------------------------------------
    Changing the language is not a panacea in and of itself, but 
greater honesty about the area of primary concern is a positive 
development. It conveys a clearer idea to the American people that the 
White House is aware of the threat of Islamism specifically and is 
tailoring policy accordingly. I find the generic ``violent extremist'' 
does the opposite.
    The United States should not be hampered by an approach which 
implies that all extremists pose the same gravity of threat to the 
homeland. This is not the case. Eco-terrorists do not pose the same 
threat as ISIS-inspired terrorists.
    All terrorist threats must be vigorously addressed but there is not 
a one-size-fits-all approach to every ideology. The greatest threat to 
American lives comes from Islamist terrorists and our counter-
radicalization efforts should surely reflect that.\6\
---------------------------------------------------------------------------
    \6\ David Inserra and Robin Simcox, ``How to Turn Countering 
Violent Extremism into Combating Islamist Terrorism,'' The Daily 
Signal, July 8, 2016, http://dailysignal.com/2016/07/08/how-to-turn-
countering-violent-extremism-into-combating-islamist-terrorism/.
---------------------------------------------------------------------------
Encourage Reform from International Partners to Reduce the Threats to 
        American Citizens
    ISIS would clearly like to carry out a terrorist attack in the 
United States. So far, however, there are no known cases of ISIS 
operatives being able to infiltrate the United States from abroad and 
then carry out an attack.
    This is not the case in Europe, for example, where ISIS has had far 
more success.\7\ I have just returned from a research trip meeting 
security and counterterrorism officials and I believe that the 
situation is grave.
---------------------------------------------------------------------------
    \7\ Robin Simcox, ``The Threat of Islamist Terrorism in Europe and 
How the U.S. Should Respond,'' Heritage Foundation Backgrounder No. 
3142, August 1, 2016,  http://www.heritage.org/terrorism/report/the-
threat-islamist-terrorism-europe-and-how-the-us-should-respond.
---------------------------------------------------------------------------
    Europe faces a severe and on-going threat from terrorism. This has 
a clear impact on the United States. The threat to American lives is 
not simply restricted to those living in America. According to the 
Association of American Residents Overseas, approximately over 1.5 
million American citizens live in Europe.\8\ This does not include all 
those Americans on military bases housed throughout Europe, which are 
also an appealing target for Islamist terrorists. Already, an American 
was killed in the Paris attacks of November 2015. Four Americans were 
killed in Brussels in March 2016. Another three were killed in an 
attack in Nice in July 2016. More casualties are likely.
---------------------------------------------------------------------------
    \8\ The Association of American Residents Overseas, About AARO, 
https://www.aaro.org/about-aaro/6m-americans-abroad (accessed February 
23, 2017).
---------------------------------------------------------------------------
    Unfortunately, European countries that are threatened by ISIS 
usually do not have the robust counterterrorism defenses in place that 
the United States does. Therefore, the United States must do what it 
can to protect its citizens by:
  <bullet> Maintaining a strong intelligence-sharing alliance with 
        relevant European partners.
  <bullet> Encouraging our European partners to spend more money on 
        counterterrorism efforts.
  <bullet> Encouraging our European partners to take a tougher approach 
        to law and order (for example, jail those convicted of 
        terrorism-related activity for longer periods).
  <bullet> Helping certain European countries to reform their unwieldy 
        and complex intelligence and security apparatus.
  <bullet> Imploring Europe to get tougher on border security. The 
        borderless travel that exists in much of continental Europe has 
        proven to be easily exploitable for a transnational terror 
        network like ISIS.
    Anyone who has any experience in dealing with European approaches 
to counterterrorism is aware of what a challenging task this is. 
However, it is important for the United States to focus even more 
attention on such issues.

    Mr. King. Thank you Mr. Simcox.
    Our final witness is Peter Bergen who has also appeared 
before this committee and certainly both this committee and the 
Intelligence Committee, where I also serve, we have see him a 
number of times. He is a vice president and director of the 
fellows program and the international security program at New 
America in the District of Columbia, a professor of practice at 
the School of Politics and Global Studies at Arizona State 
University, where he is the co-director of the Center on the 
Future of War. He is a CNN National security analyst and a 
fellow at Fordham University's Center on National Security.
    He is a prolific author, authoring five books on terrorism 
and homeland security. We probably agree more often than not, 
but even when we don't agree, I have the greatest respect for 
your integrity and your intellect.
    So, Mr. Bergen, with that, it is great to have you back 
before the committee.

     STATEMENT OF PETER BERGEN, VICE PRESIDENT, DIRECTOR, 
    INTERNATIONAL SECURITY AND FELLOWS PROGRAMS, NEW AMERICA

    Mr. Bergen. Thank you, Chairman King. Thank you, Ranking 
Member Rice and the other distinguished Members of the 
committee.
    I don't want to sort-of repeat what has already been said, 
so focusing perhaps more on what we can do or what we shouldn't 
do.
    So two things we shouldn't do. The visa ban--the visa ban 
is a temporary ban from the seven Muslim majority countries is 
totally ineffective if you look at what has actually happened 
since 9/11. As it is presently constructed, it would be a bit 
like saying we have a problem with gangs from Central America 
that have roots in Salvador, and therefore, we should stop 
people from Argentina or Chile and Canada coming into the 
United States.
    It doesn't make any sense, because of the 94 Americans that 
have been killed by terrorists since 9/11, according to 
research conducted by New America and my team is here with me, 
none of these attacks were conducted by the seven Muslim-
majority country nationals and none of their families came from 
these countries.
    So there seems to be a campaign promise that hasn't really 
been thought through very carefully and let us see what happens 
tomorrow as they move the goal posts on this.
    But the real issue is Americans radicalizing here in this 
country and they are radicalizing because of what they are 
reading on-line. Of the 117 Americans who have traveled to 
Syria to join ISIS or other groups, 88 of them were heavy users 
of the internet, not just sending e-mails, but posting jihadist 
material, sometimes, as other people testifying here have said, 
communicating directly with ISIS.
    Now, the internet is not subject to a visa ban, so the 
issue is really a question of how to deal with that problem, 
the Americans radicalizing here.
    A second bad idea, which Mr. Simcox has sort-of gestured 
at, is the idea of banning or designating the Muslim 
Brotherhood as a terrorist organization. This would be very 
stupid. This would be akin to saying because everybody in this 
country who attacks an abortion clinic is a Christian 
fundamentalist, we should designate Christian fundamentalists 
as terrorists. This makes no sense.
    The Muslim Brotherhood is a movement of tens of millions of 
people, a tiny minority of whom have then gone on to join al-
Qaeda. The Muslim Brotherhood was important members of close 
American allies in the government in Jordan, in Kuwait, in 
Tunisia, in Iraq, people that we need to work with us.
    OK, so an idea that would work is an idea actually proposed 
by Chairman King, which is the no-fly, no-buy idea. Now, it is 
astonishing that Major Nidal Hasan who killed 13 people at Fort 
Hood, Omar Mateen who killed 49 people in Orlando, and Carlos 
Bledsoe who killed an American soldier in Little Rock, Arkansas 
in 2009 legally purchased semiautomatic weapons, despite the 
fact that they were the subjects of FBI scrutiny.
    The NRA has put up a huge smoke screen about this issues 
saying, well, some people on the no-fly list shouldn't be 
there. Well, that is ridiculous because there are 81,000 people 
on the no-fly list, 800 of whom or only 800 of whom are 
Americans. Maybe one of them shouldn't be on the list. But the 
idea that there is sort-of a problem with it is just crazy.
    Another idea is we should stay in Afghanistan. I think one 
of the more counterproductive things the Obama administration 
did was say we are constantly withdrawing. We are not going to 
withdraw from Afghanistan, you know, in my lifetime, I think, 
and it is right for the United States security, it is right for 
security for other countries around the world and for Afghans, 
they want us to stay. So I hope that the administration has a 
robust policy in Afghanistan.
    It is not about the number of troops, it is about the 
political messaging around it. Afghans don't care if it is 
8,400 troops as we have now or 12,000. From a purely military 
point of view there is a difference, but it is the political 
messaging. We have a strategic partnership with Afghanistan 
until 2024, let us stay there, let us say we are going to stay 
there until we can really eliminate some of the threats that 
Mr. Joscelyn talked about.
    Something that is working is micro-targeting. Now, if I 
look for shoes on-line, for the rest of my life I am going to 
get advertisements about shoes on-line. I think the GEC at 
State has actually moved to a much better policy which is, we 
are going to micro-target people looking for ISIS propaganda, 
we are going to have counter-messages in local languages. 
Google is doing some of this, too. This is actually something 
that at least does no harm, and may actually work.
    I think it was very useful that we talked about the attacks 
on Jewish targets, because of the 94 Americans that have been 
killed by jihadi terrorists since 9/11, 50 have been killed by 
extreme right-wing militants, including a number at, for 
instance, in Kansas City in 2014 by a neo-Nazi. Also, we had 
the incident at the Holocaust Museum here in Washington. Also, 
we also have a black separatist militant who has killed five 
people.
    In an era of increasing polarization, we shouldn't be 
completely fixated on jihadi terrorism. Look just here in this 
city. On December 5 we, I think, missed, you know, something 
could have been very serious, at Comet Pizza where a man armed 
with a semiautomatic weapon came into the pizza restaurant and 
was planning to do violence. Luckily he was disabled before he 
could do anything.
    Finally, picking up on what some of what Commissioner Davis 
said, enlisting the Muslim community is the right approach 
because the FBI has done a very interesting study of 80 
terrorism cases since 2009, and the study may be larger by now, 
but what they found was, the people who know the most about a 
potential attack are peers and the people who know the second-
most are family members, then next authority figures like 
clerics or teachers. Finally, strangers know the least.
    The people most likely to drop a dime are strangers, but 
they have the least useful information. So we see in the San 
Bernardino case, Enrique Marquez actually knew a lot about what 
was going to happen. Unfortunately, he didn't say anything. So 
we really want to get those people to come forward.
    Just two other quick points. I am very concerned about the 
insider threat from airports, which is something this committee 
I am sure is concerned about, too. Sinai shows that this is the 
one way they can get their holy grail. There are 103 countries 
that have direct flights to the United States.
    Now, if you are taking a direct flight from Heathrow, that 
is probably less of a problem than, let's say, from, you know, 
some other countries. But I think this is a real area.
    The final issue that I would like to focus on is the 
question of armed drones. You know, Hezbollah and ISIS have all 
used armed drones in combat. There is a vast proliferation. 
American embassies overseas are well-protected against truck 
bombs. Are they well-protected against armed drones?
    [The prepared statement of Mr. Bergen follows:]
                   Prepared Statement of Peter Bergen
                           February 28, 2017
    This testimony is organized into 8 sections:
    1. What is the terrorism threat to the United States?
    2. What is the terrorism threat posed by citizens of proposed 
        travel-ban countries?
    3. An examination of attacks in the United States that are inspired 
        or enabled by ISIS.
    4. An assessment of who ISIS' American recruits are and why they 
        sign up;
    5. An assessment of how ISIS is doing;
    6. An examination of what the big drivers of jihadist terrorism 
        are;
    7. A discussion of some future trends in terrorism;
    6. Finally, what can be done to reduce the threat from jihadist 
        terrorists?
         1. what is the terrorism threat to the united states?
    The ISIS attacks in Brussels last year and in Paris in 2015 
underlined the threat posed by returning Western ``foreign fighters'' 
from the conflicts in Syria and Iraq who have been trained by ISIS or 
other jihadist groups there. Six of the attackers in Paris were 
European nationals who had trained with ISIS in Syria. Yet in the 
United States, the threat from returning foreign fighters is quite 
limited. According to FBI Director James Comey, 250 Americans have gone 
or attempted to go to Syria. This figure is far fewer than the 
estimated 6,900 who have traveled to Syria from Western nations as a 
whole--the vast majority from Europe. As many as 1,900 of those 
militants have returned, according to an estimate by the House 
Committee on Homeland Security.
    At home, the United States has not faced any threats from ISIS-
trained militants, but it does face a threat from extremists inspired 
by ISIS, or that are in some cases in direct communication with ISIS 
through encrypted communications. The home-grown terror threat poses a 
knotty, multi-layered problem for United States law enforcement. It's 
hard for the United States intelligence community to track lone wolves 
who are not communicating with foreign terrorist organizations via 
email or phone. Nor do lone wolves have meetings with co-conspirators 
of the type that can be monitored by the FBI, while domestic extremists 
who are in touch with ISIS using encrypted communications are using the 
type of encryption that cannot be easily decrypted.
    The FBI said in 2016 that it was conducting some 1,000 
investigations of suspected Islamist militants; many of these will be 
dismissed, rightly, as not causes for true alarm, but the attack by 
Omar Mateen in Orlando that killed 49 reminds us that despite all these 
FBI investigations, sometimes America's home-grown terrorists will 
still slip through the net. This will be ISIS' legacy in the United 
States: The crowdsourcing of jihad, so that men like Omar Mateen can 
quickly convert their personal grievances into what they believe is a 
righteous holy war.
    From court records and news reports New America identified 117 
American militants who have traveled to Syria to join militant groups, 
attempted to travel to Syria to do so, or provided support for those 
who did. Of those, 74 were arrested before reaching Syria. For example, 
Shannon Conley, a 19-year-old woman from Colorado, pleaded guilty in 
2014 to conspiring to provide material support to ISIS. She never set 
foot in Syria, as she was arrested at the Denver International Airport.
    Forty-three did manage to reach Syria and join a militant group. Of 
those, 17 are dead. Douglas McAuthur McCain, for instance, a Muslim 
convert from California, was killed in 2014 fighting for ISIS in a 
battle against the Free Syrian Army. Recently unsealed court documents 
suggest that Adnan Fazeli, a 38-year-old man who settled in Maine after 
coming to the United States as a refugee from Iran, died fighting for 
ISIS in 2015 in a battle against the Lebanese army.
    Only 8 American militants returning from Syria have been arrested 
and only one is alleged to have plotted an attack in the United States.
    Court documents allege that Abdirahman Sheik Mohamud, a 23-year-old 
from Ohio, left to fight in Syria in April 2014 before returning to the 
United States 2 months later. After his return to the United States, he 
was monitored by an informant, leading to his arrest. Mohamud has 
pleaded not guilty to plotting an attack on a United States military 
base.
The United States is now a hard target for foreign terrorist 
        organizations.
    The United States today is a hard target for foreign terrorist 
organizations that have not carried out a successful attack in the 
States since 9/11. That is in part because of the defensive measures 
the States has taken. On 9/11, there were 16 people on the United 
States ``no fly'' list. By 2016 there were 81,000. In 2001, there were 
35 Joint Terrorism Task Force ``fusion centers,'' where multiple law 
enforcement agencies worked together to chase down leads and build 
terrorism cases. A decade-and-a-half later there were more than 100. 
Before 9/11, the Department of Homeland Security, National 
Counterterrorism Center, and Transportation Security Administration 
(TSA) all did not exist. Annoying as it is for many Americans to go 
through a TSA checkpoint at an airport, it is a strong deterrent for 
terrorists inclined to smuggle any kind of weapon on board a plane. 
While it's impossible to decisively measure the impact of programs 
designed to make attacks not happen, the relatively few successful 
jihadist terrorist attacks in the States in the years since 9/11 do 
seem indicative that, broadly speaking, American defensive measures are 
working.
    Another important change: At the dawn of the 21st Century, the 
American public didn't comprehend the threat posed by jihadist 
terrorists. That changed dramatically after 9/11. In December 2001, the 
passengers on an American Airlines jet disabled the ``shoe bomber,'' 
Richard Reid, as the plane flew between Paris and Miami. Similarly, 8 
years later it was his fellow passengers who tackled the ``underwear 
bomber'' Umar Abdulmutallab on Northwest Flight 253 as it flew over 
Detroit. And the following year it was a street vendor who spotted a 
suspicious SUV parked in Times Square that contained the bomb planted 
there by Pakistani Taliban recruit, Faisal Shahzad. The public's 
awareness of terrorism as a domestic threat is a significant force 
multiplier to the other measures put in place to defend the 
``homeland'' after 9/11.
    Aiding those defensive measures is the United States' offense 
overseas. In 2013, the United States allocated $72 billion to 
intelligence collection and other covert activities. Before 9/11, the 
budget was around a third of that figure: $26 billion. CIA drones may 
be controversial, but they also did significant damage to al-Qaeda in 
Pakistan and in Yemen killing dozens of the group's leaders. While it's 
impossible to decisively measure the impact of programs designed to 
make attacks not happen, neither branch of al-Qaeda was able to launch 
a successful attack on the States after 9/11 in part because of the 
pressure that the drone program put them under.
    The threat from al-Qaeda, ISIS, and similar groups has receded 
significantly from its high point on 9/11. The threat inside the States 
is lone-wolf attacks such as the attack in Orlando in June 2016. As 
described above, in the past decade-and-a-half 94 Americans have been 
killed in the United States by jihadist terrorists. Shocking and tragic 
as these attacks have been, they still pale in comparison to al-Qaeda's 
murder of almost 3,000 people on the morning of 9/11.
Other Forms of Political Violence.
    Political violence has long been a feature of American life. In the 
1970's leftist groups such as the Weather Underground and the Black 
Panthers conducted a number of terrorist attacks. In 1995 two men 
animated by extreme right-wing beliefs conducted what was then the most 
lethal terrorist attack on America soil in Oklahoma City, killing 168 
people. Since 9/11, according to New America's research, in addition to 
the 94 people killed by jihadist terrorists, terrorists motivated by 
extreme right-wing beliefs killed 50 people, while 5 were killed by a 
militant black separatist.
    Since this hearing is about threats to domestic security focusing 
only on jihadist terrorism would miss other threats, particularly in an 
era of increased polarization.
    In November, for instance a story circulated on several websites 
that Hillary Clinton and her campaign manager John Podesta were running 
a child sex ring out the basement of the Comet Ping Pong pizza joint in 
northwest Washington, DC. This patently absurd story prompted 28-year-
old Edgar Welch of Salisbury, North Carolina to travel to Washington to 
``self-investigate.'' On December 5 Welch walked into the popular pizza 
restaurant carrying an assault rifle and started firing shots. He 
pointed the firearm in the direction of a restaurant employee who fled 
and notified police who arrested Welch. Welch told investigators that 
he had come armed to help rescue the children and he also told a 
reporter with masterful understatement ``the intel on this wasn't 100 
percent.''
Weapons of Mass Destruction and Terrorists in the States
    Despite all the hysterical commentary about the issue, in the 
decade-and-a-half since 9/11 jihadist terrorists in the States have not 
developed, acquired, or deployed chemical, biological, radiological, or 
nuclear (CBRN) weapons. This is a striking finding that is worth 
underlining: Of the 399 cases of jihadist terrorism in the States 
examined by New America, not one involved CBRN. Chemical and biological 
weapons and their precursors, however, were either developed or 
deployed over the past decade-and-a-half in the States by 13 far-right 
militants, one leftist militant and two with idiosyncratic motives, 
such as Bruce Ivins who launched the anthrax attacks in Washington and 
New York in the months after 9/11.
 2. do citizens of countries targeted by the proposed temporary travel 
                ban pose a threat to the united states?
    On January 27 President Donald Trump signed an Executive Order 
instituting a temporary travel ban on foreign nationals traveling from 
seven majority-Muslim countries--Iran, Iraq, Libya, Somalia, Sudan, 
Syria, and Yemen. New America has collected data on 399 individuals 
accused of jihadist terrorism-related crimes since 9/11. That research 
shows that of the 94 people killed by jihadist terrorists inside the 
United States since 9/11, not a single death would have been prevented 
by the travel ban. Far from being foreign infiltrators, the large 
majority of jihadist terrorists in the United States are American 
citizens or legal residents. Almost half were born American citizens. 
No deadly attacker since 9/11 emigrated from one of the countries 
listed under the travel ban. Nor did any of the 9/11 hijackers come 
from one of the travel ban countries. Nor did any of the deadly post-9/
11 terrorists come from a family that had emigrated from one of the 
travel ban countries.
    The proposed travel ban is akin to saying that because the United 
States has a significant problem with gangs that have their roots in 
Central America, therefore it should ban travel from Argentina and 
Chile.
    Of the 12 lethal jihadist terrorists in the United States since 9/
11:
  <bullet> Three, Carlos Bledsoe, Alton Nolen, and Ali Muhammad Brown 
        are African-Americans born in the United States, and Bledsoe 
        can trace his family's United States military service back to 
        the Civil War.
  <bullet> Three, Syed Rizwan Farook, Tashfeen Malik, and Naveed Haq 
        are from families that hailed originally from Pakistan. Farook 
        and Haq were born in the United States while Malik entered on a 
        K-1 Spouse Visa and later becoming a legal permanent resident.
  <bullet> One, Nidal Hasan, is from a family that came from the 
        Palestinian Territories and was born in the United States. His 
        parents had immigrated to the United States during the 1960's.
  <bullet> Two, Dzhokhar Tsarnaev and Tamerlan Tsarnaev, came from 
        Russia as children. Dzhokhar became a naturalized citizen while 
        Tamerlan was a permanent resident.
  <bullet> One, Hesham Hadayet, emigrated from Egypt and conducted his 
        attack a decade after coming to the United States. Hadayet was 
        a permanent resident.
  <bullet> One, Mohammed Abdulazeez, was born in Kuwait to Palestinian-
        Jordanian parents and became a naturalized citizen.
  <bullet> One, Omar Mateen, is from an Afghan family and was born in 
        the United States.
    Of 15 individuals who have conducted non-lethal terrorist attacks 
inside the United States since 9/11, only three came from countries 
covered by the travel ban. However, in two of those cases, the 
individual entered the United States as a child.
  <bullet> On March 3, 2006 Mohammed Reza Taheri-Azar, a naturalized 
        citizen from Iran, drove a car into a group of students at the 
        University of North Carolina, injuring nine people. However, 
        Taheri-Azar, though born in Iran, came to the United States at 
        the age of two. As a result his radicalization was home-grown 
        inside the United States.
  <bullet> On September 17, 2016 Dahir Adan, a 20-year-old naturalized 
        citizen from Somalia, injured ten people while wielding a knife 
        at a mall in Minnesota. However, like Taheri-Azar, Adan had 
        come to the United States as a young child.
  <bullet> On November 28, 2016 Abdul Razak Ali, an 18-year-old legal 
        permanent resident who came to the United States as a refugee 
        from Somalia in 2014--having left Somalia for Pakistan in 
        2007--injured 11 people when he rammed a car into a group of 
        his fellow students on the campus of Ohio State University and 
        then attacked them with a knife. However, it is not clear that 
        the attack provides support for Trump's travel ban. Artan left 
        Somalia as a pre-teen, and if he was radicalized abroad, it 
        most likely occurred while in Pakistan, which is not included 
        on the travel ban. Furthermore, it is far from clear that Artan 
        radicalized abroad rather than inside the United States. In a 
        Facebook posting prior to his attack, he cited Anwar al-Awlaki, 
        the Yemeni-American cleric born in the United States, whose 
        work has helped radicalize a wide range of extremists in the 
        United States including those born in the United States.
Syrian refugees settling in the States are not terrorists
    On January 27 President Trump also signed the Executive Order that 
aimed to suspend the entry of Syrian refugees into the United States 
indefinitely. As he signed the order, President Trump said that this 
was ``to keep radical Islamic terrorists out of the United States.'' 
This order will achieve absolutely nothing because there is no evidence 
of terrorists among the Syrian refugees who are settling in the United 
States. That shouldn't be too surprising, because the United States has 
accepted only a minuscule number of Syrian refugees, even though the 
Syrian civil war is one of the worst humanitarian crises since World 
War II and has generated a vast outflow of nearly 5 million refugees 
from Syria. The United States has taken only around 15,000 Syrian 
refugees, amounting to a tiny 0.2 percent of the total number of 
refugees, the large majority of whom are women and children.
    Not only are these Syrian refugees not terrorists, but they are 
fleeing the brutal state terrorism of the Syrian dictator Bashar al-
Assad and the brutal non-state terrorism of ISIS. The Syrian refugees 
entering the states are the victims of terrorism, not the perpetrators 
of terrorism.
    Also, any ISIS terrorist with an ounce of common sense is quite 
unlikely to try to infiltrate the United States as a Syrian refugee. 
Anne Richard, a senior U.S. State Department official, testified at a 
Senate Homeland Security Committee hearing in November 2015 that any 
Syrian refugee trying to get into the United States is scrutinized by 
officials from the National Counterterrorism Center, FBI, Department of 
Homeland Security, State Department and Pentagon. They must also give 
up their biometric data--scans of their retinas, for instance--submit 
their detailed biographic histories and submit to lengthy interviews. 
These refugees are also queried against a number of government data 
bases to see if they might pose a threat--and the whole process takes 2 
years, sometimes more. Leon Rodriguez, the director of U.S. Citizenship 
and Immigration Services, who also testified at the November 2015 
hearing, said that of all the tens of millions of people who are trying 
to get into the United States every year, ``Refugees get the most 
scrutiny and Syrian refugees get the most scrutiny of all.''
    By contrast, Syrian refugees fleeing to Europe do not go through 
anything like the rigorous process experienced by those who are coming 
to the States, and the volume of Syrians fleeing to Europe is orders of 
magnitude larger than it is to the United States.
The Trump administration's own data on anti-Western terror attacks 
        undermines the case for the travel ban.
    Earlier this month with great fanfare the White House released a 
list of 78 terrorist attacks around the world since September 2014. A 
White House official described them as ``major terrorist attacks 
targeting the West.'' The list was released after President Trump's 
claim that the media is not paying enough attention to terrorist 
attacks, a contention that is false. In fact, with a search of the 
Nexis media database I found more than 80,000 stories about the 
purportedly under-covered 78 terrorist attacks, an average of 1,000 
stories per attack.
    The White House's own terrorism list underlines the arbitrary 
nature of the proposed travel ban because, by the White House's own 
account, the countries that are generating the most significant number 
of terrorists threatening the West are from the West. The list also 
underlines the fact that it is American citizens who largely foment 
terrorism in the United States. This is also the case in countries such 
as France and Belgium, where it is French and Belgian citizens who are 
most often the ones conducting significant acts of terrorism.
    Conspicuous by their absence on the White House list of terrorists 
carrying out major attacks against Western targets were Iraqis, 
Somalis, Sudanese, and Yemenis, who are from four of the seven Muslim 
countries that the Trump administration is seeking to suspend travel 
from.
    Of the total of 90 terrorists on the White House list, at most 9 
are from travel ban countries. Indeed, 50 of the terrorists--more than 
half--are from Christian-majority countries in the West. On the list, 
which includes the identities of attackers where they are known, France 
leads the way with 16 French terrorists, followed by the United States 
with 13 American terrorists, 11 of whom are U.S. citizens and two of 
whom are legal permanent residents.
    Of these 29 American and French terrorists, only two even have 
family origins in travel ban countries and they are both from Somalia. 
Belgium comes in third place with seven terrorists.
    In descending order after that are:
  <bullet> Tunisians (6),
  <bullet> Libyans and Bangladeshis are tied with 5,
  <bullet> Saudis (4),
  <bullet> Syrians, Algerians, and Indonesians are tied with 3 each;
  <bullet> Afghans, Australians, Bosnians, Canadians, Danes, Germans, 
        Russians, and Turks are tied with two each, and
  <bullet> One each from Chad, Egypt, the Emirates, Iran, Morocco, the 
        Palestinian Territories, Pakistan, Sweden, and the United 
        Kingdom.
        3. isis-inspired and isis-enabled attacks in the states
Attacks Inspired by ISIS
    In the past 2\1/2\ years, there have been eight ISIS-inspired 
attacks in the United States. The most lethal was in Orlando in June 
2016 when Omar Mateen killed 49 people at a nightclub catering to the 
gay community; it was the deadliest terrorist attack in the States 
since 9/11. In December 2015 a married couple in San Bernardino, 
California attacked an office holiday party and killed 14.
    There have been other ISIS-inspired attacks that were not lethal. 
In the fall of 2014, 32-year-old Zale Thompson attacked police officers 
with a hatchet in New York. Described as an unemployed recluse, 
Thompson is believed to have been inspired by ISIS. In May 2015, gunmen 
inspired by ISIS opened fire at a cartoon contest of the Prophet 
Mohammed held in Garland, Texas. The gunmen, Elton Simpson and Nadir 
Soofi, were killed by police before they could kill anyone. In January 
2016, Edward Archer shot Philadelphia police officer Jesse Hartnett. 
Archer told police, ``I pledge my allegiance to the Islamic State, and 
that's why I did what I did.''
    As mentioned above, on September 17, 2016 Dahir Adan, a 20-year-old 
naturalized citizen from Somalia, injured 10 people while wielding a 
knife at a mall in Minnesota and 2 months later Abdul Razak Ali Artan, 
an 18-year-old legal permanent resident of Somali origin injured 11 
people in an attack at Ohio State. Both attackers were inspired by 
ISIS.
Unstable Individuals Adopted by ISIS
    Unstable individuals will sometimes carry out attacks with only the 
thinnest veneer of jihadist justification and the attack will be 
quickly adopted by ISIS, even though ISIS had no connection to the plot 
at all. In late August 2016, 20-year-old Wasil Farooqui of Roanoke 
County, Virginia--who had reportedly traveled to Turkey in an apparent 
effort to then cross the border and possibly join ISIS in Syria--
allegedly repeatedly stabbed a randomly selected man and woman in 
Roanoke with a knife, yelling ``Allahu Akbar!'' as he did so, severely 
injuring them. The case is complicated by the fact that Farooqui told a 
detective he was hearing voices telling him that he was stupid and to 
attack someone, which raises the issue of the extent to which some 
``ISIS'' attacks are even really ``terrorism'' in any meaningful sense.
    This certainly seems to be the case of 31-year-old Tunisian Mohamed 
Lahouaiej Bouhlel who so frightened his own family with his violent 
personality that he was prescribed antipsychotic drugs when he was a 
teenager. Bouhlel never attended his neighborhood mosque, smoked pot, 
drank heavily, ate pork, chased women, and had had a number of run-ins 
with the law for violence. He also beat his wife who then divorced him. 
Bouhlel was so incensed by his wife leaving him that he defecated in 
their apartment. Bouhlel, in short, was a violent loser who may have 
been on the edge of psychosis.
    During Bastille Day celebrations on July 14, 2016, Bouhlel killed 
84 in Nice, France using a large truck as a weapon. ISIS' overseer of 
operations in the West, Abu Mohammed al-Adnani had called for attacks 
using vehicles as weapons 2 years earlier. After Bouhlel's massacre, 
French Prime Minister Manuel Valls astutely observed that ISIS ``gives 
unstable individuals an ideological kit that allows them to make sense 
of their acts.'' This echoed the conclusions of leading American 
forensic psychologist Reid Meloy, who together with his British 
colleague Jessica Yakeley published a 2014 study of terrorists with no 
connections to formal terrorist organizations.
    Meloy, who works as a consultant with the FBI's behavioral 
analysts, framed the initial stage leading to violence as 
``grievance,'' and his explanation of what that meant is worth quoting 
at length, as it nicely summarizes Bouhlel's rancor. According to 
Meloy, the pathway begins with ``an event or series of events that 
involve loss and often humiliation of the subject, his or her continual 
rumination about the loss, and the blaming of others. Most people with 
grievances eventually grieve their loss, but for those unwilling or 
unable to do so, often the most narcissistically sensitive individuals, 
it is much easier to convert their shame into rage toward the object 
which they believe is the cause of all their suffering. Such intense 
grievances require that individuals take no personal responsibility for 
their failures in life . . . they are `injustice collectors.' ''
    What follows this stage, Meloy explains, is ``moral outrage'': ``He 
embeds his personal grievance in an historical, religious, or political 
cause or event. The suffering of others, which may be misperceived or 
actual, provides emotional fuel for his personal grievance.'' Personal 
grievance and moral outrage are then ``framed by an ideology.'' The 
nature of the ideology is secondary; its function is to allow the 
perpetrator some justification for the violent act he is planning. 
Meloy explained, ``Upon closer examination, these conscious belief 
systems are quite superficial; subjects will cherry pick phrases from 
the relevant authoritative text to justify their desire to kill others 
. . . This framing is absolutist and simplistic, providing a clarity 
that both rationalizes behavior and masks other, more personal 
grievances.''
A Case Study: The Orlando Terrorist
    This is also a good description of how the Orlando terrorist, Omar 
Mateen, took his personal grievances and framed them around the 
ideology of ISIS so that he was no longer the disappointed wannabe cop 
in a dead-end job that he actually was, but by pledging himself to ISIS 
as he carried out his massacre he was now a heroic holy warrior.
    The attack in Orlando fit a grim pattern: Every lethal jihadist 
terrorist attack in the United States in the past decade-and-a-half has 
been carried out by American citizens or legal permanent residents, 
operating either as lone wolves or in pairs, who have no formal 
connections or training from terrorist organizations such as al-Qaeda 
or ISIS. Because 19 Arab, foreign-born terrorists carried out 9/11 many 
Americans may think that terrorist attacks in the United States are 
carried out by foreigners, rather than by United States citizens, but 
Omar Mateen was an American citizen who was born in New York to parents 
who immigrated to the United States from Afghanistan.
    Mateen is similar to other jihadist terrorists in the States since 
9/11. According to research by New America, there have been more than 
350 jihadist terrorism cases in the United States since the 2001 
attacks on the World Trade Center and Pentagon. The militants are 
overwhelmingly American citizens or legal residents; around 84 percent. 
The perpetrators are not the young hotheads of popular imagination. The 
individuals in these cases have an average age of 29, a third are 
married and a third have children. In many ways, they are ordinary 
Americans. Mateen was 29 when he carried out the attack, had been 
married twice and had a 3-year-old son. He was steadily employed as a 
security guard at a local golf resort. He had no criminal convictions, 
and there is no evidence he suffered from mental illness.
    In his case, as in so many others of the 399 Americans charged 
since 9/11 with some act of jihadist terrorism--ranging from material 
support of a terrorist group to murder--the easy explanations--that 
jihadists in the United States are ``mad'' or ``bad''--are not 
supported by the evidence. According to research by New America, the 
rate of mental illness for those Americans who have been charged or 
convicted for some kind of jihadist crime--about 11 percent--is below 
the rate of the general population, while their incarceration rate is 
similar to the incarceration rate of the general population of adult 
males; around 10 percent of American males spend time in prison.
    Even in the cases of the dozen perpetrators who carried out the ten 
lethal jihadist terrorist attacks in the United States since 9/11 only 
three of the terrorists had a history of mental illness; Naveed Azfal 
Haq who killed a woman at the Jewish Federation building in Seattle in 
2006 and Muhammad Youssef Abdulazeez who killed four Marines and a 
sailor at two military installations in Chattanooga, Tennessee in 2015. 
In August 2016, a judge ruled that Alton Nolen, who beheaded a coworker 
in Oklahoma in September 2014, was not competent to plead guilty after 
hearing testimony from mental health experts.
    Of course, killing strangers in the service of jihadist ideology 
isn't ``normal,'' but the large majority of the 12 jihadist terrorists 
in the States since 9/11 who have carried out lethal attacks were not 
suffering from a mental illness when they carried out their assaults. 
The National Institute of Mental Health says that around one in five 
Americans have some kind of mental illness in any given year. The 
sample size of 12 lethal jihadist terrorists in the States since 9/11 
is a very small one, but their rate of mental illness--one in five--is 
that of the general population. (By contrast, a 2013 study of 119 
individuals who carried out or planned to carry out acts of lone-actor 
terrorism either in the United States or in Europe since 1990--
motivated by a wide range of political beliefs including jihadism, neo-
Nazism, anti-government extremism and those with idiosyncratic 
ideologies--found that a third had a history of mental illness or 
personality disorders.)
    For the book United States of Jihad: Investigating America's 
Homegrown Terrorists, I reviewed court records in hundreds of terrorism 
cases and spoke to family members and friends of terrorists, as well as 
to some of the militants themselves. I found that American jihadists 
are generally motivated by a mix of factors, including dislike of 
United States foreign policy in the Muslim world; a ``cognitive 
opening'' to militant Islam, often precipitated by a personal 
disappointment or loss; and the desire to attach themselves to an 
ideology or organization that could give them a sense of purpose. For 
many, embracing the ideology of Osama bin Laden or ISIS allowed them to 
become the heroes of their own story as well as actors in a cosmic 
crusade.
    For each individual terrorist the proportion of these motivations 
varied. For instance, Tamerlan Tsarnaev, the older of the two brothers 
who carried out the Boston Marathon bombing in 2013, was a non-
practicing Muslim who became an Islamist militant once his dreams of 
becoming an Olympic boxer faded. At the time of the attack, he was 
unemployed. For him, bombing the marathon seemed to allow him to become 
the heroic figure that he believed himself to be. On the other hand, 
his younger brother, Dzhokhar, never seemed to embrace militant Islam. 
He smoked marijuana, drank and chased girls--hardly the actions of a 
Muslim fundamentalist. Dzhokhar Tsarnaev's motivations for the bombings 
were instead largely molded by his older brother, whom he admired and 
feared, and by his own half-baked opposition to American foreign 
policy.
    Nidal Hasan, the Army major, who killed 13 people at Fort Hood, 
Tex., in 2009, seemed to be more of an ideologue. He was a highly 
observant Muslim who objected to American foreign policy. But according 
to Nader Hasan, a first cousin who had grown up with him, the massacre 
at Fort Hood was also motivated by Nidal Hasan's personal problems. He 
was unmarried, his parents were dead, he had no real friends and a 
dreaded deployment to Afghanistan loomed. ``He went postal,'' Nader 
Hasan explained, ``and he called it Islam.''
    These stories underline how hard it is to satisfactorily answer the 
question of why terrorists commit heinous crimes. Human motivations are 
complex. As the philosopher Immanuel Kant observed, ``From the crooked 
timber of humanity not a straight thing was ever made.'' It's a useful 
reminder that human beings, including terrorists, often defy neat 
categorization.
    Omar Mateen's motivations, too, seem to have been multi-layered, 
and will probably never be fully explicable. Mateen himself offered one 
inspiration: ISIS. In a 
9-1-1 call he made from the nightclub as he was carrying out his 
massacre, Mateen pledged himself to ISIS leader Abu Bakr al-Baghdadi. 
Yet a more complex stew of personal traits, resentments, and obsessions 
also propelled him toward violence. As a child Mateen was angry and 
disruptive in class, and at age 14 he was expelled from high school for 
fighting. On the morning of the 9/11 attacks, Mateen told classmates 
that Osama bin Laden was his uncle.
    As an adult, relatives say Mateen expressed homophobic views, while 
coworkers remember that he claimed to have connections to both al-Qaeda 
and Hezbollah, groups that are at war with each other. His first wife 
says he was abusive and couldn't control his temper, while there are 
suggestions that he might have been confused about his sexual identity. 
Mateen's reported use of gay dating apps and visits to the Pulse 
nightclub in the months before the attack make this a tempting central 
narrative--self-loathing for his own homosexuality turned violent--but 
these behaviors are also consistent with the careful planning of 
predatory murderers. In the weeks after the massacre FBI investigators 
concluded that there was no evidence Mateen had had a gay relationship.
    Mateen was certainly, however, a man whose dreams had faded. He 
desperately wanted to be a cop and took selfies wearing New York Police 
Department shirts, but he was dismissed from a Florida police-training 
academy in 2007 because he threatened to bring a gun to campus and was 
falling asleep in class. Eight years later, in 2015, Mateen tried once 
again to become a police officer, applying to the police academy at 
Indian River State College in Fort Pierce. He was turned down because 
he admitted to using marijuana in the past and also because of what the 
college termed ``discrepancies'' in his application form.
    Mateen's grievances festered. Three weeks before his attack, one of 
the leaders of ISIS publicly urged that sympathizers of the group 
should carry out attacks in the West during the coming holy month of 
Ramadan. By following this directive, carrying out an attack as a self-
styled ``Islamic fighter'' pledging allegiance to ISIS, Mateen was 
finally the heroic holy warrior that he believed himself to be. A day 
after the massacre ISIS's official radio station, Al-Bayan, claimed him 
as one of the ``soldiers of the caliphate in America.'' But Mateen's 
connection to ISIS was only aspirational; he wasn't trained, directed, 
or financed by the group. Instead he was, like every other jihadist in 
the States since 9/11 that has carried out a lethal attack, operating 
as a self-radicalized ``lone wolf.''
Attacks Enabled by ISIS
    Militants inspired by ISIS can reach out directly to members of 
ISIS in Syria over encrypted social media platforms seeking some kind 
of specific directions for an attack. This creates a ``blended'' plot 
that is both inspired and directed by ISIS. In FBI terminology this is 
an ``enabled'' ISIS attack. We already saw a harbinger of this in May 
2015 when one of the two ISIS-inspired American militants who attacked 
the Prophet Mohammed cartoon contest in Garland, Texas, sent more than 
100 encrypted messages to a terrorist overseas, according to the FBI.
                  4. who are isis' american recruits?
    There are 117 individuals in the United States that New America has 
identified in public records or news accounts that have tried to join 
militant groups in Syria such as ISIS or the al-Qaeda affiliated Nusra 
Front, or have succeeded in joining such groups, or have helped others 
to join such groups.
    They hail from across the United States and from a wide range of 
ethnic groups, which underscores the difficulty that law enforcement 
has in tracking them. They are relatively young; some are even 
teenagers. Given the fact that groups like ISIS have scant roles for 
women outside the home, women are surprisingly well-represented. These 
militants are also quite active on social media. This is something of a 
boon for law enforcement, as many of these militants are prolific 
posters on publicly available social media, which it is perfectly legal 
for the FBI and police departments to monitor.
    The 117 are residents of 23 States: Alabama, Arizona, California, 
Colorado, Florida, Georgia, Illinois, Maine, Massachusetts, Michigan, 
Minnesota, Mississippi, Missouri, New Jersey, New York, North Carolina, 
Ohio, Pennsylvania, South Carolina, Texas, Virginia, Washington, and 
Wisconsin. There is no single ethnic profile for these militants: They 
are white, African-American, Somali-American, Vietnamese-American, 
Bosnian-American and Arab-American, among other ethnicities and 
nationalities.
    An unprecedented number of American women are involved in the 
Syrian jihad compared to other such jihads in the past. One in nine of 
the 117 Americans involved in Syria-related militant activity are 
women. Women were rarely present, if at all, among jihadists in 
previous ``holy wars''--in Afghanistan against the Soviets in the 
1980's, in Bosnia against the Serbs in the 1990's, and the initial 
insurgency in Iraq against the United States-led occupation more than a 
decade ago.
    They're relatively young. Almost a fifth are teenagers--including 
six teenage girls, the youngest of whom is 15. New America found that 
the average age of the militants is 25.
    The only profile that ties together American militants drawn to the 
Syrian conflict is that they are active in on-line jihadist circles. 
Eighty-eight of the 117 individuals showed a pattern of often 
downloading and sharing jihadist propaganda on-line and, in a smaller 
number of cases, carrying on on-line conversations with militants 
abroad. Militants in the United States today become radicalized after 
reading and interacting with propaganda on-line and many have little or 
no physical interaction with other extremists.
    Social media has dramatically accelerated this trend. Of the 117 
individual cases that New America examined, there were no clear cases 
of physical recruitment by a militant operative, radical cleric, or 
returning fighter from Syria. Instead, people self-recruited on-line or 
were sometimes in touch via Twitter with members of ISIS they had never 
met in person.
    A representative case is that of 19-year-old Mohammed Hamzah Khan 
of suburban Chicago. In the late summer of 2014, he purchased three 
airline tickets for flights from Chicago to Istanbul for himself and 
his 17-year-old sister and 16-year-old brother (who have not been named 
publicly because they were minors). Khan had met someone on-line who 
had provided him with the number of a contact to call once he had 
landed in Istanbul who would help to get him and his siblings to the 
Turkish-Syrian border, and from there on to a region occupied by ISIS. 
Khan planned to serve in the group's police force. Before leaving, Khan 
wrote a 3-page letter to his parents explaining why he was leaving 
Chicago to join ISIS. He told them that ISIS had established the 
perfect Islamic State and that he felt obligated to ``migrate'' there.
    According to prosecutors, the three teenagers planned to meet up in 
Turkey with a shadowy ISIS recruiter they had met on-line, known as Abu 
Qa'qa, and travel with him, most likely to ISIS headquarters in Raqqa, 
Syria. They didn't make it. FBI agents arrested Khan and his two 
siblings at O'Hare Airport in October 2014.
    There is no evidence that Khan planned to commit any act of 
terrorism in the United States or elsewhere, and he failed in his goal 
of reaching ISIS, but he faced up to 15 years in prison for attempting 
to provide ``material support'' to ISIS in the form of his own 
potential ``services.'' He has pled guilty and Federal prosecutors have 
argued for a 5-year sentence in which he must continue to cooperate 
with them.
How Does ISIS Crowd Source Jihad in the States?
    As FBI director James Comey noted when referring to the 2013 arrest 
of Terry Loewen, who was accused of plotting an attack on the Wichita 
airport in Kansas, ``We have made it so hard for people to get into 
this country, bad guys, but they can enter as a photon and radicalize 
somebody in Wichita, Kansas.'' The ``photon'' Comey was talking about 
was, of course, the internet. The only profile that tied together 
American militants drawn to the Syrian conflict is that they were 
active in on-line jihadist circles. More than three-quarters were 
posters of jihadist material on Twitter or Facebook, or were in direct 
contact with ISIS recruiters over social media.
    This raises the question of how we should conceptualize lone wolves 
in the age of social media. A militant radicalizing in front of his or 
her computer by himself at home is now not really alone. He/she is 
swimming in a virtual sea of jihadist recruiters, cheerleaders, and 
fellow travelers who are available for interaction with him or her 24/
7. Contrast this with a classic lone-wolf American terrorist of the 
past such as the Unabomber, Ted Kaczynski, who mailed his targets more 
than a dozen bombs between the late 1970's and the mid-1990's that 
killed three people and injured some two dozen others, all in service 
of his obscure, Luddite beliefs. Kaczynski did this entirely by himself 
while living like a hermit in a remote cabin in Montana with--forget 
the internet--no electricity.
    Today's lone wolf is instead plugged into a vast self-referential 
and interactive ecosystem where he or she can virtually, instantly find 
thousands of other people around the world who share his or her 
beliefs. Take the case of Alex, a 23-year-old sometime Sunday school 
teacher living in a remote part of Washington State who converted to 
Islam. In 2015 multiple members and fans of ISIS spent thousands of 
hours on-line with her, promising that they would find her a suitable 
husband and even sending her gifts of chocolate and books about Islam. 
The three teenage Khan siblings from Chicago were in regular contact 
with virtual recruiters in Turkey and Syria and militants in the United 
Kingdom before attempting their emigration to the caliphate in 2014. In 
the useful formulation of the Israeli counterterrorism expert Gabriel 
Weimann, the lone wolf is now part of a virtual pack.
    No amount of fiddling with visa regimes will alter the central fact 
that today's jihadist terrorists in the United States are largely 
radicalized on-line while they are living in the States. A travel ban 
is not going to stop the internet.
The Continuing Influence of Anwar al-Awlaki
    Lost in the intense coverage of the ISIS-inspired threat in the 
States is the continuing influence of the American-born cleric Anwar 
al-Awlaki whose sermons and writings about the importance of jihad have 
appeared in 98 jihadist terrorism cases since 9/11, according to New 
America's research. Awlaki was killed in a drone strike in Yemen in 
2011, but killing the man turned out to be easier than killing his 
ideas; Since his death Awlaki's writings and videos have turned up in 
58 terrorism cases in the United States.
                           5. isis in retreat
    ISIS has lost just under half the territory it once controlled in 
Iraq and around a fifth of what it had controlled in Syria. In the past 
year ISIS has lost the key Iraqi cities of Baiji, Fallujah, Ramadi and 
Tikrit, as well as Palmyra in Syria. In August 2016 ISIS lost the city 
of Manbij, in northern Syria, a significant victory because it controls 
key routes to ISIS' de facto Syrian capital, Raqqa. ISIS fighters 
disobeyed orders to fight to the death to hold Manbij and fled. The 
same month the Turkish army crossed the border and seized the Syrian 
city of Jarablus.
    In August 2016 Lt. Gen. Sean MacFarland, who was leading the anti-
ISIS campaign at the time, said 45,000 ISIS fighters had been killed so 
far by the U.S.-led coalition. ``We estimate that over the past 11 
months, we've killed about 25,000 enemy fighters. When you add that to 
the 20,000 estimated killed (previously), that's 45,000 enemy 
(fighters) taken off the battlefield.''
    That's an astonishing amount of attrition for a force MacFarland 
estimates had a remaining strength of 15,000 to 30,000 fighters.
    United States intelligence estimates the U.S.-led coalition has 
also killed at least 135 of ISIS leaders and significant officials, 
including in late August Mohammad al-Adnani, who oversaw the group's 
terrorist operations in the West. The United States military has also 
stepped up the air campaign against ISIS' wealth, for instance, bombing 
a bank in Iraq in January 2016 in which ISIS had stored millions in 
cash. United States bombers have also repeatedly struck trucks carrying 
oil that ISIS has extracted from oil fields in the shrinking area it 
now controls. These attacks on ISIS' cash supply and revenue streams 
have had real effects on ISIS' bottom line. ISIS has had to halve the 
salaries of its foot soldiers, according to documents that leaked from 
the terrorist army in 2016.
    These massive losses of territory and income have had a very 
damaging effect on ISIS' central claims; that it has created a real 
caliphate that controls large amounts of territory and that it 
functions like a normal state. As the caliphate withers so too does its 
appeal to ``foreign fighters'' from around the Muslim world. This is a 
key to undermining ISIS as the foreign fighters are often the most 
ideological of the organization's cadre and, as the coalition continues 
to kill on average 2,000 ISIS fighters a month, the terrorist army is 
finding it harder and harder to replenish its ranks, an indicator of 
which is that it is increasingly resorting to using children as suicide 
attackers. In April 2016 the Pentagon said that the flow of foreign 
fighters joining ISIS had dropped from roughly 1,500 a month down to 
200 within the past year.
    Meanwhile, the flow of Americans going to join ISIS or attempting 
to do so has slowed to a trickle from an average of six to one a month, 
according to U.S. intelligence estimates. Balanced against all this, of 
course, is the fact that the terrorist group has launched attacks or 
inspired them in places as disparate as Baghdad, Brussels, Istanbul, 
Kabul, Nice, Orlando, and Paris in the past year-and-a-half. The 
terrorism research group, IntelCenter, also counts 43 ISIS affiliates 
of various kinds around the world. Some have declared their ``support'' 
for ISIS, while others have declared their ``allegiance.'' Some of 
these affiliates may have simply slapped on the ISIS patch, but others 
clearly have some real connection with the ISIS core, such as the ISIS 
affiliate in Libya, which is the affiliate that is most tightly bound 
to the ISIS core.
    That said, ISIS core continues to suffer reverse after reverse on 
the battlefield, while ISIS in Libya has suffered similar battlefield 
reverses to that of ISIS' core, losing control of the key coastal city 
of Sirte in Libya in August 2016, which had served as the group's key 
hub in Libya.
The Continued Resilience of al-Qaeda
    A decade-and-a-half after 9/11 al-Qaeda has shown surprising 
resiliency despite the heavy losses it has sustained, including of its 
founder Osama bin Laden as we all as dozens of other al-Qaeda leaders 
killed in CIA drones strikes in Pakistan and Yemen. While al-Qaeda has 
shown scant ability to attack in the West--the last successful 
terrorist attack it directed in the West was the suicide bombings on 
London's transportation system in 2005 that killed more than 50 
commuters--its regional affiliates remain quite capable of sustained 
attacks in their respective regions. Al-Qaeda in the Indian 
Subcontinent, al-Qaeda in the Arabian Peninsula, and al-Qaeda in the 
Islamic Maghreb all retain capacity for sustained local attacks. 
Meanwhile the Nusra Front, al-Qaeda's capable Syrian affiliate, claimed 
in July 2016 that it was separating from al-Qaeda. Then-Director of 
National Intelligence, James Clapper, said that Nusra likely announced 
its divorce from al-Qaeda's core for tactical reasons and the split was 
only cosmetic in nature.
    Al-Qaeda is grooming one of bin Laden's sons, Hamza, to be a next 
generation leader of the group. Hamza, in his mid-20's, has long been 
an al-Qaeda true believer. He has appeared in a number of videos and 
audio messages that were released by al-Qaeda in the past year or so.
    Omar Abdel-Rahman, the Egyptian cleric who inspired terrorist plots 
in New York during the early 1990's and who died in an American prison 
last week, was also the spiritual guide of key 9/11 plotters. Rahman's 
death in an American jail will almost certainly spark calls from al-
Qaeda's current leader, Ayman al-Zawahiri, for further anti-American 
attacks.
                   6. the drivers of global jihadism
    At the macro level, ISIS is not itself the problem--though it 
certainly amplifies existing problems--but rather is the symptom of 
five major problems that are driving jihadist terrorism around the 
globe and will continue to do so even when ISIS is largely defeated.
    1. The regional civil war in the Middle East between the Sunni and 
        the Shia that engulfed first Iraq, then Syria, and now Yemen.--
        That regional civil war is being driven by a variety of factors 
        including the failure of the largely Shia Iraqi government to 
        give Sunnis a real place at the table and the brutal civil war 
        that the Syrian dictator Bashar al-Assad is waging on his 
        largely Sunni population. Also in the mix is the role that Iran 
        and the Gulf States have played in fighting each other in Syria 
        through proxy forces such as the Sunni militant groups that are 
        supported by the Gulf States and the Shia militias that are 
        supported by Iran.
    This regional sectarian war was amplified by Saudi Arabia's 
        invasion of Yemen in the spring of 2015 to fight what they 
        believe to be Iranian-backed Houthis who had recently seized 
        control of the Yemeni capital.
    The civil war across the Middle East between the Shia and the Sunni 
        empowers groups like ISIS and al-Qaeda who claim to be the 
        defenders of Sunni rights against Shia attack. Until there is 
        real political accommodation between the Sunnis and the Shia in 
        countries such as Iraq, Syria, and Yemen and some kind of 
        rapprochement between the mortal enemies of Iran and Saudi 
        Arabia, these sectarian wars will grind on. Don't, however, 
        expect such an accommodation in the short- or medium-term. The 
        Syrian civil war is already in its sixth year and the principal 
        players in the conflict both inside Syria and outside of the 
        country show no sign of setting up a real peace process.
    2. The collapse of Arab governance around the region.--Think of 
        ISIS as a pathogen that preys on weak hosts in the Muslim 
        world. In fact, there is something of a political law: The 
        weaker a Muslim state, the stronger will be the presence of 
        ISIS or like-minded groups. So, in Iraq, Libya, Syria, and 
        Yemen--countries that are completely failed states or are 
        largely failing states--the presence of these groups is strong. 
        In Muslim countries with somewhat competent governments such as 
        Indonesia, the presence of these groups is relatively small.
    3. Unprecedented waves of immigration to Europe from the Muslim 
        world.--Germany alone has taken more than a million refugees 
        and asylum seekers. European countries simply do not have the 
        ideological framework the United States has in the shape of the 
        ``American Dream'' that has helped to absorb successfully wave 
        after wave of immigration to the States, including Muslim 
        Americans who are well integrated into American society. There 
        is no analogous French dream or German dream.
    4. The rise of European ultranationalist and protofascist parties, 
        a problem amplified by the massive immigration from Muslim 
        countries into Europe.--These parties define themselves as 
        deeply opposed to immigrants and are ultranationalist in 
        flavor. They once played a very marginal role in European 
        politics, but now these parties are now doing well in Austria, 
        France, Hungary, Poland, and Switzerland. The rise of these 
        parties is reflective of the rising anti-immigrant sentiment in 
        many European societies that in turn amplifies the feelings of 
        alienation that many Muslims feel in Europe.
    5. The marginalization of Muslims in Europe who often live separate 
        and unequal lives.--An indication of how marginalized European 
        Muslims are is provided by the following bleak statistics: The 
        proportion of the French prison population that is Muslim is 
        estimated to be around 60 percent, yet Muslims only account for 
        about 8 percent of France's total population. In Belgian 
        prisons there is a similar story: 30 percent of the prison 
        population is Muslim, yet Muslims only make up 6 percent of the 
        overall population. It's therefore not surprising that French 
        and Belgian prisons have proven to be universities of jihad. 
        The members of the ISIS cell responsible for the attacks in 
        Paris in November that killed 130 and the attacks in March 2016 
        in Brussels, Belgium, at the airport and on the subway system 
        that killed 32, bonded through criminal activities or in 
        prison. Abdelhamid Abaaoud and Salah Abdeslam, the cell's 
        masterminds, were childhood friends who grew up in the Brussels 
        neighborhood of Molenbeek. In 2010, the men were arrested and 
        spent time in the same prison. Ibrahim Abdeslam, Salah's 
        brother, also spent time in prison with Abaaoud. He would go on 
        to be one of the terrorists in the November Paris attacks. 
        Khalid and Ibrahim El Bakraoui, both suicide bombers in the 
        Brussels attacks, had served lengthy prison sentences for armed 
        robbery and assault on police.
    Muslim citizens in France are 2\1/2\ times less likely to be called 
for a job interview than a similar Christian candidate, according to 
researchers at Stanford University. Many French Muslims live in grim 
banlieues, the suburbs of large French cities (similar to housing 
projects in the United States), where they find themselves largely 
divorced from mainstream French society. According to the 
Renseignements Generaux, a police agency that monitors militants in 
France, half the neighborhoods with a high Muslim population are 
isolated from French social and political life. The French term for 
these neighborhoods is equivalent to ``sensitive urban zones,'' where 
youth unemployment can be as high as 45 percent.
    None of these five problems is easily solvable and they feed into 
ISIS' narrative that Muslims are under attack by the West and also by 
the Shia as well as by any Muslim who doesn't share their extremist 
ideology. If these problems cannot be ameliorated--and in the short 
term many of them will not be ameliorated--the West will be confronted 
by a son of ISIS and, down the line, a grandson of ISIS.
                    7. emerging trends in terrorism
1. Terrorists Merging with Media
    In 1985, British Prime Minister Margaret Thatcher spoke about 
terrorism at the annual convention of the American Bar Association. 
Following a recent high-profile hijacking of a TWA passenger plane 
forced to land in Beirut that had received lavish media coverage, 
Thatcher urged that news organizations ``must try to find ways to 
starve the terrorist and the hijacker of the oxygen of publicity on 
which they depend.''
    It's a dilemma that news organizations have grappled with for many 
decades since. Terrorist attacks are, of course, news, but terrorists 
also depend on ``the oxygen of publicity'' provided by the media to 
spread accounts of their violence. But what happens when today's 
terrorists are the media? In the past, terrorists had to rely on the 
media to get their messages out, but now they can completely control 
their own message, from making their own content to ensuring its 
widespread distribution.
    In a new twist of the past 3 years, ISIS and other jihadist 
militants are also now reporting on their own bloody work in real time. 
Consider that ISIS produces lavish TV productions, filmed 
professionally in high definition--of everything from its murder of 
civilians, to profiles of its heroic fighters, to the supposedly 
idyllic life that can be lived under its purportedly utopian rule. The 
group also has its own de facto news agency, Amaq, that credibly 
reports on ISIS' own atrocities. ISIS also publishes multiple webzines 
in English, French, Russian, and Turkish. Most strikingly, terrorist 
organizations and their supporters maintain many tens of thousands of 
accounts on social media platforms, including Twitter and Facebook, 
which they use to further propagate the ISIS message. More and more, 
those accounts are documenting and broadcasting terrorist violence, as 
it plays out live.
    When ISIS militants took hostages at the upscale cafe in Dhaka, 
Bangladesh in June 2016 and killed 20 mostly non-Muslim foreigners, at 
the same time they also sent images of their victims lying in pools of 
blood to the ISIS new agency, Amaq, which posted them for the world to 
see. Similarly, the same month Larossi Abballa, an ISIS-inspired 
militant, killed a police official and his partner outside of Paris. 
Immediately after the murders, Abballa videotaped himself live on 
Facebook declaring his allegiance to ISIS. While Abballa was taping 
this statement, near him was the couple's terrified 3-year-old son.
    Meanwhile, pledging allegiance to ISIS on Facebook after a 
murderous attack has now become almost routine for terrorists in the 
West. Omar Mateen, the terrorist in Orlando who killed 49 at a gay 
nightclub, pledged his allegiance to ISIS on Facebook as he carried out 
his attack. So, too, did the terrorists in San Bernardino in December 
who killed 14 attending an office holiday party.
    One of the big ideas of modern terrorism, from the Munich Olympics 
of 1972 during which Palestinian terrorists kidnapped Israeli athletes 
to 9/11, has been to use wide-spread TV coverage of violent acts to 
propagate and advance the political ideas of the militants. Today, 
terrorists bypass traditional media entirely and they now act 
simultaneously as the protagonists, producers, and propagators of their 
acts of nihilistic violence.
2. Terrorist Groups with Armed Drones
    Hezbollah, the militant Shiite group that is headquartered in 
Lebanon, armed drones, combined with fire from Hezbollah ground troops, 
killed 23 Nusra militants and wounded some 10 others, according to a 
report by an Iranian news agency.
    Iran is the key sponsor for Hezbollah and has plausibly claimed for 
the past several years to manufacture armed drones. Hezbollah's use of 
drones marks a milestone for terrorist groups world-wide: It would be 
the first time a group other than a nation-state used armed drones 
successfully to carry out an attack, marking an important step toward 
closing the gap between the drone capabilities of countries such as the 
United States and militant groups such as Hezbollah. After all, it was 
only in the months immediately after 9/11 that the United States 
mastered the technology of arming drones and began to use them in 
combat. In August 2016 Hezbollah also released video on-line showing 
what appears to be a commercial drone dropping small bombs on rebel 
positions in Aleppo, Syria.
    Previously, drones were used by militant groups only for 
surveillance purposes. In August 2014 ISIS uploaded a video to YouTube 
that showed aerial views of Syrian Army Military Base 93 in Raqqa 
province in northern Syria that had been shot by a drone. In the past 
year ISIS has used small armed drones for combat missions.
    ISIS use of armed drones shows how warfare is changing: The 
monopoly of states on the use of military force is eroding, and new 
technology is leveling the playing field between states and militant 
groups. So what can the United States and other nations do to protect 
themselves from this dawning threat? Most armed drones are relatively 
easy to shoot down if you have sophisticated air defenses or a fleet of 
jet fighter aircraft. Western countries generally have these, but one 
can imagine a dystopian future where terrorist groups are able to 
deploy armed drones against less well-defended targets.
    This may be particularly a problem for U.S. embassies, which are 
well-defended against vehicle-borne bombs, but not against armed 
drones.
3. The Insider Threat at Airports
    The bomb smuggled aboard the Metrojet flight that killed 224 by an 
ISIS-recruited insider at Sharm el-Sheikh airport in Sinai in October 
2015 raised the question: Could such an insider attack happen in the 
West? Short answer: It isn't out of the question.
    Five American citizens involved in serious terrorist crimes since 
9/11 have worked at major United States airports in a variety of 
capacities. They were recruited by variously ISIS; al-Shabaab; a 
virulent ``home-grown'' jihadist cell based in California; and another 
such group in New York City.
    In the years after 9/11, Kevin Lamar James was jailed in 
California's Folsom prison where he formed a group that he conceived of 
as ``al-Qaeda in America.'' James recruited others to help him with his 
plans. One of them was 21-year-old Gregory Vernon Patterson who had 
recently worked at a duty-free shop at Los Angeles International 
Airport (LAX). James thought that Patterson's inside knowledge of LAX 
would be helpful for his plans and when he made a list of potential 
targets in California, James listed LAX. James' crew planned to attack 
around the fourth anniversary of 9/11. They financed their activities 
by sticking up gas stations and their plans only came to light during 
the course of a routine investigation of a gas station robbery by 
police in Torrance, California, who found documents that laid out the 
group's plans for jihadist mayhem. Members of the California cell are 
now serving long prison terms.
    On October 29, 2008, Shirwa Ahmed became one of the first Americans 
ever to conduct a suicide attack anywhere in the world when he was 
recruited by al-Shabaab to drive a truck loaded with explosives into a 
government building in Somalia, blowing himself up and killing 20 other 
people. Ahmed graduated from high school in Minneapolis in 2003 and 
then worked at the Minneapolis airport pushing passengers in 
wheelchairs; it was during this period that he became increasingly 
religious and was recruited by al-Shabaab. Abdisalan Hussein Ali became 
a suicide bomber for al-Shabaab in Somalia in 2011 and had also worked 
at the Minneapolis airport, in a Caribou coffee shop. Similarly, 
Abdirahmaan Muhumed, who was killed in 2014 while fighting for ISIS in 
Syria, had worked at the Minneapolis airport, where he had a security 
clearance that gave him access to the tarmac and to planes.
    The problem of militants working at airports and airlines is not 
peculiar only to the States. In the past decade, British citizens 
working at Heathrow and at British Airways have conspired with members 
of al-Qaeda. In the United Kingdom, British Airways IT expert Rajib 
Karim, 31, conspired with al-Qaeda's affiliate in Yemen to place a bomb 
on a United States-bound plane. In 2010, one of the leaders of al-
Qaeda's Yemeni affiliate, Anwar al-Awlaki, wrote an email to Karim 
asking ``Is it possible to get a package or a person with a package on-
board a flight heading to the US?'' Karim replied: ``I do not know much 
about US I can work with the bros to find out the possibilities of 
shipping a package to a US-bound plane.'' Karim had applied for cabin-
crew training before he was arrested and was sentenced to 30 years in 
2011. In 2006, an employee at a shop in Heathrow working on the 
``airside'' post-security section of the airport provided advice about 
the security conditions to self-proclaimed al-Qaeda terrorist Sohail 
Qureshi, who was convicted of multiple terrorism charges.
    Then-Department of Homeland Security Secretary Jeh Johnson 
announced in June 2015 that he was implementing new measures to 
``address the potential insider threat'' by mandating biannual 
background checks for workers at United States airports, while also 
requiring airports to reduce the number of access points to secured 
areas and to increase randomized screening of airport employees.
    These are welcome developments, but the real vulnerabilities exist 
in some of the 103 countries that send direct flights to the United 
States.
4. Bleed out of ISIS ``Foreign Fighters'' from Syria
    The likely defeat of ISIS on the battlefield raises the question: 
What to do about ISIS foreign fighters who survive? Thousands of 
foreign fighters may melt from the battlefield. Since we know from 
other jihads that these foreign fighters are the likely terrorists of 
tomorrow, Western governments as well as Arab and North African 
governments must think through what they plan to do to track these 
fighters and prevent them from carrying out attacks.
                          8. what can be done?
    There seems to be some conceptual confusion in the U.S. Government 
about what ``Countering Violent Extremism'' programs are attempting to 
do: Is it counter-radicalization? Or is it counter-recruitment? 
Counter-radicalization-turning many millions of Muslims around the 
world away from radical ideas--seems both a nebulous mission and one 
that may not be achievable. A far more specific task is trying to stop 
the relatively small number of Muslims who are trying to join ISIS or 
sign up for its ideology from doing so. From an American National 
security perspective that is, after all, what we all want to prevent.
    Here are 16 things that can be done, and one measure that should 
not be taken.
1. Enlist rather than alienate the Muslim community
    The terrorist attacks in San Bernardino and Orlando touched off a 
furious political debate about how best to safeguard Americans, 
featuring such solutions as shutting off Muslim immigration, but that 
would not do much to deal with the threat because lethal attacks by 
jihadist terrorists in the States since 9/11 have been conducted 
largely by American citizens.
    In fact, the real lessons learned should come from the law 
enforcement agencies that have studied jihadist terrorists in depth. A 
very telling indicator of future violence by a terrorist, FBI 
behavioral analysts have found, is what they term ``leakage.'' Leakage 
was first identified by the FBI in 1999 in the context of school 
shootings, emerging from the observation that a student who was going 
to do something violent had often intentionally or unintentionally 
revealed something significant about the impending act, anything from 
confiding in a friend to making ominous ``they'll be sorry'' remarks. 
Leakage is, in short, when a violent perpetrator signals to people in 
his circle that he is planning an act of violence.
    What was true of school shootings turned out to be true for 
terrorist crimes as well. In an on-going study of some 80 terrorism 
cases in the States since 2009, the FBI found that ``leakage'' happened 
more than 80 percent of the time. Those to whom information was leaked, 
termed ``bystanders,'' were broken down by the FBI into peers, family 
members, authority figures, and strangers. FBI analysts found an 
average of three bystanders per case, and in one case as many as 14. 
Some ``bystanders'' saw radicalization behavior.
    Others saw actual plotting and planning, such as the accumulation 
of weapons, self-educating about how to make explosives, or 
preparations to travel overseas for terrorist training.
    FBI analysts were dismayed by how common it was for bystanders to 
know that a radicalized individual was up to something yet failed to 
tip off the authorities. Analysts graphed out the bystanders who were 
most likely to come forward with information versus those least likely 
to do so. Peers were aware of the most concerning information, but they 
were the least likely to volunteer it. Family members were often aware 
of both radicalization and planning, but they came forward less often 
than authority figures such as college professors, supervisors, 
military commanders, or clerics. These figures were reasonably likely 
to offer information but were more aware of a suspect's radical 
sympathies than of any actual plotting.
    Strangers were the most likely to come forward, which could be 
helpful. A tip from a clerk at a New Jersey Circuit City--who in 2005 
was asked to make copies of a videotape on which he saw men shooting 
off weapons and shouting ``Allahu Akbar!''--developed into the case in 
which a group of six men were convicted for plotting an attack to kill 
soldiers at the Fort Dix, New Jersey, army base. However, strangers 
made up only 5 percent of the bystanders with useful information about 
a suspect.
    The importance of the information that a peer can have was 
underlined by the terrorist attack in San Bernardino in which 14 people 
were killed by the married couple, Syed Rizwan Farook and Tashfeen 
Malik. Farook's friend, Enrique Marquez provided the two semiautomatic 
rifles that Farook and his wife used in the massacre. Marquez also knew 
that Farook was planning to carry out some kind of terrorist attack as 
early as 2011. Marquez pled guilty earlier this month to a variety of 
Federal crimes.
    The lesson of the FBI study of terrorism cases is that the most 
useful information comes from peers and family members. That's why 
community outreach to Muslim communities to enlist their help in 
detecting those who may be becoming militant is the most fruitful 
approach to dealing with the scourge of terrorism. This is the opposite 
approach from painting all Muslim immigrants as potential terrorists.
2. Either through electronic warfare or other means, take out ISIS' 
        propaganda production facilities in the Middle East
    ISIS announced its involvement in the attack in June at the cafe in 
Dhaka, Bangladesh, that killed 20 through Amaq, which is effectively 
ISIS' news agency. Why does Amaq continue to exist? Also, ISIS 
continues to pump out on-line videos, audios, and webzines. These 
require crude production facilities of some kind. These, too, should be 
eliminated. (Of course, some will argue that there is some intelligence 
value derived from having ISIS propaganda facilities continuing to 
function, but surely that is outweighed by the value of the larger 
enterprise of eliminating ISIS' appeal.)
3. Intensify the military campaign against ISIS
    The less the ISIS ``caliphate'' exists as a physical entity, the 
less the group can claim it is the ``Islamic State'' that it purports 
to be. That should involve more United States Special Forces on the 
ground embedded with the Iraqi military as well as other coalition 
forces in Syria and more United States forward air controllers calling 
in close air support strikes for those forces.
4. Institute a no-fly zone in northern Syria, but be aware of how 
        complex that has now become
    President Trump has often called for safe zones in Syria. This is 
an excellent idea in theory, because this will reduce the battlefield 
success of Syrian dictator Bashar al-Assad, who is the principal driver 
of the Syrian war and will also reduce the flow of refugees into 
Europe, but, based on multiple discussions with U.S. military officials 
based in the Middle East, implementing such safe zones would be quite 
complex because it would entail a no-fly zone if it had a chance to 
succeed.
    First, appropriate authorities would have to be given to American 
fighter jet pilots to shoot down planes defying the no-fly zone, 
including possibly Russian planes that are also conducting air strikes 
in Syria. Second, complicating matters, some of the planes that the 
Syrian air force flies are the same model as some of the older Russian 
planes that are flying over Syria. Third, Syria has excellent air 
defenses that would have to be taken out. The Russians have deployed 
the SA-23 surface-to-air missile system to Syria, which, according to 
U.S. military officials, is one of the most sophisticated air defense 
systems in the world. Fourth, as a matter of international law a no-fly 
zone in Syria would require some kind of U.N. resolution authorizing it 
and Russia would veto such a measure. In 1999, NATO did impose a no-fly 
zone in Kosovo without seeking a U.N. resolution, in order to carry out 
air strikes on Serbian forces. Trump could do something similar, for 
instance, unilaterally ordering American warplanes to bomb Syrian 
airfields so Assad's warplanes could no longer use them. Of course, 
this would be a significant escalation of America's role in the 
conflict and would also skirt international law.
5. Build a database of all the ``foreign fighters'' who have gone to 
        Syria to fight for ISIS and the al-Qaeda affiliate there
    This is one of the recommendations of the House Homeland Security 
Committee's 2015 report on foreign fighters in Syria and it is a very 
good one. How can you prevent an attack by returning foreign fighters 
if you are not cognizant of their names and links to ISIS? Right now, 
Interpol has a list of some 8,000 foreign fighters, but the estimated 
40,000 foreign fighters who have gone to fight in Syria dwarf that.
6. Enlist defectors from ISIS to tell their stories publicly
    Nothing is more powerful than hearing from former members of the 
group that ISIS is not creating an Islamist utopia in the areas it 
controls, but a hell on earth. Reducing the flow of foreign fighters to 
ISIS is a key to reducing ISIS' manpower. Muhammad Jamal Khweis, 26, of 
Alexandria, Virginia, was held by Kurdish fighters after allegedly 
deserting from ISIS in early 2015. Khweis gave an interview to a 
Kurdish TV station in which he said: ``My message to the American 
people is: the life in Mosul [the Iraqi capital of ISIS] it's really, 
really bad. The people [that] were controlling Mosul don't represent 
the religion. Daesh, ISIS, ISIL, they don't represent the religion, I 
don't see them as good Muslims.''
    United States prosecutors could throw the book at Khweis for 
joining ISIS, and he could get 20 years or more, but, alternatively, 
they could try something more creative--a deal in which he tells 
prosecutors what he knows about ISIS in return for a reduced prison 
sentence. And one more thing: He would also have to appear before the 
American public, explaining that ISIS is creating hell in the areas it 
controls.
7. Amplify voices such as that of the ISIS opposition group Raqqa is 
        Being Slaughtered Silently
    The group routinely posts photos on-line of bread lines in Raqqa, 
the de facto capital of ISIS in northern Syria, and writes about 
electricity shortages in the city. This helps to undercut ISIS 
propaganda that it is a truly functioning state.
8. Support the work of clerics such as Imam Mohamed Magid of northern 
        Virginia
    Magid has personally convinced a number of American Muslims seduced 
into support for jihad by ISIS that what the group is doing is contrary 
to the teachings of Islam.
9. Keep up pressure on social media companies such as Twitter to 
        enforce their own terms of use to take down any ISIS material 
        that encourages violence
    Since 2015, Twitter has taken down some 360,000 accounts--including 
235,000 accounts in the last 6 months--used by ISIS supporters, but the 
group continues to use Twitter and other social media platforms to 
propagate its message.
10. Amplify support to Turkey to help it to tamp down the foreign 
        fighter flow through their country to ISIS in neighboring Syria
    Turkey, which had long been criticized by Western countries for 
allowing foreign fighters to move through its territory on their way to 
Syria, has clamped down on that traffic into Syria. Those efforts by 
the Turks are paying off, according to ISIS itself. In 2015, ISIS 
posted advice in one of its English-language on-line publications to 
would-be foreign fighters, saying, ``It is important to know that the 
Turkish intelligence agencies are in no way friends of the Islamic 
State [ISIS].''
11. Relentlessly hammer home the message that while ISIS positions 
        itself as the defender of Muslims, its victims are 
        overwhelmingly fellow Muslims.
12. No-Fly, No-Buy. Prevent suspected terrorists from buying military-
        style assault rifles
    Astonishingly, over the past decade or so more than 2,000 people 
known or suspected to be terrorists have bought guns and assault 
rifles. Even while suspected jihadist terrorists are under some form of 
FBI investigation, they can easily buy military-style assault weapons. 
Omar Mateen, Nidal Hasan, and Carlos Bledsoe--three of the most 
prominent domestic terrorists since 9/11--were all FBI subjects of 
interest, yet all legally purchased semi-automatic weapons shortly 
before their attacks. If you have been the subject of an FBI terrorism 
inquiry it's obviously absurd that you should be able to legally 
purchase semi-automatic weapons. Congress should pass a law preventing 
this from happening in the future.
13. Stay in Afghanistan
    Afghanistan is going down the tubes and it is in worse shape than 
it has been since 9/11. The Taliban control or contest a third of the 
population. That's 10 million people; more than ISIS controlled at the 
height of its power in the summer of 2014 when it might have controlled 
8 million people at most.
    The Obama administration had a counterproductive policy of 
announcing withdrawals from Afghanistan even as it surged troops into 
the country. Exhibit A: the December 1, 2009 speech at West Point where 
Obama announced the surge of troops into Afghanistan and also announced 
their withdrawal date. Of course, that withdrawal date came and went, 
as did a number of others. Constantly announcing proposed withdrawal 
dates for United States forces has enabled the Taliban to believe they 
can simply wait out the clock. It also has contributed to a lack of 
confidence among the Afghan population, 8 out of 10 of whom say that 
the Afghan army and police need support from countries such as the 
United States if they are to do their jobs properly, according to 
polling last year by the Asia Foundation.
    It is in American and Afghan interests for the United States to 
stay in Afghanistan so it doesn't turn into Iraq circa 2014 with the 
Taliban controlling much of the country while also hosting a strong 
presence of ISIS and al-Qaeda as well as every other jihadist group of 
note.
    What to do? Publicly state that the United States already has a 
Strategic Partnership with Afghanistan until 2024 that was negotiated 
by the Obama administration and we promise to be there for the long 
term in an advise-and-assist capacity along the usual lines of 
providing intelligence, Special Forces trainers, close air support and 
the like. Afghans don't care if we have 8,400 troops, or 12,000 troops 
or 20,000 troops. Clearly there is a difference from a purely military 
point of view but from a political point of view the message Afghans 
want to hear is that we are not abandoning them and plan to stay the 
course. Such a public announcement of a long-term commitment to 
Afghanistan will help NATO and other allies also commit for the long 
term; it will also undermine the Taliban and change the calculus of the 
hedging strategies of neighbors such as Pakistan.
14. Free American hostages in the Afghan/Pakistan border regions
    There are five Americans being held by the Taliban-affiliated 
Haqqanis. The Trump administration could put a win on the board by 
securing their release. The Haqqanis want Anas Haqqani--one of their 
family members--to be released in a prisoner exchange for the American 
hostages. Anas is a relatively bit player in the Haqqani Network who is 
now on death row in Afghanistan for raising money for terrorism. This 
prisoner exchange would be somewhat politically costly for the 
government of Ashraf Ghani, but it would secure five American lives, 
some of whom have been in captivity for 5 years. The United States can 
help broker this deal.
15. Develop ``micro targeting'' counter messages for those who are 
        looking at ISIS propaganda
    Advertisers on the internet routinely do this for consumers looking 
at, say, shoes and there is really no technical reason that this could 
not be done effectively for those who are looking at ISIS propaganda. 
Indeed, companies such as Google are already doing this and the United 
States State Department is also quietly supporting similar efforts 
around the Muslim world using local voices in local languages that 
counter the message of ISIS.
16. Increase funding and research for ``photo DNA'' technologies of the 
        kind that have largely banished child pornography images from 
        social media platforms.
17. Some in the Trump administration want to designate the Muslim 
        Brotherhood as a terrorist organization. This is a bad idea 
        that will surely backfire, as it would effectively criminalize 
        and label as terrorists the tens of millions of Muslims around 
        the world who are part of the Muslim Brotherhood.
    While it is certainly the case that a small number of Muslim 
Brothers have radicalized and engaged in terrorism, that does not make 
the Brotherhood a terrorist organization. There are tens of millions of 
Christian fundamentalists in the United States, a tiny number of whom 
have conducted violence against abortion clines and doctors, yet that 
would not be an argument for criminalizing Christian fundamentalists.
    Also members of the Muslim Brotherhood play significant roles in 
the governments and/or parliaments of Iraq, Jordan, Tunisia, and 
Turkey. Designating the Muslim Brotherhood as a terrorist organization 
would label as criminals political leaders of four countries in the 
Middle East, some of which are close American allies and all of which 
happen to be relatively open societies compared to the Gulf State 
autocracies. In Egypt the Sisi government has criminalized the Muslim 
Brotherhood, an extraordinary decision since it effectively has 
criminalized the largest opposition organization in the country as well 
as the previous Morsi government. The United States should not be 
aligning itself with the policies of the Egyptian dictatorship.

    Mr. King. Thank you, Mr. Bergen.
    Commissioner Davis, if I could start, I discussed this with 
Director Comey. We had the cases in Orlando, the case in 
California where the FBI had been carrying out investigations 
and then they closed the investigation when nothing was found. 
I am not being critical of the FBI for not finding it. Just by 
the nature of the people who they are investigating, you may 
not find it in 4 months or 6 months, whatever the time limit 
happens to be.
    Do you have any suggestions as to how, you know, the FBI 
can continue the investigation or somehow ensure that the local 
police are fully briefed and they carry out, you know, continue 
at least some surveillance and some investigation and then 
report back to the FBI or work with the FBI?
    Mr. Davis. Thank you, Chairman. Two points on that issue. 
The first would be to follow the lead of what the Boston police 
department is doing right now, which is a multi-time, each year 
there are multiple scrubs of all of the information in the 
Guardian database.
    Whenever there is an event coming up, in preparation for 
that event there is a team sent in to work with the JTTF to go 
through the database to see who is out there and who might pose 
a threat. Then there is a joint meeting on what we could do to 
stop that from happening. That is a best practice that should 
happen Nation-wide.
    The other thing is, and this is more an organizational 
issue, I have worked in big police departments, I have run big 
organizations; since I have stepped down, I have worked with 
some of the biggest corporations in the United States, 50,000 
employees, 100,000 employees all across the globe. Those 
companies can't get things done unless they are continually 
reviewing their policies to make sure their policies are being 
carried out.
    So as I said in my testimony, a review of those agreements 
and a real check to make sure that the organization hasn't 
snapped back to old practices. When you have an organization 
and you are going to change that organization, that rubber band 
can stretch so far, but then it snaps back sometimes.
    It is usually in the middle of the organization, the mid-
level managers that are responsible for that. The well-
intentioned leaders of the organization want to see the right 
thing happen. If you are not continually reviewing that 
process, you can have that snap-back effect, and I think that 
is what we have to guard against here in the United States.
    Mr. King. Thank you.
    Also, Ed, you mentioned about working with the local Muslim 
communities. I know of several instances, for instance, in 
Suffolk County in New York where the police have very close 
relationships, including monthly meetings at the mosque with 
the imam. Yet in several of those mosques, you had members of 
the mosque who were arrested overseas or arrested here in the 
United States for being involved in terrorist plots. In several 
of those I am aware of, the police said, well, why didn't you 
tell us then?
    In fact, Venus is one. He was arrested in Afghanistan and 
he was planning attack on the Long Island Railroad. The imam 
probably said, well, he came to our mosque and we told him we 
don't to do jihad here. But you never told the police when they 
were coming into warn them about Venus. There were two others, 
also from the South Shore, with similar-type instances. What 
has your experience been as far as getting cooperation?
    Also, you mentioned the Somalis. I know this goes back 
several years, but we had testimony before our committee that 
when a young man was killed in Somalia, a man from Minneapolis 
was killed in Somalia, basically the local leaders told the 
people not to cooperate with the FBI. Now, that was going back 
several years. Do you know if those situations have improved?
    Mr. Davis. Well, there is no question, Chairman, that there 
are going to be problems. This is not a perfect solution to the 
issue, it is just one of many things that has to continue to 
play out.
    In the example I used where we had the Bridges Group, the 
main deficiency with the Bridges Group was only bringing people 
in that were very friendly to us. So we had the same people 
coming in from 9/11 up until 2013 and we got to know them very 
well and they were friends. We never expanded beyond that group 
into the more radical mosques, doing outreach to places where 
we knew were problematic. That is really, I think, the key to 
this is to establish trust.
    But even if you do establish trust, there are still going 
to be very sophisticated actors in these groups that don't 
divulge their plans. That is when you have to pay attention to 
the surveillance part of it to work these cases as if they are 
sophisticated and, you know, bad-intentioned criminals and 
actors from foreign places that are attempting to hurt us. So a 
combination of surveillance and outreach, I think, is the 
answer to it.
    Mr. King. Also, I think it was mentioned that we have only 
had, in fact I mentioned it in my opening statement, there has 
not been a large-scale attack, but there has been good police 
and good FBI work that stopped them. For instance, the 2009 
attempted subway attack in New York. If that had succeeded, at 
least hundreds, maybe thousands of people could have been 
killed. That was one, so in many ways these numbers aren't 
always apples and oranges or they are apples and oranges 
because there could be many more thousands killed it had not 
been for the extensive surveillance that was being carried out.
    Mr. Davis. There is no question. The success has been 
across the board. Local, State, and Federal agencies have 
stopped these events from happening.
    One of the problems that my contacts in the world of 
antiterrorism work mentioned is the large number of people with 
psychological problems that are bubbling up and end up being 
reported to JTTFs and the lack of sort of a way to deal with 
somebody who has just got a psych problem and mentions 
terrorism as opposed to someone who actually is intent on 
hurting the United States.
    Mr. Joscelyn mentioned it in his testimony, some sort of 
middle-of-the-line way to deal with people who are presenting 
with serious psych problems and could do something bad, but 
most likely need some type of supervision or treatment, that is 
a huge problem for JTTFs across the country.
    Mr. King. Thank you.
    We will go now to the Ranking Member for questions.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Bergen. I would like to go to you because I think that 
some of the things that you were touching on feed or are 
addressing the issue that we are facing in this country.
    I am sure it happens in every change of administration. I 
am not specifically saying that this has anything to do with 
the fact that it is Donald Trump as our President now. But 
rhetoric and what you say matters. Trying to make a transition 
from a very heated campaign season to actually governing in the 
space of National security. I would just like to ask you if you 
could talk more about the Muslim Brotherhood and how you think 
this administration should deal with that group.
    I would like you talk more about the no-fly, no-buy. I give 
Chairman King a lot of credit for being a patriot before being 
a politician and introducing that bill in the last Congress. 
Hopefully it will be reintroduced without any political 
fanfare, just recognizing the great value of it, and I commend 
him for that.
    But if you could just talk more about how, you know, the 
terminology of radical Islamic terrorism, what is that doing to 
help, hurt the relationships we have to have with all the other 
Muslim countries that have been our partner in this fight 
against terrorism? What can we do to help that situation as 
Members of Congress?
    Mr. Bergen. Thank you. You know, I think the discussion of 
terminology can be less important than sometimes it is seen in 
this town. So, I mean, that is just my personal view. You know, 
we don't want to confuse, I mean, you know, if the reporting 
about H.R. McMaster is true, he told the NSC on Thursday, you 
know, that he was not in favor of using this term.
    Clearly, you know, whether it is in Iraq or Afghanistan, 
our key allies are Muslims. So we don't want to confuse them 
with the idea that somehow we were at war with Islam. That is 
just a fact.
    But our actions are much more important than what we say. 
You know, we have inflicted a huge amount of damage on ISIS 
already, I think the latest figure about 60,000 ISIS fighters 
have been killed. So whether we call radical Islamic terrorism 
or, you know, violent extremists, whatever we call them, 
actually ISIS is in, you know, grave danger right now of losing 
its most important city, Mosul. So actions are the key.
    So going to your questions, Representative Rice, I mean, 
the no-fly, no-buy, think about Major Nidal Hasan, he is an 
Army major. He is not a common criminal. He had to buy four 
semiautomatic weapons to kill 13 people at Fort Hood. He 
couldn't go on the street and, you know, very unlikely to buy 
one, you know, from a criminal. He didn't know any criminals.
    So, of course, it is not a perfect solution that if you are 
on the no-fly list you can't buy a semiautomatic weapon, but it 
is better than many of the other things that have been 
proposed. It would actually make a difference.
    Similarly with the Muslim Brotherhood, I mean, the largest 
Arab country is Egypt with 80 million people, until very 
recently their government was the Muslim Brotherhood. They were 
democratically elected, unlike so many of the other regimes 
around the region. So this idea of designating them as a 
terrorist organization is simply ridiculous.
    Miss Rice. Commissioner Davis, just to talk more, because I 
actually think that what you did after the bombing in terms of 
reaching out to the community is incredibly valuable as opposed 
to bringing people in instead of shunning them.
    Can you just talk more about how much of your time is 
spent? You know, because I know that there is some resistance 
on the part of law enforcement, people want to be more 
aggressive in certain communities and shut them out and focus 
on them in a different way than a community policing model 
would allow for.
    So if you could just talk more about the value of bringing 
people in, you know, and going into these communities and 
trying to get information from them and let them know that we 
are trying to work together. Whatever or however your 
philosophy, whatever that was.
    Mr. Davis. Right. Thank you, Ranking Member. I policed 
urban areas and there are enclaves of people who live in urban 
areas, depending on where were you go in the city and many 
times these individuals need our help more than anybody else. 
So it is important for us as a police organization to establish 
trust across the city so that when someone is in trouble and 
they need assistance they are not afraid to call us.
    We spent a lot of time doing that when I was the 
commissioner in Boston. It continues today and it has been 
going on for 30 years. That outreach is critical and that 
trusting relationship is critical for us to be able to work in 
these communities and protect the good people who are there.
    If we don't do that, then the people who live in these 
communities will not trust the police, they will not call us, 
and the bad guys will be able to run roughshod over their own 
fellow either citizens or whatever region they are from, in 
these small neighborhoods.
    It is crucial that we, that we maintain close 
relationships. That is, as Mr. Bergen said, it is much more 
likely for a peer to report this bad activity than it is for 
someone just, you know, at the mosque. It is going to be 
someone who they know and they work with.
    This is true. I have worked narcotics cases for much of my 
career. If we weren't talking to people from the countries, the 
source countries, of narcotics, we would never be able to put a 
case together against the criminals who are actually 
transporting the narcotics into the country. The same applies 
to terrorism.
    Miss Rice. Thank you very much.
    Mr. King. The gentleman from Pennsylvania, Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman. In 2008, the Holy Land 
Foundation and several of its senior leaders were convicted of 
funneling more than $12 million to Hamas with the jury finding 
the defendants guilty on all counts of the indictment. While 
the Holy Land Foundation was brought to justice, the Obama 
administration refused to investigate the list of 246 
unindicted co-conspirators presented as evidence by the 
prosecution.
    On February 17 of this year, my colleagues and I authored a 
letter asking Attorney General Sessions to reopen the 
investigation into the unindicted co-conspirators listed in the 
largest terrorist financing trial in our Nation's history, 
which is the United States versus the Holy Land Foundation for 
Relief and Development, et al.
    At this time I ask unanimous consent that this be submitted 
for the record.
    Mr. King. Without objection.
    [The information follows:]
        Letter Submitted For the Record by Honorable Scott Perry
                                 February 17, 2017.
The Honorable Jefferson B. Sessions,
United States Attorney General, U.S. Department of Justice, 950 
        Pennsylvania Avenue, NW, Washington, DC 20530.
    Dear Attorney General Sessions: We respectfully request that the 
Department of Justice reopens the investigation into the unindicted co-
conspirators listed in the largest terror financing trial in our 
Nation's history, United States v. Holy Land Foundation for Relief and 
Development et al.
    In December 2001, The Holy Land Foundation for Relief and 
Development (HLF), the largest Islamic charity in the America, was 
designated as a Specially Designated Terrorist (SDT) organization by 
the U.S. Government. After freezing its assets, the FBI concluded that 
HLF's primary goal was the subsidization of HAMAS, and a criminal case 
ensued in July 2004. In 2008, HLF and several of its senior leaders 
were convicted of funneling more than $12 million to HAMAS, with the 
jury finding defendants guilty on all counts of the indictment. 
Evidence presented by the prosecutors included a list of 246 unindicted 
co-conspirators (attached) and its designation was broken into 
categories based on the extent of their participation and/or 
association with the HLF, HAMAS, and the Muslim Brotherhood.
    While HLF was brought to justice, the Obama Administration refused 
to investigate these unindicted co-conspirators, and in the decade 
since the trial, the threat of radical Islamist terrorism has developed 
substantially. If the individuals and groups on this list are funneling 
money through the U.S. to fight our enemies, the American people have 
the right to know. While appalling that President Obama refused even to 
acknowledge the threat of radical Islamist terrorism, the mistakes of 
the past must be corrected and those who finance terror be prosecuted 
to the fullest extent of the law.
    We truly hope that under your authority, the Department of Justice 
will reopen the investigation into these unindicted co-conspirators. We 
look forward to your reply, and wish you the best in your new position.
            Very Respectfully,
                                               Scott Perry,
                                                Member of Congress.
                                              Lou Barletta,
                                                Member of Congress.
                                                 Dave Brat,
                                                Member of Congress.
                                               Brian Babin,
                                                Member of Congress.
                                             Louie Gohmert,
                                                Member of Congress.
                                            Glenn Grothman,
                                                Member of Congress.
                                               Ted S. Yoho,
                                                Member of Congress.
                                               Jeff Duncan,
                                                Member of Congress.
   ATTACHMENT.--IN THE UNITED STATES DISTRICT COURT FOR THE NORTHERN 
                   DISTRICT OF TEXAS, DALLAS DIVISION
   UNITED STATES OF AMERICA VS. HOLY LAND FOUNDATION FOR RELIEF AND 
  DEVELOPMENT, also known as the ``HLF'' (01) SHUKRI ABU BAKER, (02) 
 MOHAMMED ELMEZAIN, (03) GHASSAN ELASHI, (04) HAITHAM MAGHA WRI, (05) 
AKRAM MISHAL, (06) MUFID ABDULQADER, (07) and ABDULRAHMAN ODEH (08) CR 
                           NO. 3:04-CR-240-G
       list of unindicted co-conspirators and/or joint venturers*
---------------------------------------------------------------------------
    * The names listed herein are spelled in the manner most commonly 
seen, or phonetically, however it should be remembered that such names 
are subject to multiple spelling variations.
---------------------------------------------------------------------------
(It should be noted that certain individuals and/or entities appear in 
        more than one category).
I. The following are individuals/entities who are and/or were part of 
the HAMAS' social infrastructure in Israel and the Palestinian 
territories:

    1. Abdel Al Jeneidi
    2. Abdel Khalek Al Natsheh
    3. Abdel Rahim Hanbali
    4. Abdul Rahman Baroud
    5. Adali Yaish
    6. Ahmad Abdullah
    7. Ahmed Al Kurd
    8. Ahmed Baher
    9. Akram Kharoubi
    10. Alaa Anwar Aqel
    11. Al Anwar Al Ibrahimi Library
    12. Al Salah Society
    13. Al Razi Hospital
    14. Amal Alafranji
    15. Amin Shweiki
    16. Anees Shaheen
    17. Aqel Rabi
    18. Asaad Abu Sharkh
    19. Bethlehem Orphans Society
    20. Bilal Yousif Asfira
    21. Ekram Taweel
    22. Fallah Herzallah
    23. Fatimeh Odeh
    24. Fawaz Hamad, aka Abul Abed
    25. Foud Abu Zeid
    26. Ghassan Harmas
    27. Hafeth Natsheh
    28. Halhul Zakat
    29. Hamad Hassanat
    30. HAMAS
    31. Hamed Al Bitawi
    32. Hanadi Natsheh
    33. Hashem Sadeq El Natsheh
    34. Hatem Qafisha
    35. Hoda Abdeen
    36. Hosni Khawaji
    37. Husni Abu Awad
    38. Hussein Abu Kweik
    39. Hussein Al Khatib
    40. Ibrahim Abdel Rahim Dawoud, aka Bilal Hanoun
    41. Ibrabim Mosleh
    42. Ibrahim Al Yazuri
    43. Islamic University of Gaza
    44. Islamic Center of Gaza, aka Islamic Complex, aka Al Mojamma Al 
        Islami
    45. Islamic Relief Committee
    46. Islamic Society of Gaza
    47. Islamic Charitable Society of Hebron
    48. Islamic Science and Culture Committee
    49. Islamic Heritage Committee
    50. Jamal Al Khodary
    51. Jamal Al Tawil
    52. Jamil Hammami, aka Abu Hamza
    53. Jenin Zakat
    54. Kamal Al Tamimi, aka Abu Islam
    55. Khaled Abdelqader
    56. Khalid Al Masri
    57. Khalil Shaheen
    58. Mahmoud Yasin Ahmed El Sheikh Yasin
    59. Mahmud Rumahi
    60. Mahtahdi Musleh
    61. Mervit Al Masri
    62. Mohamed Fouad Abu Zeid
    63. Mohamed Saker
    64. Mohamed Eid Misk
    65. Mohamed Siam, aka Abu Mahmud
    66. Mufid Mukhalalati
    67. Muhamad Salman Baroud
    68. Muhammad Taha
    69. Muhammad Muharam
    70. Muslim Womens' Society
    71. Nabil Mansour
    72. Nablus Zakat
    73. Najeh Bakarat
    74. Nasser Hidmi
    75. Omar Hamdan
    76. Patients Friends Society
    77. Qalqilya Zakat
    78. Ramallah Zakat
    79. Riyad Walwil
    80. Salem Salamah
    81. Seham Al Quatros
    82. Siham Al Masri
    83. Sulieman Ighbariya
    84. Taher Shreitah
    85. Talal Sader
    86. Tawfik ATrash
    87. Tolkarem Zakat
    88. Walid Jarrar
    89. Young Mens' Muslim Society
    90. Zaid Zakarneh
    91. Ziyad Mishal
    92. Zuhair Elbarasse

II. The following are individuals who participated in fund-raising 
activities on behalf of the Holy Land Foundation for Relief and 
Development:

    1. Abdallah Azzam
    2. Abdel Jabar Hamdan
    3. Abdel Aziz Jaber
    4. Abdul Muni Abu Zunt
    5. Ahmed Al Kofahi
    6. Ahmed Nofel
    7. Ahmed Al Qattan
    8. Ahmed Kafaween
    9. Aziz Dweik
    10. Bassam Jarrar
    11. Deeb Anees
    12. Faisal Malawi
    13. Falhi Yakan
    14. Ghazi Honeina
    15. Hamed Al Bitawi
    16. Hammam Saeed
    17. Hamza Mansour
    18. Hatem Qafisha
    19. Hatem Jarrar
    20. Jamal Badawi
    21. Jamil Hammami, aka Abu Hamza
    22. Kamal Hilbawi
    23. Khalil Al Quqa
    24. Mahfuz Nahnah
    25. Mahmud Zahar, aka Abu Khaled
    26. Majdi Aqel
    27. Mohamed Siam, aka Abu Mahmud
    28. Mohamed Anati
    29. Mohamed Shbeir
    30. Mohammed Faraj Al Ghul
    31. Muharram Al Arifi
    32. Mustafa Mahsur
    33. Omar Sobeihi
    34. Omar Al Ashqar
    35. Qadi Hassan
    36. Raed Saleh
    37. Rashed Ghanoushi
    38. Yussef Al Qaradawi

III. The following are individuals/entities who are and/or were members 
of the U.S. Muslim Brotherhood's Palestine Committee and/or its 
organizations:

    1. Abdel Haleem Ashqar, aka Abdel Hassan
    2. Ahmed Agha
    3. Akram Kharoubi
    4. Al Aqsa Educational Fund
    5. American Middle Eastern League, aka AMEL
    6. Ayman Ismail
    7. Ayman Sharawi
    8. Ayman Siraj Eddin
    9. Basman Elashi
    10. Bayan Elashi
    11. Council on American Islamic Relations, aka CAIR
    12. Dalell Mohamed
    13. Fawaz Mushtaha, aka Abu Mosab
    14. Fayez Idlebi
    15. Ghassan Dahduli
    16. Hamoud Salem
    17. Hassan Sabri
    18. Hazim Elashi
    19. lAP Information Office
    20. Ibrahim Al Samneh
    21. INFOCOM
    22. International Computers and Communications, aka ICC
    23. Islam Siam
    24. Islamic Association for Palestine in North America, aka IAP
    25. Islamic Association for Palestine, aka IAP
    26. Ismail Elbarasse, aka Abdul Hassan, aka Abd el Hassan
    27. Ismail Jaber
    28. Issam El Siraj
    29. Izzat Mansour
    30. Jamal Said
    31. Kifah Mustapha
    32. Mohamed Abbas
    33. Mohamed Abu Amaria
    34. Mohamed El Shorbagi
    35. Mohamed Akram Adlouni
    36. Mohamed Al Hanooti
    37. Mohamed Jaghlit
    38. Mohamed Qassam Sawallha, aka Abu Obeida
    39. Mohamed Salah
    40. Munzer Taleb
    4l. Muin Shabib
    42. Nader Jawad
    43. Omar Ahmad, aka Omar Yehia
    44. Omar El Sobani
    45. Palestine Committee
    46. Rashid Qurman
    47. Rasmi Almallah
    48. United Association for Studies and Research, aka UASR
    49. Walid Abu Sharkh
    50. Walid Ranu
    5l. Yasser Saleh Bushnaq
    52. Yousef Saleh, aka Ahmed Yousef
    53. Zaher Salman, aka Osama Abdullah

IV. The following are individuals/entities who are and/or were members 
of the Palestine Section of the International Muslim Brotherhood:

    1. Abdallah Azzam
    2. Abdel Rahman Abu Diyeh
    3. Ahmed Nofel
    4. Ali Mishal
    5. Hammam Saeed
    6. Hani El Jasser
    7. Imad Abu Diyeh
    8. Islamic Action Front
    9. Issa Mohamed Ahmad
    10. Jawad Al Hamad
    1l. Kandil Shaker
    12. Khairy Al Ahga, aka Abu Obeida
    13. Khalid Taqi Al Din
    14. Mohamed Abu Fares
    15. Mohamed Eweida
    16. Munir Elashi
    17. Muslim Brother, aka Ikwan Al Muslimi
    18. Mustafa Mahsur
    19. Rageh El Kurdi
    20. Ziad Abu Ghanimeh

V. The following are individuals who are and/or were leaders of HAMAS 
inside the Palestinian territories:

    1. Abdel Aziz Rantisi
    2. Ahmed Yassin
    3. Ibrahim Al Yazuri
    4. Imad Aqel
    5. Ismail Abu Shanab
    6. Ismail Haniya
    7. Mahmud Al Rumahi
    8. Mahmud Zahar, aka Abu Khaled
    9. Muhammad Taha
    IO. Salah Shehadah

VI. The following are individuals who are and/or were leaders of the 
HAMAS Political Bureau and/or HAMAS leaders and/or representatives in 
various Middle Eastern/African countries:

    1. Ibrahim Ghoshe
    2. Imad Alami
    3. Khalid Mishal, aka Abu Walid
    4. Mousa Abu Marzook, aka Abu Omar
    5. Jamal Issa, aka Jamal Abu Baker
    6. Mohamed Siyam

VII. The following are individuals/entities who are and/or were members 
of the U.S. Muslim Brotherhood:

    I. Abdel Rahman Alamoudi
    2. Gaddor Ibrahim Saidi
    3. Islamic Society of North America, aka ISNA
    4. Muslim Arab Youth Association, aka MAYA
    5. Nizar Minshar
    6. North American Islamic Trust, aka NAIT
    7. Raed Awad
    8. Tareq Suwaidan

VIII. The following are individuals/entities that are and/or were part 
of the Global HAMAS financing mechanism:

    1. Al Aqsa Society
    2. Abdel Rahim Nasrallah
    3. Association de Secours Palestinians
    4. Commiti De Bienfaisance et de Secours aux Palestinians, aka CBSP
    5.Interpal
    6. Jersualem Fund, aka IRFAN
    7. K & A Overseas Trading
    8. Khairy Al Ahga, aka Abu Obeida
    9. Palestine Relief and Development Fund
    10. Palestine and Lebanon Relief Fund
    11. Palestinian Association of Austria
    12. Sanabil Foundation for Relief and Development
    13. Soboul Al Khair

IX. The following are other individuals/entities that Marzook utilized 
as a financial conduit on behalf and/or for the benefit of HAMAS:

    1. Bashir Elashi
    2. Gaddor Ibrahim Saidi
    3. INFOCOM
    4. International Computers and Communications, aka ICC
    5. K & A Overseas Trading
    6. Kbairy Al Ahga, aka Abu Obeida
    7. Mohamed Salah
    8. Munir Elashi
    9. Nadia Elashi
    10. Omar Salah Badahdah

X. The following are individuals who were HLF employees, directors, 
officers and/or representatives:

    1. Abdel Jabar Hamdan
    2. Ahmed Agha
    3. Akram Kbaroubi
    4. Amal Alafranji
    5. Amin Shweiki
    6. Anees Shaheen
    7. Asaad Abu Sharkh
    8. Ayman Ismail
    9. Basman Elashi
    10. Dalell Mohamed
    11. Ekram Taweel
    12. Fatimeh Odeh
    13. Fawaz Hamad, aka Abul Abed
    14. Ghassan Harmas
    15. Hanadi Natsheh
    16. Hazim Elashi
    17. Hoda Abdeen
    18. Hussein Al Khatib
    19. Islam Siam
    20. Jamal Al Khodary
    21. Kamal Al Tamimi, aka Abu Islam
    22. Khalid Al Masri
    23. Mervit Al Masri
    24. Mohamed Dahroug
    25. Mohamed Eid Misk
    26. Mufid Mukhalalati
    27. Muhammad Muharram
    28. Kifah Mustapha
    29. Mohamed Anati
    30. Mohamed El Shorbagi
    31. Omar Kurdi
    32. Raed Awad
    33. Ramzi Abu Baker
    34. Rasmi Almallah
    35. Seham Al Quatros
    36. Sharif Battiki
    37. Siham Al Masri
    38. Taqi Al Din
    39. Zuhair Elbarasse

XI. The following are HAMAS members whose families received support 
from the HLF through the HAMAS social infrastructure:

    1. Adel Awadallah
    2. Abdel Rahman Arouri
    3. Abdel Aziz Rantisi
    4. Ahmed Yassin
    5. Ismail Abu Shanab
    6. Ismail Haniya
    7. Jamil Al Baz
    8. Kamal Naeem
    9. Khalil Al Quqa
    10. Khamis Zaki Akel
    II. Naser Ghazi Edweidar
    12. Salah Eldin Nijmi
    13. Salah Othman
    14. Salah Shehadah
    15. Yasser Hassanat
    16. Yasser Namruti
    17. Yehia Ayyash

    Mr. Perry. So I think my first question would go to Mr. 
Joscelyn. Wahhabi ideology is essentially the wellspring of the 
doctrine and world views of radical Islamic terrorist 
organizations or Islamism or fundamentalism or whatever you 
folks feel comfortable with calling it, in general, and of ISIS 
in particular.
    I know you are often focused on al-Qaeda, but I know that 
you are well-versed in ISIS as well and the general theme. Many 
of ISIS' official publications are classic works of the Wahhabi 
canon and ISIS ideologues and supporters who regularly liken 
the so-called caliphate to the first Saudi Wahhabi state.
    Since 1979, Saudi Arabia has engaged in a persistent and 
consistent campaign of exporting Wahhabi ideology throughout 
the Muslim world, spending about $4 billion annually on 
mosques, madrasas, preachers, students, and textbooks. Wahhabi 
ideology has become so prominent in the Muslim world that by 
2013, 75 percent of North American Islamic centers relied on 
Wahhabi preachers who promote anti-Western ideas in person and 
on-line through their sermons and through the Saudi-produced 
literature.
    So the question is, what role does the export of Wahhabism 
by Saudi Arabia play in the radicalization of Muslims, whether 
it be in regard to ISIS, al-Qaeda, Boko Haram, or otherwise, 
both at home and abroad and in grooming them for recruitment by 
terrorist organizations?
    Mr. Joscelyn. Well, Wahhabi extremism is an issue in a lot 
of ways. I mean, in areas where the funding goes to fund those 
mosques or madrasas, it oftentimes runs roughshod over local 
Islamic traditions, basically replaced by this extremist 
version of Islam.
    But in terms of ISIS and al-Qaeda, we also have to be 
careful a little bit where ISIS, in particular, basically draws 
on ideas outside of the Wahhabi realm quite often and has 
actually turned its rhetorical guns and is trying to turn its 
literal guns on the Saudi Kingdom on a regular basis.
    Same thing with al-Qaeda. I mean, you know, part of why the 
Saudis have intervened in Yemen, for example, is they were 
worried both about the Houthi rebellion there and also on the 
al-Qaeda side. So there is a story to be told on Saudi funding 
of extremism for sure. I think it is a problem.
    It is not the version of Islam I think most Muslims around 
the world are used to or know, it is not part of the regular 
customs. I have seen complaints everywhere from Nigeria through 
North Africa through East Africa all the way into South Asia of 
where when the Saudi's turn on the spigot basically a very 
different version of sort-of Islam shows up. I think we should 
be careful about tracking that and understanding that.
    To your point about the terrorism finance, Congressman, I 
would second the idea that any specific violations of terrorist 
finance laws need to be investigated and prosecuted here in the 
United States.
    I am aware, I think I am aware, that there has been a slow 
roll on that issue. The way I think about the world is in terms 
of very specific threats and very specific ties to terrorists, 
and if there are organizations here in the United States, which 
are engaging in that sort of fundraising activity once again, 
they should be investigated and prosecuted.
    Mr. Perry. So just kind-of following up on your discussion 
about most Muslims, and I would agree with you that most 
Muslims eschew or reject the Wahhabi or the strict structural 
fundamental form of Wahhabiism that is put upon them.
    But I still am concerned about oftentimes the high 
percentage of Muslims world-wide and these peaceful Muslims, 
let us just be clear here, they are the ones that are put upon 
by the this ideology and most of the reign of terror, if you 
will, by the Wahhabists or Islamist.
    Mr. Joscelyn. Correct.
    Mr. Perry. But many of the world's Muslim population, 
including the United States, sees sharia, which is oftentimes 
as well associated with Wahhabiism, as perfectly OK and 
appropriate to live under.
    So in a circumstance where many of the occupants might not 
like the kind of the outcome of living under those 
circumstances, they don't really disagree with it fundamentally 
when questioned. What do you make of that?
    Mr. Joscelyn. Well, as a secular humanist, I am certainly 
no fan of sharia law, but I will say this. Sharia means 
different things within the Muslim community. There isn't one 
interpretation or meaning of that. That is not a cop-out or an 
apology for it, it is just really sharia can mean a number of 
different things.
    What I think you are concerned about or I would be 
concerned about are organizations that basically say that 
sharia law should supplant sort-of American customs or American 
ideas and principles. I think that is something that needs to 
be contested in the court of public opinion and exposed and 
sort-of debated is basically the way I would handle that more 
often than not.
    I don't think, you know, just because an individual Muslim 
necessarily adheres to sharia, it may not mean the version of 
sharia that is sort-of totalitarian or sort-of wants to 
supplant American customs. It may mean something much more 
local and personal.
    I certainly know, you know, Muslims in the New York, New 
Jersey area who will tell you that they are sharia compliant, 
and yet they don't believe in Muslim Brotherhood ideology or, 
you know, al-Qaeda's ideology or ISIS or anything like that. So 
what I would look at is basically organizations that sort-of 
advocate a version of that that is sort-of totalitarian in 
nature and contest it in the court of public opinion.
    Mr. Perry. Thank you, Mr. Chair, I yield.
    Mr. King. Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Just quickly, you can just say yes if you agree with this. 
But is the No. 1 threat to the citizens of this country still 
home-grown violent extremist people here? Is that, would you 
say, the major threat that we have?
    Mr. Davis. I believe it is right now.
    Mr. Keating. Mr. Joscelyn.
    Mr. Joscelyn. I think it is a major threat with one caveat, 
which you will see in my testimony, which is if eventually they 
are successful in infiltrating a team onto U.S. soil, but it is 
the predominant threat on a day-to-day basis.
    Mr. Keating. Mr. Simcox.
    Mr. Simcox. Yes, I think the most numerous amount of home-
grown, although what we have seen in Europe is that the highest 
body count often come from when external planners are involved.
    Mr. Keating. Mr. Bergen.
    Mr. Bergen. Yes.
    Mr. Keating. OK.
    I was really pleased, Commissioner Davis, to hear your 
views on the progress that we have made, and thanks for your 
work with this committee, on dealing in the aftermath of the 
Boston Marathon bombing, the lessons learned, and the fact that 
we are sharing information and the legislation that requires 
the codification of that so it doesn't get lost as people come 
and go through different agencies.
    I just wanted to touch base on one aspect that all of you 
might feel, particularly Commissioner Davis since he has been 
there. I think the area where there is a great deal of stress 
on our officials trying to counter terrorism in this country is 
at that guardian and at the assessment stage, because I think 
the volume is so high on the FBI as they go through that. Their 
resources are strained, it is very difficult, and there is a 
time line they have to work with.
    Afterwards, you know, there is what we used to call, you 
know, the closing the book on everything, so that information 
is not shared. I believe that the same progress we have made 
sharing information could be greater utilized at that 
assessment stage working with people. I looked at the New 
Jersey and New York bombings and, you know, from what was 
public in that information, I thought at that stage greater 
participation at the local level could have been better, and I 
think that is a case elsewhere.
    How can we accomplish that to a better degree?
    Mr. Davis. Well, I think that the rules and regulations 
that the FBI operate under are extremely difficult to follow. I 
have looked at them and I know in my sort-of experience of 
investing cases, they are overly bureaucratic and I think maybe 
review of that would be in order. So I think that is sort-of 
the first step.
    But I will agree with you that group think on these 
situations results in a much better outcome and also eliminates 
the potential for criticism and review afterwards.
    Mr. Keating. I think it helps deal with the problem you 
referenced that I think is a very major problem. People with 
psychological difficulties, trying to screen out where there is 
a real problem. I think people at the local level have more 
insight into that.
    So beyond the rules and regulations, is it a force 
multiplier? You know, I know you don't want to comment on if we 
need more resources for the FBI. I happen to think they could 
use more in that regard, but that is a critical area that I 
think we could improve things.
    Mr. Davis. I think so, too. I think the coming together on 
these cases, deciding how to vet the real threats from these 
psychological----
    Mr. Keating. Yes, taking it beyond information sharing into 
more joint reviews of that. Thank you.
    Quick question, Mr. Bergen. You mentioned the Executive 
Order didn't help things, basically it didn't achieve anything. 
You didn't get into the fact, can it hinder our efforts? I 
didn't think you did.
    Mr. Bergen. You know, I just don't know.
    Mr. Keating. Yes. Anyone have any thoughts on that?
    There were reports that the CVE funding that was there were 
turned down by certain groups after the Executive Order. That 
is what made me think, is that a problem there?
    Mr. Bergen. Actually, let me revise. You know, the Iraqi 
government is really angry about this ban and clearly, you 
know, who is dying in Mosul, it is overwhelmingly Iraqis. So, 
you know, we managed to really anger one of our key allies with 
this ban.
    Mr. Keating. OK. Any other questions about how we can 
improve some of the activities through the CVE? How is that 
working? Are there more funds necessary? Are they effective? I 
know in Boston and New York they have used those funds a great 
deal.
    Mr. Davis. Right, we have. As I said in my comments 
earlier, outreach is extremely important; identifying what is 
happening. But also, you know, saying what this really is and 
identifying precisely what the threat is, who is responsible 
for it, and making sure that we have a clear idea, as Robin 
said in his testimony, is as important as the outreach. This 
has to be a balanced approach.
    Mr. Keating. OK. I will have more follow-up questions in 
writing, since my time is expired, on airport issues and 
airline issues, which I think that we have made great progress, 
but still remain as threats. So I will save that for my written 
portion since my time is out.
    I yield back, Mr. Chairman.
    Mr. King. Thank you.
    Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman and Ranking Member, thank you 
very much. I am delighted to join you this morning.
    Thank you to all the witnesses.
    Chief Davis, you have got Mr. Davis in front of Davis. We 
have got mister, but I can't help but again to acknowledge your 
great leadership, your very fine congressperson was such a 
champion for Boston, but you were certainly the gleaming 
example of what we hoped, tragically, would come out of 
homeland security when there was a tragedy. We hoped you 
wouldn't have to encounter, but the collaboration, the local 
leadership, the insisting on the sharing of intelligence, you 
did it all and we are grateful for you.
    I think that is the way that we put forward the best 
domestic front in protecting the people in protecting the 
homeland, so I thank you for that.
    To all of the witnesses as well, we appreciate you being 
here.
    Mr. Chairman, I would like to introduce into the record two 
articles. One, ``Hate crime is feared as two Indian engineers 
are shot in Kansas.'' I ask unanimous consent to introduce it 
into the record.
    Mr. King. Without objection.
    [The information referred to follows:]
     Hate Crime Is Feared as 2 Indian Engineers Are Shot in Kansas
                           February 27, 2017
By John Eligon, Alan Blinder and Nida Najar
https://www.nytimes.com/2017/02/24/world/asia/kansas-attack-possible-
hate-crime-srinivas-kuchibhotla.html?_r=0
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Tributes to three gunshot victims were outside Austins Bar and Grill in 
Olathe, Kan., the scene of the attack, on Friday. Credit Amy Stroth for 
The New York Times

    OLATHE, Kan.--``The Jameson guys,'' as some on the staff at Austins 
Bar and Grill knew the pair, were on the patio on Wednesday evening. It 
was hardly unusual: Srinivas Kuchibhotla and Alok Madasani, two 
immigrants from India, often enjoyed an after-work whiskey at the bar 
they had adopted as a hangout.
    Adam W. Purinton was also there, tossing ethnic slurs at the two 
men and suggesting they did not belong in the United States, other 
customers said. Patrons complained, and Mr. Purinton was thrown out.
    But a short time later, he came back in a rage and fired on the two 
men, the authorities said. Mr. Kuchibhotla was killed, and Mr. Madasani 
was wounded, along with a 24-year-old man who had tried to apprehend 
the gunman, who fled.
    Mr. Purinton, 51, was extradited to Kansas from Missouri on Friday, 
and he is charged with premeditated first-degree murder and two counts 
of attempted premeditated first-degree murder.
    The attack, which the Federal and local authorities are 
investigating as a possible hate crime, reverberated far beyond both 
states.
    It raised new alarms about a climate of hostility toward foreigners 
in the United States, where President Trump has made clamping down on 
immigration a central plank of his ``America first'' agenda.
    The White House strongly rejected the notion that there might be 
any connection between the shooting and the new administration's sharp 
language about immigration.
    ``People are devastated,'' said Somil Chandwani, a friend of the 
two victims who lives in Overland Park, Kan. ``I wouldn't say they are 
angry. They have a sense of insecurity at the moment. People are trying 
to find answers.''
    A charging document released on Friday gave no details about the 
motive for the shooting. Law enforcement officials in Kansas, citing 
the continuing investigation and judicial ethics standards, said little 
about the episode.
    Still, the F.B.I.'s role in the inquiry suggested that officials 
had found some evidence that could eventually lead to civil rights 
charges in connection with the shooting, which occurred around 7:15 
p.m. Wednesday.
    ``He snapped, and this is not his typical self,'' the suspect's 
mother, Marsha Purinton, said before declining further comment.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Srinivas Kuchibhotla, right, with his wife, Sunayana Dumala, in Cedar 
Rapids, Iowa, in an undated photo. Mr. Kuchibhotla was shot dead 
outside a bar in Kansas on Wednesday. Credit Courtesy of Kranti Shalia, 
via Associated Press

    In a brief phone interview on Friday night, Mr. Madasani described 
the remarks made Wednesday by the man sitting near him and Mr. 
Kuchibhotla at the restaurant. ``He asked us what visa are we currently 
on and whether we are staying here illegally,'' Mr. Madasani said. 
(Both men were educated in the United States and were working here 
legally.)
    ``We didn't react,'' Mr. Madasani said. ``People do stupid things 
all the time. This guy took it to the next level.''
    Mr. Madasani said he went in to get a manager, and by the time he 
returned to the patio, the man was being escorted out.
    After Mr. Purinton was thrown out, Jeremy Luby, 41, a software 
developer, said he offered to pick up the tab for the two men, who 
thanked him during a brief conversation about work and cultural 
differences.
    ``It was wrong what happened to them,'' Mr. Luby said. ``I thought 
it was a nice gesture to say, `I'm sorry someone was being rude to you 
like that.' ''
    After the shooting began, another patron, Ian Grillot, 24, said he 
tried to count the shots while he hid under a table. Thinking the 
gunman had run out of ammunition, Mr. Grillot said, he confronted him, 
only to be shot in the hand and the chest.
    ``It wasn't right, and I didn't want the gentleman to potentially 
go after somebody else,'' Mr. Grillot said in a video released by the 
hospital where he received treatment. ``He did it once. What would stop 
him from doing it again?''
    The shots echoed around the area, and Chris Lacross soon emerged 
from a store a few doors down to an unimaginable scene: an emergency 
medical technician performing CPR on a man lying in the doorway of the 
bar's front patio, where tables and chairs had been flipped over, and 
someone was shouting that they needed towels.
    Another man took off his shirt and applied pressure to the wound of 
another victim, who was writhing in pain, said Mr. Lacross, who allowed 
some people to use a store restroom to wash away spattered blood.
    Within minutes, an emergency dispatcher, in a transmission archived 
by the Broadcastify website, told officers, ``We're being advised the 
suspect's name is Adam, and he's a white male wearing a white shirt 
with military medals.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Adam W. Purinton was charged on Thursday with one count of premeditated 
first-degree murder and two counts of attempted premeditated first-
degree murder. Credit Henry County Sheriff's Office, via Associated 
Press

    Capt. Sonny Lynch, the deputy chief of police in Clinton, Mo., 
where Mr. Purinton was arrested at an Applebee's restaurant, said a 
bartender there called the police after a customer confessed to his 
involvement in a shooting hours earlier.
    ``He was talking to her--`I'm on the run; I'm hiding out from the 
law'--so she stuck around,'' Captain Lynch said of the bartender. ``She 
just hung out there talking to the guy until he said, `I shot those 
guys, and that's why I'm hiding out from the police.' ''
    Mr. Purinton was arrested without incident, Captain Lynch said, and 
invoked his constitutional rights. It was not clear whether he had a 
lawyer.
    Mr. Purinton spent time in the Navy and, according to a website 
where veterans can list their military records, was deployed aboard the 
Long Beach, a missile cruiser, from 1988 to 1990. He later worked for 
the Federal Aviation Administration but left the agency in 2000, a 
spokeswoman said.
    In Johnson County, Kan., at least, he has had few run-ins with law 
enforcement. Court records showed a limited history: a speeding ticket 
in 2008, as well as a 1999 drunken-driving charge that was dismissed.
    A neighbor, Lisa Puckett, said that Mr. Purinton was frequently 
intoxicated but that news of a shooting was stunning.
    ``We always wondered if he might hurt himself, but we didn't think 
he would hurt someone else,'' she said.
    The dead man, Mr. Kuchibhotla, worked for Garmin, a GPS navigation 
and communications device company. One of the wounded men, Mr. 
Madasani, like Mr. Kuchibhotla in his early 30's, also worked for 
Garmin, according to the Indian government. On Friday, counselors were 
at the company's campus in Olathe, a hub of South Asian immigrants 
where 84 languages are spoken in the local school district.
    Speaking to reporters on Friday at the Garmin headquarters, Mr. 
Kuchibhotla's widow, Sunayana Dumala, said she had long been worried by 
shootings she read about in the newspaper.
    ``I, especially, I was always concerned, are we doing the right 
thing of staying in the United States of America?'' she said. ``But he 
always assured me that only good things happen to good people.''
    Now, Ms. Dumala said, she needed ``an answer from the government'' 
about what ``they're going to do to stop this hate crime.''
    Mr. Madasani's father, Jagan Mohan Reddy, a government engineer in 
Hyderabad, India, said his family was in shock. He said he did not know 
whether he would ask Mr. Madasani, who received a graduate degree from 
the University of Missouri-Kansas City, and another son living in the 
United States to leave the country.
    ``We have to think it over,'' he said. ``My sons are not new to 
America. They have been staying there for the last 10 to 12 years. This 
is a new situation, and they are the best judges.''
    Mr. Madasani, who has been released from the hospital, said he was 
recovering physically and mentally. ``I'm definitely doing much better, 
but it's not over yet,'' he said.
    On Friday, Mr. Kuchibhotla's killing and the wounding of Mr. 
Madasani led to a chorus of fury in India, where the attack dominated 
the news media to such an extent that the top American diplomat in the 
country was compelled to issue a statement condemning what she 
described as a ``tragic and senseless act.''
    In Washington, the White House press secretary, Sean Spicer, 
rejected any link between Mr. Trump's policy agenda and the shooting, 
which many Indians believed might have been inspired by the president's 
harsh tone on immigration.
    The Justice Department is under pressure to bring Federal charges 
in the case.
    Moussa Elbayoumy, the board chairman for the Kansas chapter of the 
Council on American-Islamic Relations, said the government should 
``consider filing hate crime charges in order to send a strong message 
that violence targeting religious or ethnic minorities will not be 
tolerated.''
    On Friday night, a diverse crowd of more than 400 gathered to 
grieve at First Baptist Church down the street from the bar. They 
offered their prayers to the Kuchibhotlas and the Madasanis, 
characterized the shooting as an anomaly in an otherwise peaceful, 
tolerant suburb and vowed they would not let that change.
    ``As a community, we are still shocked, devastated, and angry,'' 
Mayor Michael Copeland said. ``But this is not how this ends. This is 
not our Olathe.''
    He added, ``One evil act does not divide a united community.''
    Mr. Purinton was scheduled to appear in court on Monday. Austins, 
meanwhile, planned to reopen on Saturday

    Ms. Jackson Lee. Second is, ``1,094 bias-related incidents 
in the month following the election.'' I ask unanimous consent.
    Mr. King. Without objection.
    [The information follows:]
    Update: 1,094 Bias-Related Incidents in the Month Following the 
                                Election
                           December 16, 2016
https://www.splcenter.org/hatewatch/2016/12/16/update-1094-bias-
related-incidents-month-following-election
Hatewatch Staff
    This is the fourth update in the Southern Poverty Law Center's 
effort to collect reports of bias-related harassment and intimidation 
around the country following the election. This update spans the period 
from November 9 to December 12.
    The SPLC collected reports from news articles, social media, and 
direct submissions via our #ReportHate intake page. The SPLC made every 
effort to verify each report, but many included in the count remain 
anecdotal. Here's the breakdown nation-wide:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While the total number has surpassed the 1,000 mark, reports have 
slowed down significantly compared to the days immediately following 
the election. The reports are nonetheless as heartbreaking and 
infuriating as before. In Massachusetts:
    Just now, our 14-year-old son walked into our house and informed me 
that he just experienced his first hate crime. It's dark out so he was 
riding his bike on the sidewalk down the street from our house. He sees 
a man walking in the middle of the sidewalk, so our son says, ``Excuse 
me''. The man steps to the side and then yells, ``Hey nigger, next time 
get off of the bike''. This is a quick walk from our new home and I am 
enraged and saddened that someone near us would do that.
In Florida:
    I witnessed an apparently inebriated older white man in the park 
make an obscene gesture at two women in hijabs in a public park. The 
women scurried away and the man turned to me perhaps under the 
assumption that I shared his enmity. He made remarks about Ohio and, to 
the effect, that Muslims are subhuman and that ``President Trump got 
his work cut out for him.'' We exchanged words but I avoided an 
altercation and left the scene.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Overall, anti-immigrant incidents (315) remain the most reported, 
followed by anti-black (221), anti-Muslim (112), and anti-LGBT (109). 
Anti-Trump incidents numbered 26 (6 of which were also anti-white in 
nature, with 2 non-Trump-related anti-white incidents reported).
    We've also been tracking false reports (13 total), as a handful of 
high-profile incidents have been recently uncovered, including two (I, 
II) that we had previously counted and have removed for this update.
    While it is almost certain that more false reports will be 
uncovered, and the SPLC will be quick to update our database, the 
right-wing narrative that this wave of incidents are all hoaxes simply 
doesn't stand up to the numbers. Counting all 13 false reports (listed 
at the bottom of this post), of which only two were counted in our 
previous reporting, amounts to just over 1 percent of the total number 
of incidents collected in this update.
    Let's get to the numbers.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    As we've previously reported, many incidents cross multiple 
``types.'' This voicemail, left at a church known for its immigrant 
community outreach in Grand Rapids, Michigan, on Nov. 21, we 
categorized as one incident. Its main type was anti-immigrant while its 
subtypes were anti-LGBT, anti-Latino, and Trump.
    Here's the transcription:
    ``I think this is the gay church, that help gays that get kicked 
out of the country along with all the fricken Mexicans that are illegal 
that you guys are hiding illegally. I hope Trump gets ya. Trump Trump 
Trump. Trump Trump Trump. Trump's gonna get your asses out of here and 
throw you over the wall. You dirty rotten scumbags. Hillary is a 
scumbag bitch. Too bad waaa waaa. Hillary lost. Hillary lost. Trump's 
gonna getcha and throw you over the wall.''
    Like the incident above, around 37 percent of all incidents 
directly referenced either President-elect Donald Trump, his campaign 
slogans, or his infamous remarks about sexual assault.
    Within these Trump-related incidents, we can see which incident 
types most frequently included a reference to Trump (excluding anti-and 
pro-Trump only incidents which would both be 100 percent).
    By far, anti-woman incidents saw the greatest share:
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Trump-related incidents (including anti-Trump (26) incidents) 
appear to follow the same trend over time, dropping off since their 
peak during the period immediately following Election Day:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The most frequently reported incident type, anti-immigrant (315) 
incidents, were around 29 percent of all of those reported to us. We 
saw a number of different targets, as well as a more generalized 
sentiment against perceived foreigners that was vague in terms of 
targeting race or country of origin.
    Those subtypes break down as follows, with anti-Muslim incidents 
included (anti-Muslim incidents, separate from our anti-immigrant count 
but related in quality, also encapsulate incidents that could also be 
defined as anti-Arab):
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Of particular note in this updated time period is a string of 
hateful anti-Muslim letters sent to mosques and Islamic centers around 
the country. Between Nov. 23 and Dec. 2, the following centers all 
received an identical letter that described Muslims as ``Children of 
Satan'' and a ``vile and filthy people.''
California:
  <bullet> Islamic Center of Claremont
  <bullet> Islamic Center of Northridge
  <bullet> Evergreen Islamic Center
  <bullet> Islamic Center of Southern California, Los Angeles 
        (Koreatown)
  <bullet> Islamic Center of Davis
  <bullet> Islamic Cultural Center of Fresno
  <bullet> Long Beach Islamic Center
Elsewhere:
  <bullet> Masjid Miami Gardens
  <bullet> Islamic Center of Savannah
  <bullet> Masjid Al-Fajr Islamic Center of Greater Indianapolis
  <bullet> Islamic Center of Boston
  <bullet> Islamic Center of Ann Arbor
  <bullet> Islamic Center of East Lansing
  <bullet> Islamic Center of Cleveland
  <bullet> reports of an Islamic center in Denver, Colo.
    We've also been tracking the reported distribution of white 
nationalist (47), KKK (7), and anti-Semitic (3) posters and fliers. In 
total, we captured 57 separate incidents with a spike coming on the 
first Monday following the election:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    With white nationalist ``alt-right'' figureheads like Richard 
Spencer and Milo Yiannopolous touring college campuses, the increased 
confidence that these groups are feeling following Trump's victory, and 
the unprecedented press attention they are receiving, it isn't 
surprising to see that nearly 74 percent of these incidents occurred on 
campuses, where the `movement' hopes to build its numbers.
    The white nationalist alt-right youth groups behind these incidents 
were American Vanguard, Identity Evropa, TheRightStuff. We collected 
reports from the following colleges and universities:
  <bullet> University of Arkansas, Fort Smith
  <bullet> Arizona State University
  <bullet> University California, San Diego
  <bullet> University California, Davis
  <bullet> UCLA
  <bullet> University of California, Santa Cruz
  <bullet> University of California, Santa Barbara
  <bullet> University of Colorado, Colorado Springs
  <bullet> University of Augusta
  <bullet> Iowa State University
  <bullet> Michigan State University
  <bullet> Grand Valley State University
  <bullet> William Jewell College
  <bullet> Rutgers
  <bullet> University of Cincinnati
  <bullet> Miami University
  <bullet> Ohio State University
  <bullet> University of Oklahoma
  <bullet> Southern Methodist University
  <bullet> University of Texas, Dallas
  <bullet> Virginia Commonwealth University
  <bullet> University of Washington
  <bullet> Beloit College
  <bullet> Diablo Valley College
  <bullet> University of Florida
  <bullet> Florida Gulf Coast University
  <bullet> University of Central Florida
  <bullet> The University of Chicago
  <bullet> Indiana University-Purdue University
  <bullet> Purdue University
  <bullet> Amherst College
  <bullet> University of Maryland
  <bullet> Lebanon Valley College
  <bullet> Emerson College
    The breakdown of location types has stayed steady throughout our 
reporting, with the majority of incidents occurring at K-12 schools 
(226), businesses like Starbucks, Walmart, and restaurants (203), and 
colleges and universities (172).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In the days to come, if you or someone you know has experienced or 
witnessed a hate incident, please consider submitting the incident to 
the SPLC after first reporting to the proper authorities.
    Likely False Reports:
  <bullet> 11/9/2016 Lafayette, LA: A student at the University of 
        Louisiana at Lafayette fabricated a story about having her 
        hijab pulled off:
  <bullet> 11/9/2016 Santa Monica, CA: A filmmaker claimed he was 
        beaten by Trump supporters and posted a photo on Twitter. The 
        Santa Monica police never receieved a report about the alleged 
        incident, and no such patient was admitted to areas hospitals.
  <bullet> 11/9/2016 Mebane, NC: A picture was circulated on social 
        media that appeared to show Klan members marching across a 
        bridge. It was a conservative group and not Klan members.
  <bullet> 11/9/2016: Minnesota, MN: No verification: woman says she 
        was attacked, told to ``go back to Asia,'' deletes her account 
        and Facebook post.
  <bullet> 11/9/2016 Smyrna, DE: Woman threatened, called a ``black 
        bitch.'' Posts on Facebook. Says she has reported, that charges 
        have been filed. Police in Smyrna have no evidence of her 
        report or the incident.
  <bullet> 11/10/2016: A picture of two college students who appeared 
        to be posing in black face in front of a confederate flag was 
        circulated on social media. The flag was actually torn to show 
        opposition, and the students were wearing cosmetic face masks.
  <bullet> 11/15/2016 Calvert County, MD: A student claimed he was 
        assaulted by three men, two of whom were black. The report was 
        later deemed fake.
  <bullet> 11/16/2016 Dallas, TX: A racist and anti-LGBT flyer 
        allegedly found on the windshield of a car appears to be a 
        hoax.
  <bullet> 11/16/2016 Philadelphia, PA: A fake article circulated 
        alleging that Trump protestors beat a homeless man to death.
  <bullet> 11/17/2016 Bowling Green, KY: BG police say student lied 
        about politically driven attack.
  <bullet> 11/18/2016: Malden, MA: Man admits to faking hate crime in 
        Malden.
  <bullet> 11/22/2016 Chicago, IL: Hateful `Trump' Notes Allegedly 
        Aimed at Student Were Fabricated, University Says.
  <bullet> 12/1/2016 New York City, NY: Muslim college student made up 
        Trump supporter subway attack story to avoid punishment for 
        missing curfew.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Ms. Jackson Lee. I also would like to pose a question, Mr. 
Chairman, I will put it in writing, but I would ask that this 
committee, being the front-line committee on intelligence, be 
part of the investigation that would determine what questions 
were posed to the Department of Homeland Security and DOJ, but 
our jurisdiction is homeland security, in asking, let me just 
say I don't know whether the word was ``demanding,'' a 
memorandum that would support the administration's decision on 
the banning of Muslim countries, seven Muslim countries.
    It is a reported in the media that the Department of 
Homeland Security was asked to produce the memo to support the 
actions that were already taken. I think that is important 
information for us to have as Members of the Homeland Security 
Committee and as well for us to do our unfettered work, 
unfettered investigatory work and also meeting with the 
standards of this hearing, the future of counterterrorism, 
addressing the evolving threat in domestic security.
    We have to ensure that independence in our agencies.
    Let me pursue this with Mr. Bergen. Thank you for your 
work. I wouldn't say that I am, I won't use the term 
``fascinated,'' I was about to say it, but I am in awe at the 
initial writing of the Executive Order and all of its nuances.
    One of the ones that really struck me was the 120-day ban 
on refugees. That combines with--I am from the city of Houston. 
We have a large number refugees. For decades, we had a huge 
number of Iraqi refugees that came in after the war and on-
going. We have a huge number of Afghan refugees.
    You just made a very valid point. I have watched. I have 
been in Mosul and I have watched the retaking. I was there in 
the bloody, let me not characterize, but as a Member in the 
after-effect of all the bloodiness that went on in those 
earlier times. But we know that Mosul has been a site. Here we 
have Iraqi military forces with certainly the technical help of 
our very fine military, moving forward and moving in these ISIS 
strongholds. This is miraculous and bloody.
    So, who knows what refugees may come out of that? We know 
that there are people who are interpreters and otherwise. But 
would you please answer the question of the far-reaching impact 
of an Executive Order impacting refugees, 120 days, possibly in 
fear of their life? Then just the general statement that the 
Executive Order makes, in terms of the United States' history 
of friendship with the Muslim world.
    Mr. Bergen. Thank you, Representative Lee. You know, I 
would point to the indefinite ban of Syrian refugees----
    Ms. Jackson Lee. Yes.
    Mr. Bergen [continuing]. Coming into this country. You 
know, this is a bad idea. We have accepted 15,000 Syrian 
refugees, there are 5 million of them. So we have taken 0.2 
percent. The last way you would want to get into this country 
as a terrorist is a Syrian refugee. It is the hardest way to 
get in. It takes 2 years; you give up all your biometric data, 
it is quite a process. There is no evidence of any Syrian 
refugee engaging in any form of terroristic activity.
    So this was a counterproductive idea and these people are 
victims of terrorism. They are the victims of State-sponsored 
terrorism by Assad and victims of ISIS. They are, 
overwhelmingly, women and children.
    Ms. Jackson Lee. Thank you. I am glad you mentioned Syrian 
and the Iraqi and refugees overall are impacted negatively by 
this, I don't want to put words in your mouth, but this 
Executive Order.
    Mr. Bergen. Agreed.
    Ms. Jackson Lee. Thank you.
    I yield back. Thank you Mr. Chairman.
    Thank you to the Ranking Member.
    Mr. King, I have some follow-up questions I will ask the 
entire panel. It looks as if we are achieving great success in 
Mosul. Assuming that success continues in Iraq and Syria, how 
much of threat do you think we face in this country from 
terrorists who were driven out of Iraq and Syria, and I would 
say the threat to Europe and to the United States, since you 
will have well-trained terrorists there? Is there going to be a 
problem with them coming? Putting aside the refugee issue and 
all, I am talking about people coming into the country.
    Mr. Bergen. So far we see no ISIS-trained militants coming 
into the United States and we have only seen eight people, 
Americans, returning from Syria. They have trained mostly with 
other groups. So the problem is going to be in Europe. And, 
yes, there will be a problem.
    But, you know, ISIS is not the problem, it is a symptom of 
big problems that aren't going to be fixed very, anytime soon. 
We are going to see a son of ISIS and a grandson of ISIS if 
there is no political accommodation in Iraq and Syria, that 
produced ISIS in the first place.
    So, you know, we are going to be unfortunately testifying 
on this subject in the future if we can't solve the Syrian 
civil war and the Iraqi civil war, none of which is easy to do.
    Mr. King. I guess my concern was the immediate one as far 
as law enforcement and----
    Mr. Bergen. Yes.
    Mr. King [continuing]. Counterterrorism in this country. 
How alert do we have to be to an increase, a possible increase 
or upsurge in terrorists coming either into Europe or the 
United States?
    Mr. Bergen. I think it is particularly Europe. I mean, most 
of the Americans who have gone--there are very few Americans 
that succeeded in getting to Syria. A lot of them have been 
killed over there. You know, the volume of Europeans is, you 
know, 6,900, I think, in total. The number of Americans who 
have even gotten to Syria is maybe 50, half of whom are 
probably dead by now.
    So it is really the European problem and, of course, the 
problem in the Middle East, where, you know, probably, you 
know, more than 30,000 foreign fighters, not all of whom will 
get killed.
    Mr. King. Right.
    Mr. Bergen. So there will be this bleed-out problem.
    Mr. King. Mr. Simcox.
    Mr. Simcox. Yes, I think the European foreign fighter issue 
is a very serious one for the United States. These foreign 
fighters, of course, some of them are going to be killed in 
trying to defend Raqqah and Mosul and other ISIS strongholds, 
but many will return to their countries of origin. This 
obviously presents a severe threat for Europeans and, of 
course, Americans living in Europe, of which there are over 
1\1/2\ million.
    But you also have to think of the fact that European 
agencies, European security agencies around some of the 
countries especially impacted, Germany, Belgium, France, for 
example, are overwhelmed with the scale of the problem at the 
moment and they clearly would say themselves don't know who 
exactly has left the country and who exactly is going to be 
coming back in.
    Obviously, it is a lot easier for returnees, if they are 
not on the security radar, to travel to the United States from 
Brussels or Paris than it will be to go from Syria and Iraq. So 
I think you have to also think there is a potential threat to 
the United States from European returnees, not just in 
Americans abroad, but also in the U.S. homeland itself.
    Mr. King. Mr. Joscelyn.
    Mr. Joscelyn. Well, this is why I always come back to al-
Qaeda. Of course, I am well versed in ISIS threat, but part of 
the discussion here is that the military intelligence and law 
enforcement of the United States has been dealing with 
potential al-Qaeda threats emanating from Syria for some time 
now.
    There has been an uptick in airstrikes that have been 
deliberately targeting individuals who, according to the 
Defense Department, who, according to intelligence sources who 
talk to the press and make official statements, are involved in 
plotting against the West and specifically against the United 
States.
    Now, yes, it is difficult to get from Syria into the United 
States. It is much easier to get into Europe. They have all 
sorts of logistical problems in pulling off a major sort-of 
attack from there. But that doesn't mean they are not trying, 
it doesn't mean they are not probing, it doesn't mean that they 
don't want to eventually.
    Another factor here is that they have been very, very 
patient, and this is what makes me worried, in that they 
actually had a stand-down order for al-Qaeda in Syria for a 
couple years now where they were laying the groundwork for 
plots against the West, but they weren't given the green light 
for it.
    Basically, it was they were focusing on the war against the 
Assad regime and building popular support for al-Qaeda's cause 
in Syria, very dangerous in the long run. You want to talk 
about having hearings for the coming future? That is the type 
of thing we will have hearings in the coming future.
    But the point is that as in Syria, as in elsewhere, a small 
part of their resources are devoted to anti-Western plotting. 
So far, I think the United States has disrupted quite a bit of 
that, but it doesn't mean it doesn't exist, it is there.
    Mr. King. Commissioner.
    Mr. Davis. I believe that the more successful the military 
is in depriving these actors of their foreign lands, the more 
underground that they will go and they will attack us on two 
fronts. One through the internet, which I think we need to pay 
close attention to. The radicalization of our own people 
through the internet is an extreme problem that needs more 
robust defenses.
    Then the other thing is we can't forget that 9/11 was a 
very sophisticated plot. Terrorists will follow the path of 
least resistance in launching their threats. So Europe has a 
bigger problem than we have, but we cannot discount it here. 
They will, if they go underground, they will launch attacks 
against us from foreign lands that we need to be vigilant 
about.
    So at the same time that I believe trusting relationships 
with the people who live here are extremely important, it is 
also very important to have a good defense at our borders to 
keep out anybody who is intent on hurting our people.
    Mr. King. Thank you. I know I am over my time, but, Mr. 
Bergen, if I could just engage you on the question of the seven 
countries. We can debate the ban separately, but as far as 
those seven countries, agreed, there has not been serious 
attacks in the past from those seven countries.
    But again, when legislation was first passed, I guess, in 
2015 to 2016 about taking away the visa waiver status of 
Europeans and we attempted to determine which countries had the 
most potential for danger in the future, we agreed on four 
countries, and that was agreed on with the President and the 
Congress and that was voted on. The administration itself added 
three countries to come to the seven.
    Now, the Obama administration had the opportunity to add 
other countries, too, but it was the four that was agreed on 
with Congress and the administration. Then the administration 
added on the three as the countries which had the most 
potential danger.
    Certainly, as far as, you know, the visa waiver is 
concerned and if we mention countries like Saudi Arabia, 
Pakistan, Egypt, we do have much better relationships now with 
their intelligence agencies than we had on 9/11.
    On these other countries, you have Iran who is an enemy, 
and you have certainly Iraq could be a separate issue, I agree. 
But the other countries, basically there is no intelligence 
agency, there is no intelligence structure. In many ways, they 
are broken governments. I think in only three of those 
countries, we even have embassies. So, to me, that was the 
logic that went into those seven.
    Again, we can discuss the ban itself, or the temporary ban, 
separately. But I think there is a logic to those seven 
countries. But I would appreciate your thoughts, as I always 
do.
    Mr. Bergen. Thank you, Chairman King. You know, I think it 
was Jeff Flake and Senator Dianne Feinstein, who, you know, 
there is something that makes sense, which is if you are the 
citizen of a visa waiver country, which is almost invariably a 
Western country, and you have recently visited Syria and Iraq, 
yes, you should be the subject of scrutiny, and a number of 
these other countries. That makes sense.
    But just saying anybody who comes from these countries is a 
potential threat, that doesn't make, I mean, to me, that makes 
less sense. These countries are given a lot of scrutiny already 
if you are a citizen of these countries coming in to the United 
States.
    So what was sensible was to say if you are a European who 
has in the past 5 years visited Syria or Iraq, well, you could 
be on a humanitarian mission, but you could also be joining 
ISIS. Giving those people extra scrutiny, I think, made a lot 
of sense. But just saying anybody from these countries is a 
potential terrorist, I think, is overdoing it.
    Mr. King. We could debate that. But again, to me, that was 
the logic. They didn't include Saudi Arabia or Pakistan or 
Egypt or other countries, which maybe they could have.
    Mr. Joscelyn.
    Mr. Joscelyn. Yes, just to interject real quick. You know, 
I agree with what Peter said about dealing with specific 
threats as opposed to just everybody. This isn't a defense of 
the travel ban. It has to be dealing with specific threats, as 
I said in my written testimony. Most of the refugee crisis is a 
humanitarian concern, not a counterterrorism concern, but there 
are counterterrorism concerns there.
    Just when you go back to sort-of the history, you know, 
until 
9/11, we didn't have an Egyptian, Lebanese, Saudis hijacked 
planes and fly them into buildings before 9/11, you know?
    So the threat was emanating from countries and these were 
foreign nationals who went and got trained in Afghanistan and 
then made their way through the West to come here. This is a 
very complex sort-of situation. It is not something that goes 
down to just sort-of a crude nationality.
    In the terms of the seven, Congressmen, to sort-of just 
buttress your point a little bit, there is no doubt in my mind 
that some of preeminent threats to the U.S. security are 
emanating from Syria and Iraq today, also Yemen. We know AQAP 
has tried a number of times to launch attacks against us. 
Somalia, which is on the ban list, again, I am not defending 
the ban list, I think it is crude, but Somalia, there is a 
threat emanating there.
    Al-Qaeda has been experimenting with a very small explosive 
that they can slip onto planes. You heard Peter mention that 
possibility in one of the airports abroad, that they come into 
the United States, they have been experimenting with that type 
of explosive and they tried that in Somalia with a flight that 
came through Europe or was going to go through Europe.
    So I think the countries, and Libya as well, I think there 
are clear, defined threats from most of these countries. Iran, 
of course, is the principal gateway for al-Qaeda to this day. 
This is another issue that is not really discussed very much, 
but the Obama administration between July 2011 and July 2016, 
on numerous occasions said that the core pipeline for al-
Qaeda's operations around the globe, including sending 
operatives to the West, goes through Iran. That is, of course, 
on the list.
    So the ban, to me, is clumsy, there are many problems with 
it. But in terms of understanding where the threats are coming 
from, at least a number of the countries on this list are 
rightfully under scrutiny. I think there are other countries, 
as well. But again, you know, most of the people coming from 
these countries are not terrorists, of course.
    Mr. King. Ranking Member for as much time as she wants.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Bergen. it was recently reported that the President is 
looking in his budget, he is going to be looking to increase 
military spending and part of that was going to be paid for by 
cutting foreign aid. Can you talk about what that would do and 
how that would affect National security?
    Mr. Bergen. The $54 billion that the Trump administration 
is seeking for the Department of Defense, I mean, probably some 
of that is justified. But if it is just simply going to buy, 
you know, things like the F-35 or other pieces of hardware that 
are highly expensive and not that relevant to the actual wars 
we are fighting on, I think the Pentagon itself is going to 
push back on some of this.
    Because after all, it was Secretary Mattis who said, you 
know, that in 2013 that the State Department was essential. 
After all, we don't want to go to war, we want to stop wars 
before they happen. That is the job of the State Department. It 
is called diplomacy.
    So zeroing out foreign aid and basically, you know, kind-of 
gutting the State Department, I think, in the long term, is a 
terrible idea. I am not even certain that the Pentagon 
necessarily--of course, they want money for veterans and other 
things like that, but I don't think there is a huge demand 
signal.
    This seems to be more of a campaign promise that just sort-
of willy-nilly has been fulfilled without doing a lot of 
careful consideration about what are we trying to achieve and 
how to do we best try and achieve it rather than just saying we 
are just going to increase 10 percent to the Department of 
Defense.
    Miss Rice. Well, I actually think that it was Secretary 
Mattis before he became Secretary who said how critical foreign 
aid is in terms of maintaining calm and peace throughout the 
countries in areas that are, you know, that are in volatile 
areas.
    While having a robust military is obviously very important, 
from a diplomatic standpoint, from a non-interventionist 
standpoint, military interventionist standpoint, that that 
foreign aid to all of our allies across the globe is critically 
essential to maintaining that kind of world order.
    Would you agree that, Mr. Bergen?
    Mr. Bergen. I mean, we spend 1 percent of our budget is on 
foreign aid. So as a percentage of the budget, it is very, very 
small. Of course, sometimes it is misspent; I mean, we can't 
pretend otherwise. But the idea that it should be zeroed out, 
it doesn't make sense because sometimes it is misspent.
    Miss Rice. Thank you.
    Mr. King. The gentleman from Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Bergen, in your written testimony you claimed that New 
America, which is the organization that you are employed with, 
right, has collected data on 399 individuals accused of 
jihadist terrorism-related crime since 9/11 and the research 
shows that of the 94 people killed by jihadist terrorists 
inside the United States since that time, not a single death 
would have been prevented by the travel ban.
    Now, to me, this obviously ignores a number of attempted, 
failed, or less-than-lethal terror attacks that have been 
perpetrated by persons from these seven countries. I am just 
going to name a few here. A Somali refugee Abdul Razak Ali 
Artan went on a jihadi stabbing rampage at Ohio State. An Iraqi 
refugee Omar Faraj Saeed Al Hardan was accused of planning to 
bomb a local mall in Texas. A Somali refugee named Dahir Adan 
went on a stabbing spree in a mall in St. Cloud, Minnesota. A 
Somali refugee was arrested for planning to blow up a Christmas 
tree lighting ceremony in Oregon in 2010. An Iraqi refugee 
bombed a Social Security office in Arizona.
    So the question is, would the Executive Order protecting 
the Nation currently, well, as proposed, from foreign terrorist 
entry into the United States, had it been in place prior to 
these individuals coming, would it have prevented those 
instances?
    Mr. Bergen. Also in my testimony, sir, as you may have 
noticed, I mentioned some of these cases. In the case of the 
Ohio State attack, he actually came from Pakistan. He was a 
Somali refugee who went to Pakistan when he was a child. So did 
his radicalization take place in Pakistan, which is not on the 
ban? Did his radicalization take here in the United States?
    I mean, it raises the broader issue of, when children come 
to this country as refugees, are we going to ban them because 
10 years from now they might become terrorists?
    For instance, in the 1920's and 1930's, would it have been 
our policy to say, well, if you are from Sicily, which millions 
of people came to this country from, you know, because there 
was a possibility you might become a member of the mafia 10 
years down the road, we are not going to let you in. This is 
the logic of this ban, it doesn't make sense.
    Mr. Perry. Well, I don't necessarily agree with you on 
that, and I don't necessarily see it as a ban either, as more 
of a resetting to understand and make sure that the vetting 
process is correct and appropriate. It seems, in a way, that 
you are advocating for unless there is broad and wide-scale 
mayhem and destruction that we need to be reactive as opposed 
to proactive.
    Mr. Bergen. Of course I am not advocating that. What I am 
saying is the problem is an American domestic problem. I mean, 
every lethal terrorist attack in this country has been carried 
out by an American citizen or a legal permanent resident. I 
mean the issue is radicalization here, not----
    Mr. Perry. But it seems to fly in the face. I mean, if the 
police are searching for a serial killer, but something 
requires them to look at the whole panoply of everybody that 
was killed in the city, doesn't it kind of fly in the face that 
you need to focus your efforts on the things that make sense 
that connect and are common to the acts that are committed. The 
things that are common, you have to focus your efforts there 
because that tells the story of maybe why, who, how, these 
things are happening?
    If we just say, well, these things are happening everywhere 
and there is no commonality of origin or ideology, I think we 
are going to miss the mark.
    Mr. Bergen. Are you suggesting that we should ban travel 
from France?
    Mr. Perry. No, I am not suggesting that. But I am 
suggesting that some countries, some geography have a higher 
incidence and just like, as the Chairman said, the 
administration prior to this one recognized the exact same 
thing. As it is stated, as you call it, a ban, to me, it is 
just a timeout to make sure that we are doing everything we 
can, appropriately, regarding the countries that we find most 
at risk.
    It is essentially just renewing your insurance policy and 
looking at the risks that you have; as opposed to being 
reactive, we are being proactive.
    Let me just move on a little bit regarding the Muslim 
Brotherhood and designating them. I am sure you are familiar 
with the Holy Land Foundation investigation and civilization 
jihad, right?
    Mr. Bergen. Yes.
    Mr. Perry. So because we have relations and relationships 
with countries that recognize the Muslim Brotherhood, most 
recently, I am sure you are aware that Egypt, although 
democratically elected, rejected the Muslim Brotherhood and 
listed them themselves.
    But, you know we have had conversations with the likes of 
Saddam Hussein, the Castro regime, the North Koreans; 
meanwhile, we designate them in some effect as hostile actors. 
Can we not have our cake and eat it, too? Can we not recognize 
that these individuals and these organizations have a design to 
overturn our Government, our way of life in some cases and in 
many cases, even though that they are on the world stage and 
are world actors and we must have a relationship and some kind 
of dialog with them, but to understand what their clear 
intentions are take action regarding their intentions?
    Mr. Bergen. I think conflating the North Korean government 
with the Muslim Brotherhood is to make a category error.
    Mr. Perry. OK. Go ahead.
    Mr. Bergen. After all, I mean, Muslim Brotherhood is the 
government or part of the government in many of our closest 
allies. I mean, are you going to criminalize the leaders of the 
Iraqi government who are helping us in Mosul?
    Are you going to criminalize the Jordanian members of 
Parliament who are members of the Muslim Brotherhood? Or the 
Kuwaiti members of Parliament who are members of the Muslim 
Brotherhood?
    Are we going to behave like the Egyptian dictatorship, el-
Sisi, who criminalized the largest opposition party in his own 
country? Are you endorsing that?
    Mr. Perry. What I am endorsing is is that the United States 
needs to be vigilant regarding individuals and organizations 
that seek our destruction and our downfall and acting like as 
they wander among us in town that they don't have that intent 
when they have shown that very express intent, is suicidal, is 
suicidal for a nation.
    While it might not be the best vehicle, I think it raises 
the bar and puts those organizations on notice that we 
understand what their intentions are. Though we might have to 
deal with them, and we should deal with them for the good of 
mankind, we understand and recognize and disagree with their 
intentions.
    With that, Mr. Chairman, I yield.
    Mr. King. Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    As a district attorney before I was here, I was very 
concerned on gender violence issues, particularly sexual 
assault, domestic violence. The National Task Force on Ending 
Sexual and Domestic Violence recently stated that the Executive 
Order would endanger the safety of victims of sexual assault, 
domestic violence, and human trafficking, their families and 
communities at large, further isolate victims and erect 
barriers to establish legal protections for those victims.
    Mr. Bergen, can you comment on that?
    Mr. Bergen. I don't actually know, sir.
    Mr. Keating. Any of our panelists can comment on that?
    All right, I just wanted to also--we are making great 
success shrinking the footprint militarily with ISIL. One of 
the things that we are also making great success with that is 
probably less publicized is the way we are shrinking their 
financing as well.
    We are doing it with our elimination of their oil 
refineries and resources. They are doing it as we shrink the 
land because they can't tax the way that they could before. The 
other two issues are really the use of hostages and ransom and 
the trading illegally in antiquities and cultural artifacts.
    How are we doing on those other points? I know we are doing 
well, you know, on shrinking the footprint, which again deals 
with the taxing issue. But if you could just comment on how we 
are doing on those fronts.
    Mr. Bergen. Very well, ISIS has halved its salaries. You 
know, we dropped a big bomb, the United States, on one of their 
banks where they had a lot of their money in. The New York Post 
had one of the best headlines of all time, ``United States 
Makes Big Deposit.'' So we have really kind-of, you know, they 
are running a 30,000-man, 20,000-man army, it costs money. We 
have really put a hurt on that.
    They are running and one of the reasons we are seeing child 
soldiers, by the way, now is they are running out of manpower. 
We are seeing more and more child soldiers. So I think the 
approach is working, they are slowly being strangled.
    Mr. Keating. OK, yes?
    Mr. Simcox. I think one of the key things on the kidnap-
for-ransom issue is making sure that everybody is on the same 
page because are some countries which take this very seriously 
in terms of not paying kidnap money to ISIS.
    The United States takes it very seriously, the United 
Kingdom takes it very seriously. Some of the United States' 
European allies have been harder to persuade and actually are 
paying kidnap ransom money. ISIS and al-Qaeda are the groups 
who are able to sustain themselves because of it.
    Also, when you look, I think I agree entirely with Peter on 
some of the progress that is being made in the Middle East. But 
remember, some of the ISIS cells in Europe, for example, are 
kind-of, I mean, some of these are lower-level criminals who 
have got other ways of fundraising, you know, something closer 
aligned with criminal gangs and gangsters. So there are 
multiple problems that we need to be aware of.
    Mr. Joscelyn. You know, there were some designations by the 
U.S. Government last year dealing in the aftermath of 
counterterrorism raids against ISIS in Deir ez-Zor and the 
leadership there where what the documentation that was 
recovered showed extensive trading in antiquities from Palmyra 
and elsewhere in Syria and Iraq on the black market.
    It is very difficult to get a sense of what the total 
income is from this activity because it is illicit, because it 
is in the black market, and there were many trades that were 
discovered during those rates that were unknown. You know, 
there were the artifacts that were basically being put up on 
the block that were previously unknown to be in their 
possession.
    So it is very difficult in that aspect, which is only one 
of many of their revenues they are bringing in, to get a good 
sense of just how prolific they have been and perhaps could be 
in the future. I do think overall their finances have 
absolutely been hurt.
    On the kidnapping for ransom, again, you know, I know I am 
the al-Qaeda guy, I will keep coming back to it, but this is 
one of those areas where they been a little more sophisticated 
than ISIS in terms of getting kidnapping for ransoms because 
they have been able to maintain friendly relations with certain 
Gulf countries that have basically brokered very lucrative 
deals for them at times for U.N. people who were kidnapped near 
the Golan Heights, U.N. workers, and employees for high-profile 
Americans and others where they have been able to trade for 
millions and millions of dollars and earn ransoms.
    This is part of their strategy all the way from West 
Africa, all the way to South Asia and through the heart of the 
Middle East. So it is something to keep an eye on. As Robin 
said, some countries are good on it, others, a lot of them in 
fact, are not. So that is part of the problem.
    Mr. Keating. So that is something we should work with our 
friends then. I have another question.
    Oh, yes, did you want to talk about that, Mr. Davis? Sorry.
    Mr. Davis. I just wanted to mention that beyond kinetic 
weapons, the financial investigations and also shutting down of 
these websites or targeting people who are responsible for 
them, who are activating people in our country has been very 
effective.
    Mr. Keating. Good point.
    Mr. Davis. I don't understand why we can't shut down their 
magazines, why pursuing that on the internet and immediately 
shutting down the publications of these magazines that extol 
this radicalism and attacks against us couldn't be done more 
frequently.
    Mr. Keating. Yes. It wasn't long ago that I was in Tunisia, 
and here is the concern I have. Tunisia, as I think most of you 
know, has the highest per-capita number of foreign terrorist 
fighters, and they are coming back. Some of them going back to 
Libya, but some, you know, many are coming right back to 
Tunisia which is a pretty fragile country right now and they 
are not alone, but I will use them as an example.
    When we are cutting, as a country, our ability to help 
countries like that that are in crisis at this point, how 
dangerous is that, to do that? Because you have got a fragile 
country, you have got a high amount now of returning foreign 
terrorist fighters that they don't know how to deal with, 
according to reports.
    This is a great example how the United States, I believe, 
intervention there to help that country, you know, through the 
State side could be so critical and keep us safer. Would you 
like to comment on the need of doing that and why maybe making 
sure we have funding to help at these critical times is 
important?
    Mr. Simcox. Yes. Tunisia is obviously a very clear country 
of concern. Actually, I was speaking to the German government 
recently who, one of their main concerns at the moment is, they 
have lots of Tunisians in Germany that they regard as a threat, 
who shouldn't be there, trying to deport back to Tunisia, and 
Tunisia is saying we just don't want them back. Right?
    I mean, they already feel as if they are a threat. They are 
already under severe, you know, terrorist alert as it is. So I 
think that is an area where the United States has got to take 
the lead in helping coordinate that kind of thing.
    Mr. Keating. Well, thank you very much.
    Are you done, Mr. Joscelyn?
    Mr. Joscelyn. Can I just add here on Tunisia? I mean, that 
basically this is one of the few countries to come out of the 
Arab uprisings that has a chance actually for a better future 
at this point. You know, I think that America should scale up 
its efforts to support the Tunisian forces there instead of the 
opposite.
    You know, the Tunisian case as a country, I am sorry, is 
inextricably linked to Libya and the flow of fighters back and 
forth, which basically if you start looking at the whole 
situation, if we are not bolstering Tunisia, then we start to 
allow them to have greater operating access across North 
Africa, you know.
    So Tunisia is one of those key countries right now. Any 
strategist looking at the jihadi threat has to look at Tunisia 
as sort-of a key roadblock possibly to what the jihadis are 
doing.
    Mr. Keating. Great. Thank you very much.
    Mr. King. OK. First of all, let me thank the witnesses for 
their testimony. I think this was a very worthwhile hearing, 
testimony was very illuminating, and I think the dialog between 
the Members and the witnesses was very constructive. So I want 
to thank you really for your testimony.
    Thank you for all the work you have done with the committee 
in the past, and hopefully we can see you again the future. Any 
advice you have for us along the way, any input, we certainly 
welcome it, including yours, Mr. Bergen, really.
    [Laughter.]
    Mr. King. No.
    Thank you all very much. With that the hearing stands 
adjourned.
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

    Questions From Honorable Mike Gallagher for Edward F. Davis, III
    Question 1. Significant American aid dollars, mostly in the form of 
U.S. SF and intelligence assets, has assisted Nigeria in scoring 
several battlefield victories against Boko Haram in recent years. 
However, given not just the frequency of mass kidnappings, but the 
inability to locate these Nigerian victims and secure their release, 
what further support does Nigeria need both from a military and civil 
society standpoint, to ensure they can secure their own borders and the 
safety of their people without significant and indefinite U.S. aid?
    Answer. My current work as a National and international security 
consultant includes the field of domestic terrorism. Boko Haram is an 
example of world-wide terror organization that needs to be defeated. 
Beyond that I have no insight on what type of support is needed to 
insure Nigeria can secure their own borders and the safety of their 
people without significant and indefinite U.S. aid.
    Question 2a. Last month, Pakistan's military approved a 10-year, 
121 billion-rupee ($1.77 billion) development package for formal 
integration of the Federally-Administered Tribal Areas into the Khyber 
province. The plan needs approval from Pakistan's Federal Cabinet, but, 
given the military' s support of the plan, this approval is seen as a 
formality.
    Taking into account the FATA' s history of local governance, tribal 
politics, and active militants, how does Islamabad's decision 
potentially impact Pakistani militant groups?
    Question 2b. Could we see an uptick in attacks from the Pakistani 
Taliban and LeT within Pakistan or/and would we see the groups pushed 
out of Pakistan back into Afghanistan and become an even greater threat 
to Afghan and American forces?
    Answer. I do not have insight on 2(a) or 2(b).
    Question 3a. Are we now looking at social media for visa and 
refugee applicants to understand better any potential threats or 
dangers?
    What are the impediments and do you see a coordinated effort 
between the intelligence community, law enforcement, and State 
Department on a common approach?
    Question 3b. What are the data and privacy concerns attached to any 
of this?
    Answer. Social media is a critical component of effective 
background screening. Open-source reviews are an important part of a 
comprehensive background screening. A coordinated effort between the 
intelligence community, law enforcement and the State Department makes 
abundant sense in this process.
    There are data and privacy concerns attached to data sourced via 
internet. These concerns are well-founded. However, open-source data is 
and should be accessible to all. It would be negligent in today's world 
not to search open-source information as part of background screenings 
and intelligence gathering. All searches should adhere to Federal and 
State law.
    Question 4. Given your experience as Commissioner of a large urban 
police department that would frequently work with the FBI, how can 
local law enforcement, in conjunction with the FBI's Minneapolis Field 
Office and other relevant Federal agencies, work to prevent both self-
radicalization and formal jihadi recruitment of members of the Somali 
diaspora, particularly in the large cities of Minneapolis and St. Paul?
    Answer. Federal, State, and local law enforcement should work 
together using a community policing approach to conduct outreach to the 
Somali diaspora. They can schedule cross-jurisdictional meetings within 
communities where radicalization is most prevalent, to discuss issues, 
concerns, and establish relationships. Building relationships with all 
community groups is critical to finding solutions and receiving 
meaningful intelligence to thwart radicalization and attacks. The 
attendees of these meetings should include community members who bring 
different perspectives to the table. The meetings should go beyond 
community members who regularly attend community meetings. This is very 
important to encourage a vigorous discussion of the issues and work to 
establish trust with the entire community.
      Questions From Honorable Mike Gallagher for Thomas Joscelyn
    Question 1. Significant American aid dollars, mostly in the form of 
U.S. SF and intelligence assets, has assisted Nigeria in scoring 
several battlefield victories against Boko Haram in recent years. 
However, given not just the frequency of mass kidnappings, but the 
inability to locate these Nigerian victims and secure their release, 
what further support does Nigeria need, both from a military and civil 
society standpoint, to ensure they can secure their own borders and the 
safety of their people without significant and indefinite U.S. aid?
    Answer. Response was not received at the time of publication.
    Question 2a. Last month, Pakistan's military approved a 10-year, 
121 billion-rupee ($1.77 billion) development package for formal 
integration of the Federally-Administered Tribal Areas into the Khyber 
province. The plan needs approval from Pakistan's Federal Cabinet, but, 
given the military's support of the plan, this approval is seen as a 
formality.
    Taking into account the FATA's history of local governance, tribal 
politics, and active militants, how does Islamabad's decision 
potentially impact Pakistani militant groups?
    Question 2b. Could we see an uptick in attacks from the Pakistani 
Taliban and LeT within Pakistan or/and would we see the groups pushed 
out of Pakistan back into Afghanistan and become an even greater threat 
to Afghan and American forces?
    Answer. Response was not received at the time of publication.
    Question 3a. Are we now looking at social media for visa and 
refugee applicants to understand better any potential threats or 
dangers?
    What are the impediments and do you see a coordinated effort 
between the intelligence community, law enforcement, and State 
Department on a common approach?
    Question 3b. What are the data and privacy concerns attached to any 
of this?
    Answer. Response was not received at the time of publication.
        Questions From Honorable Mike Gallagher for Robin Simcox
    Question 1. Significant American aid dollars, mostly in the form of 
U.S. SF and intelligence assets, has assisted Nigeria in scoring 
several battlefield victories against Boko Haram in recent years. 
However, given not just the frequency of mass kidnappings, but the 
inability to locate these Nigerian victims and secure their release, 
what further support does Nigeria need both from a military and civil 
society standpoint, to ensure they can secure their own borders and the 
safety of their people without significant and indefinite U.S. aid?
    Answer. The Nigerian army and the rest of the multinational 
coalition fighting Boko Haram have made significant tactical gains 
against the group. However, sustainable progress requires that the 
Nigerian government implement a strategy that discredits the ideology 
that motivates Boko Haram's leadership and some of its recruits, and 
ameliorates the environment that facilitates Boko Haram recruitment.
    The U.S. Government can help Nigeria by increasing--in keeping with 
relevant American law--its tactical support to the Nigerian military, 
including ISR, training, and appropriate equipment. The United States 
should also insist on the importance of, and help the Nigerians build, 
strong and transparent security institutions critical to creating and 
sustaining the accountable, competent, and law-abiding force necessary 
for long-term success against Boko Haram and similar groups.
    The United States should, in tandem, provide direct support to 
competent Nigerian civil society organizations, especially those in 
Boko Haram-affected areas, working on counter-radicalization, rule of 
law, and economic-development initiatives.
    Question 2a. Last month, Pakistan's military approved a 10-year, 
121 billion-rupee ($1.77 billion) development package for formal 
integration of the Federally-Administered Tribal Areas into the Khyber 
province. The plan needs approval from Pakistan's Federal Cabinet, but, 
given the military' s support of the plan, this approval is seen as a 
formality.
    Taking into account the FATA' s history of local governance, tribal 
politics, and active militants, how does Islamabad's decision 
potentially impact Pakistani militant groups?
    Answer. The plan to integrate Pakistan's Federally-Administered 
Tribal Areas (FATA) into the Khyber Pakhtunkhwa (KPK) province is a 
welcome and long overdue step. The plan to scrap the outdated Frontier 
Crimes Regulation (FCR) and replace it with a code of law based on 
personal, rather than collective, responsibility will help protect 
individual rights. Furthermore, extending the jurisdiction of the 
Pakistani High Court and Supreme Court to the FATA and allowing the 
people of the region to participate in national elections will ensure 
they enjoy full and equal rights under the Pakistani Constitution. 
These political changes, along with the economic development package 
for the region, is critical to ensuring FATA does not remain a hotbed 
for terrorism. It also signals a change in mindset of the Pakistani 
military, which had long resisted incorporating the FATA into Pakistan 
proper, most likely to protect certain militant groups that operated 
there. Following through on the political and economic changes for FATA 
will help the military and civilian leadership consolidate the gains 
against the Tehrik-e-Taliban-Pakistan (TTP) made during Operation Zarb-
e-Azb.
    The outlook regarding the future of the anti-India Lashkar-e-Taiba 
(LeT) militant group is less certain. This group retains links to 
Pakistan's security establishment and is still perceived to be a useful 
tool against India among most Pakistani military and intelligence 
officials. While Pakistan recently took a positive first step against 
LeT by putting under house arrest the group's founder, Hafiz Muhammad 
Saeed, there have been no other tangible signs that Islamabad is 
reining in the group's operations. The major LeT compound at Muridke, 
outside Lahore, remains unaffected and there has been no information 
about LeT training camps or funding sources being shut down. Only time 
will tell if Pakistan is serious about also reining in the LeT.
    Question 2b. Could we see an uptick in attacks from the Pakistani 
Taliban and LeT within Pakistan or/and would we see the groups pushed 
out of Pakistan back into Afghanistan and become an even greater threat 
to Afghan and American forces?
    Answer. Large numbers of TTP militants have already moved across 
the border into Afghanistan as a result of the Zarb-e-Azb military 
operation. Some of these militants have rebranded themselves as members 
of the Islamic State (ISIS). The Afghan forces, with support from U.S. 
forces, have targeted these bases, mostly found in the eastern Afghan 
province of Nangahar.
    There is some concern following the string of attacks in Pakistan 
last month (including a major attack on a Sufi shrine that killed 
nearly 80) that TTP elements have been able to regroup inside Pakistan. 
A renewed push by the Pakistan military to crack down on terrorism, 
including sending 2,000 Pakistan Army Rangers into the Punjab province, 
is aimed at stamping out the residual terrorist networks.
    Question 3a. Are we now looking at social media for visa and 
refugee applicants to understand better any potential threats or 
dangers?
    What are the impediments and do you see a coordinated effort 
between the intelligence community, law enforcement, and State 
Department on a common approach?
    Question 3b. What are the data and privacy concerns attached to any 
of this?
    Answer. The United States is looking at social media in a select 
manner for visa applicants and travelers to the United States. 
Secretary of State Rex Tillerson has ordered consular officials 
responsible for conducting visa interviews to undertake ``mandatory 
social media check[s] for applicants present in a territory at the time 
it was controlled by ISIS.'' In applying through the electronic system 
for travel authorization (ESTA) to come to the United States through 
the Visa Waiver Program, travelers now have the option to provide some 
of their social media information. DHS has also tested multiple social 
media screening pilot programs but was criticized by the DHS inspector 
general for poor objective setting.
    (a) Resources are certainly a potential impediment. There are two 
primary ways to engage in social media vetting: Self-reporting and 
open-source intelligence gathering from the internet. Self-reporting 
may allow a targeted search of an individual's accounts but ultimately 
relies on the truthfulness of the applicant. Have they provided all 
their accounts to authorities? Have they provided false accounts? 
Solving such problems may ultimately require that officials resort to 
the second option of searching the internet. Unfortunately, finding 
each social media account belonging to every applicant's social media 
accounts seems to be a resource-intensive process. It also is no 
guarantee that searches of social media accounts on the internet will 
be able to find the ones belonging to the applicant in question. This 
is not to say that social media should never be used--but that mass 
collection of social media may be more trouble than it is worth.
    (b) If passwords are collected to access social media accounts then 
there are certainly concerns regarding how that data will be secured 
from hackers or insiders. It would be a gold mine to keep all those 
passwords in one place and would be targeted for malicious purposes. 
Another concern to consider is that U.S. citizens could be subject to 
reciprocal or retaliatory measures when entering other nations that 
could pose a threat to the privacy and security of American travelers' 
data.
        Questions From Honorable Mike Gallagher for Peter Bergen
    Question 1. Significant American aid dollars, mostly in the form of 
U.S. SF and intelligence assets, has assisted Nigeria in scoring 
several battlefield victories against Boko Haram in recent years. 
However, given not just the frequency of mass kidnappings, but the 
inability to locate these Nigerian victims and secure their release, 
what further support does Nigeria need, both from a military and civil 
society standpoint, to ensure they can secure their own borders and the 
safety of their people without significant and indefinite U.S. aid?
    Answer. Response was not received at the time of publication.
    Question 2a. Last month, Pakistan's military approved a 10-year, 
121 billion-rupee ($1.77 billion) development package for formal 
integration of the Federally-Administered Tribal Areas into the Khyber 
province. The plan needs approval from Pakistan's Federal Cabinet, but, 
given the military's support of the plan, this approval is seen as a 
formality.
    Taking into account the FATA's history of local governance, tribal 
politics, and active militants, how does Islamabad's decision 
potentially impact Pakistani militant groups?
    Answer. Response was not received at the time of publication.
    Question 2b. Could we see an uptick in attacks from the Pakistani 
Taliban and LeT within Pakistan or/and would we see the groups pushed 
out of Pakistan back into Afghanistan and become an even greater threat 
to Afghan and American forces?
    Answer. Response was not received at the time of publication.
    Question 3a. Are we now looking at social media for visa and 
refugee applicants to understand better any potential threats or 
dangers?
    What are the impediments and do you see a coordinated effort 
between the intelligence community, law enforcement, and State 
Department on a common approach?
    Answer. Response was not received at the time of publication.
    Question 3b. What are the data and privacy concerns attached to any 
of this?
    Answer. Response was not received at the time of publication.
    Question 4a. In your written testimony you mention CVE programs and 
the difference between counter-radicalization and counter-recruitment. 
Should we create community-led off-ramps for those individuals who are 
being radicalized--as has been recommended by think tanks like CSIS 
(Panetta/Blair Commission) and considered by the FBI in certain cases?
    What should that look like--and does DHS have a leading role to 
play?
    Answer. Response was not received at the time of publication.
    Question 4b. What are the best ways to, as you put it, ``enlist 
rather than alienate the Muslim community'' to prevent ISIS's and other 
radical groups' propaganda from spreading across American communities?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
